<html>
<title> - THE GROWTH OF GLOBAL SPACE CAPABILITIES: WHAT IS HAPPENING AND WHY IT MATTERS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 THE GROWTH OF GLOBAL SPACE CAPABILITIES: WHAT IS HAPPENING AND WHY IT 
                                MATTERS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 19, 2009

                               __________

                           Serial No. 111-65

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
53-446 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. McCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Space and Aeronautics

                HON. GABRIELLE GIFFORDS, Arizona, Chair
DAVID WU, Oregon                     PETE OLSON, Texas
DONNA F. EDWARDS, Maryland           F. JAMES SENSENBRENNER JR., 
MARCIA L. FUDGE, Ohio                    Wisconsin
PARKER GRIFFITH, Alabama             DANA ROHRABACHER, California
STEVEN R. ROTHMAN, New Jersey        FRANK D. LUCAS, Oklahoma
BARON P. HILL, Indiana               MICHAEL T. McCAUL, Texas
CHARLES A. WILSON, Ohio                  
ALAN GRAYSON, Florida                    
SUZANNE M. KOSMAS, Florida               
BART GORDON, Tennessee               RALPH M. HALL, Texas
              RICHARD OBERMANN Subcommittee Staff Director
            PAM WHITNEY Democratic Professional Staff Member
             ALLEN LI Democratic Professional Staff Member
            KEN MONROE Republican Professional Staff Member
            ED FEDDEMAN Republican Professional Staff Member
                    DEVIN BRYANT Research Assistant






















                            C O N T E N T S

                           November 19, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Gabrielle Giffords, Chairwoman, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    11
    Written Statement............................................    13

Statement by Representative Pete Olson, Ranking Minority Member, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    14
    Written Statement............................................    15

Prepared Statement by Representative Parker Griffith, Member, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    16

                               Witnesses:

Mr. Marty Hauser, Vice President for Research And Analysis, 
  Washington Operations, the Space Foundation
    Oral Statement...............................................    17
    Written Statement............................................    19

Mr. J.P. Stevens, Vice President, Space Systems, Aerospace 
  Industries Association
    Oral Statement...............................................    22
    Written Statement............................................    23

Dr. Scott Pace, Director, Space Policy Institute, The George 
  Washington University
    Oral Statement...............................................    26
    Written Statement............................................    28

Dr. Kai-Uwe Schrogl, Director, European Space Policy Institute
    Oral Statement...............................................    31
    Written Statement............................................    33

Dr. Ray A. Williamson, Executive Director, Secure World 
  Foundation
    Oral Statement...............................................    34
    Written Statement............................................    36

Discussion
  ...............................................................
    International Effect of U.S. Commitment......................    40
  ...............................................................
    Specialization in Space......................................    41
  ...............................................................
    ISS Continuation.............................................    42
  ...............................................................
    Specialization...............................................    42
  ...............................................................
    Maintaining American Leadership..............................    43
  ...............................................................
    Funding Problems.............................................    45
  ...............................................................
    ITAR Restrictions............................................    46
  ...............................................................
    Ares I.......................................................    48
  ...............................................................
    Mitigating Effect of Gap in Human Spaceflight................    48
  ...............................................................
    Global Space Market..........................................    50
  ...............................................................
    Selling Space to the Public Internationally..................    51
  ...............................................................
    Alternatives to Ares.........................................    52
  ...............................................................
    ITAR.........................................................    54
  ...............................................................
    Role of Private Advocacy.....................................    55

             Appendix 1: Answers to Post-Hearing Questions

Mr. Marty Hauser, Vice President for Research And Analysis, 
  Washington Operations, the Space Foundation....................    60

Mr. J.P. Stevens, Vice President, Space Systems, Aerospace 
  Industries Association.........................................    63

Dr. Scott Pace, Director, Space Policy Institute, The George 
  Washington University..........................................    67

Dr. Kai-Uwe Schrogl, Director, European Space Policy Institute...    72

Dr. Ray A. Williamson, Executive Director, Secure World 
  Foundation.....................................................    75


             Appendix 2: Additional Material for the Record

Letter to The Honorable Gabrielle Giffords and Honorable Pete 
  Olson from Louis Friedman, Executive Director, The Planetary 
  Society........................................................    80


 
                      THE GROWTH OF GLOBAL SPACE 
           CAPABILITIES: WHAT IS HAPPENING AND WHY IT MATTERS

                              ----------                              


                      THURSDAY, NOVEMBER 19, 2009

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Gabrielle 
Giffords [Chairwoman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                     U.S. HOUSE OF REPRESENTATIVES

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

 The Growth of Global Space Capabilities: What's Happening and Why It 
                                Matters

                      thursday, november 19, 2009
                           10 a.m.-12:00 p.m.
                   2318 rayburn house office building

I. Witnesses

Mr. Marty Hauser
Vice President for Research and Analysis, Washington Operations
The Space Foundation

Mr. J.P. Stevens
Vice President, Space Systems
Aerospace Industries Association

Dr. Scott Pace
Director, Space Policy Institute
The George Washington University

Dr. Kai-Uwe Schrogl
Director, European Space Policy Institute

Dr. Ray A. Williamson
Executive Director, Secure World Foundation

II. Overview

    The space age was an outgrowth of an international initiative in 
science, the International Geophysical Year (IGY) 1957-1958, that 
sought to collect coordinated global measurements about the Earth. 
Following the IGY, a number of nations, including the U.S., the Soviet 
Union, European states both individually and collectively, Japan, and 
Canada continued to pursue scientific and other activities in space, in 
many cases through cooperative projects. These collaborations led to 
many significant scientific and engineering projects including, for 
example, the Hubble Space Telescope, the Cassini mission to Saturn, and 
the International Space Station (ISS), which is the most extensive 
cooperative effort to date. However, the years following the IGY were 
also marked by competition, most notably the Cold War ``space race'' 
between the United States and the Soviet Union during the 1960s that 
culminated in the successful American Apollo 11 Moon landing in 1969.
    For most of the first half-century of the space age, the U.S. and 
Russia [formerly the Soviet Union] were the only nations capable of 
launching humans into space. In 2003, China launched a human into space 
and continues to take incrementally more challenging steps in human 
spaceflight. Other nations have recently entered the space arena or are 
quickly displaying increasing technical capabilities for space 
activities. As examples, years, China and India have successfully 
launched their first lunar probes, India has announced plans for a 
human space program, and numerous countries around the world have 
established space agencies.
    In addition to governmental activities, a space economy has grown 
to support the global demand for commercial space-related products and 
services. Over time, a number of foreign nations have acquired the 
capability to develop satellites and instruments and to deploy them 
with independent launch systems. Others have purchased space assets 
such as communications satellites on the commercial market and operate 
them as part of their national infrastructure.
    Attachment A provides a snapshot of international space 
capabilities and the global space economy.
    As an increasing number of nations pursue an active presence in 
outer space, they do so in a global environment that is increasingly 
interdependent and competitive economically and geopolitically and in 
which some of the most pressing societal challenges facing nations will 
require global solutions. As expressed in a recent report of the 
National Research Council, America's Future in Space: Aligning the 
Civil Space Program with National Needs, ``we live in a globalized 
world of societies and nations characterized by intertwined economies, 
trade commitments, and international security arrangements. Mutual 
dependencies are much more pervasive and important than ever before. 
Many of the pressing problems that now require our best efforts to 
understand and resolve--from terrorism to climate change to demand for 
energy--are also global in nature and must be addressed through mutual 
worldwide action . . . the ability to operate from, through, and in 
space will be a key component of potential solutions to 21' century 
challenges.''
    The hearing will examine the growth of global space capabilities -
among both established participants and new entrants-why it matters to 
the United States, and what policy issues it raises.

III. Issues

        <bullet>  What space capabilities now exist outside the U.S. 
        and are there any significant trends in that regard?

        <bullet>  Why does the growth of non-U.S. space capabilities 
        matter to the U.S.?

        <bullet>  What opportunities and challenges does the growth of 
        global space capabilities present to the United States?

        <bullet>  What issues does the growth of non-U.S. space 
        capabilities raise for Congress as it assesses the future 
        direction and funding of the U.S. space program?

        <bullet>  What issues does the growth of global space 
        capabilities raise for Europe as it assesses the future 
        direction and funding of its space activities?

        <bullet>  What space capabilities are developing in the 
        emerging space states, and are there any significant trends in 
        that regard?

IV. Background

Global Space Revenues and Budgets for 2008

    According to The Space Report 2009, global space revenues and 
government budgets totaled an estimated $257.22 billion in 2008, based 
on the best available information. In addition, The Space Report states 
that, ``Commercial activity continues to constitute the majority of the 
space economy, comprising 68% of the $257.22 billion total for 2009.'' 
The chart below shows a breakdown of the overall global space economy.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The U.S. government space budget is estimated at $66.63 billion for 
2008 of which NASA and the Department of Defense comprise 65 percent, 
according to The Space Report 2009. For Fiscal Year 2008, NASA's budget 
was $17.31 billion and the Department of Defense's space budget was 
$25.95 billion.




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The total estimate of international space budgets for 2008, as 
published in The Space Report 2009, is $16.44 billion. As shown in the 
table below, the overall international space budget has grown by 12 
percent from 2007 to 2008, although the growth was not shared among all 
space nations. Some foreign space budgets are reported to have grown 
significantly, while data documented in The Space Report 2009 shows 
that other foreign space budgets declined sharply.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Recent Advisory and Other Reports on Global Space Activities and Issues

    The goals pursued by nations seeking to develop space capabilities 
are varied and include fostering national prestige, developing 
technical skills and infrastructure, national security, innovation, 
applications to serve societal needs, scientific research, human 
exploration, commercial opportunities, and international cooperation.
    A number of recent reports have considered the benefits of 
international cooperation in space as well as issues related to the 
growing number of nations pursuing activities in outer space.

            Changing Environment

    ``There are rapidly emerging foreign space capabilities and the US. 
does not control their proliferation.'' (Briefing of the Working Group 
on the Health of the U.S. Space Industrial Base and the Impact of 
Export Controls, February 2008.)
    ``While the United States remains a world leader in advanced 
science and technology, it not longer dominates; it is now among the 
leaders. We are increasingly interdependent with the rest of the 
world.'' (National Research Council, Beyond ``Fortress America'': 
National Security Controls on Science and Technology in a Globalized 
World.)

            Potential for New Partnerships

    ``These maturing capabilities around the world create a plethora of 
potential partners for cooperative space endeavors, while at the same 
time heightening competitiveness in . the international space arena.'' 
(National Research Council, Approaches to Future Space Cooperation and 
Competition in a Globalizing World: Summary of a Workshop.)

            Potential to Serve Broader National and International 
                    Objectives

    ``Some particularly pressing or ambitious space activities 
currently under discussion (e.g. measuring and monitoring global 
climate change or continuing with human exploration of the solar 
system) may only be possible through international collaboration.'' 
(National Research Council report, America's Future in Space: Aligning 
the Civil Space Program with National Needs.)

            Potential for U.S. Strategic Leadership

    ``The strategic leadership that the United States needs to exert 
must be appropriate for the new era of globalization. The United States 
must strengthen ties to traditional allies and build increasingly 
effective working relationships with emerging powers.'' (National 
Research Council report, America's Future in Space: Aligning the Civil 
Space Program with National Needs.)
    ``Exerting a global leadership role in space activities is the best 
means to ensure that space activities can serve the broader security 
and economic interests of the nation.'' (National Research Council 
report, America's Future in Space: Aligning the Civil Space Program 
with National Needs.)

            Competitiveness

    In 2009, the Futron Corporation prepared Futon's 2009 Space 
Competitiveness Index: A Comparative Analysis of How Countries Invest 
In and Benefit from Space Industry. According to the executive summary 
of the report:

        <bullet>  ``The United States (U.S.) remains the current leader 
        in space competitiveness, but its relative position had 
        declined marginally based on increased activity by other space 
        faring nations.''

        <bullet>  The U.S. still leads in each of the major categories: 
        government, human capital, and industry, however, its 
        comparative advantage is narrowing in category.

        <bullet>  European competitiveness remained roughly unchanged, 
        with improvement in government metrics tied to improved policy 
        and successful exploration programs, but offset by lower 
        industry metrics.

        <bullet>  Russia also demonstrated improvements in government 
        metrics, alongside relatively lower human capital and industry 
        metrics.

        <bullet>  Japan posted major gains between the 2008 and 2009 
        SCI [Space Competitiveness Index] metric evaluations, due to 
        substantial changes in its space strategy as well as its new 
        space law. This resulted in the country jumping ranks from the 
        seventh position in the 2008 SCI to the fourth position in the 
        2009 SCI.

        <bullet>  China posted gains of nearly 10 percent in SCI points 
        overall, fueled by government activity and metrics, but fell 
        behind Japan in its overall ranking. The transparency of the 
        Chinese environment remains a hurdle for the country, which 
        publicly seeks greater international cooperation and commercial 
        activity.

        <bullet>  Canada jumped nearly 10 percent in its overall SCI 
        points, based on government metrics around both civilian and 
        military space policy, along with a commitment to increase 
        overall funding on space programs.

        <bullet>  India had a strong year of space activity, 
        registering double-digit improvements of government metrics, 
        but lagged in industry scoring.''

            Security

    ``Important components of our civil and military infrastructure 
reside in space, and America can provide true security for those space 
assets by committing itself to use of the global commons by all and by 
and by creating a mutual dependence in space that is in the best 
interests of all nations to protect.'' (National Research Council 
report, America's Future in Space: Aligning the Civil Space Program 
with National Needs.)

            Human Spaceflight

    ``The U.S. can lead a bold new international effort in the human 
exploration of space. If international partners are actively engaged, 
including on the ``critical path'' to success, there could be 
substantial benefits to foreign relations and more overall resources 
could become available to the human spaceflight program.'' (Review of 
U.S. Human Spaceflight Plans Committee, Seeking a Human Spaceflight 
Program Worthy of a Great Nation.)
    In addition, the Review of U.S. Human Spaceflight Plans Committee 
report also stated that ``an even greater impediment to U.S. 
involvement in international cooperative programs is the U.S. 
International Trafficking [sic] in Arms Regulations (ITAR). The 
Committee deems these laws to be outdated and overly restrictive for 
the realities of the current technological and international political 
environment.''

Capabilities. Thematic Areas

    Below are brief summaries of key space areas and the degree to 
which other nations participate in those space sectors.

            Spaceflight

    A number of nations have developed the capability to launch 
payloads into orbit. The United States, Russia, Europe, Japan, China, 
and India possess families of vehicles that can loft payloads into 
polar and geosynchronous orbits. Early in 2009, Iran made its first 
successful launch of a satellite into space and in late August of this 
year, South Korea launched a satellite that was not deployed 
successfully into its orbital location. North Korea has also pursued 
development of a launch vehicle capable of launching satellites into 
orbit. Other nations, including Spain and Brazil, have launch vehicles 
under development. Many nations with launch vehicle capabilities also 
maintain sounding rocket programs, which are typically low-cost access 
to the microgravity environment for research and university programs.

            Human Spaceflight

    For most of the last half-century, the U.S. and Russia [formerly 
the Soviet Union] have been the only nations capable of launching 
humans into space. As noted above, during the 1960s, the U.S. and the 
Soviet Union competed for primacy in human space flight. Later, in the 
early-mid 1970s as part of ``dentente'', the U.S. and the Soviet Union 
pursued a joint Apollo-Soyuz Test Project (ASTP) mission, which 
demonstrated the successful docking of a Soviet Soyuz and American 
Apollo spacecraft. The ASTP represented the first international human 
spaceflight project. In the early 1990s, the U.S. and Russia agreed to 
pursue further spaceflight cooperation on the Russian Mir space station 
and American Space Shuttle, followed by an invitation to Russia to join 
the International Space Station partnership. In 2003, China became the 
third nation to launch a piloted vehicle into space and in 2008 a 
Chinese astronaut conducted that nation's first extravehicular activity 
(EVA). In addition, over the years both the United States and the 
Soviet Union/Russia have used their human spaceflight programs to 
promote their geopolitical objectives through the flight of citizens of 
countries with which they had agreements to do so.
    Other nations have acquired human spaceflight experience as 
participants in the International Space Station program, including 
having their astronauts visit the ISS via the U.S. Space Shuttles or 
Russian Soyuz vehicles. The International Space Station includes 
European, Japanese, Russian, and Canadian partners that have developed 
and contributed modules, nodes, and laboratories, the robotic arm, and 
other key systems and hardware. Europe and Japan have recently 
demonstrated the ability to deliver cargo to the Station with the 
European launch of the Automated Transfer Vehicle (ATV) and the 
Japanese H-II Transfer Vehicle (HTV). Current plans include additional 
ATV and HTV cargo deliveries to the ISS. NASA and the European Space 
Agency recently signed a memorandum of understanding on civil space 
transportation cooperation in an effort to share engineering analyses 
and technology concepts that will help work on future launch systems, 
human spaceflight and exploration beyond low Earth orbit.
    According to an article in the October 12, 2009 issue of Aviation 
Week and Space Technology, China plans to launch a 20-metric-ton Space 
Station by 2020. As part of the preparations for that milestone, a 
Tiangong 1 target spacecraft will be launched on a Long March launch 
vehicle within the next year or so. Beginning in 2011, crewed Shenzhou 
missions will conduct flights and Chinese astronauts will practice 
docking and EVA activities with the Tiangong 1 spacecraft, according to 
the Aviation Week and Space Technology article.
    With the Vision for Space Exploration initiated by President Bush 
in 2004 and authorized by Congress, fourteen nations came together in 
2006 to create a strategy for working together on exploration beyond 
low-Earth orbit. The results of that cooperative effort, The Global 
Exploration Strategy: The Framework for Coordination, discusses the 
benefits of coordinating global exploration in space such as leveraging 
investments, sharing lessons learned, and improving the safety of human 
spaceflight. The strategy outlines potential areas of coordination that 
could include, for example, identifying standards to facilitate 
interoperability, establishing processes to broaden participation in 
planning and coordination, and assessing international legal agreements 
and any requirements therein.
    President Barack Obama met this week with Chinese President Hu 
Jintao in Beijing. According to a U.S.-China Joint Statement dated 
November 17, 2009 and issued by the White House Office of the Press 
Secretary, ``The United States and China look forward to expanding 
discussions on space science cooperation and starting a dialogue on 
human space flight and space exploration, based on the principles of 
transparency, reciprocity and mutual benefit. Both sides welcome 
reciprocal visits of the NASA Administrator and the appropriate Chinese 
counterpart in 2010.''

            Science

    With its roots in the IGY, the space sciences have a long heritage 
of international cooperation and coordination. The U.S. engages in both 
multilateral and bilateral cooperative efforts in space science. The 
fruits of these cooperative activities have been realized in several 
productive scientific missions including the Hubble Space Telescope, 
the series of ocean altimetry missions that measure sea-surface height, 
the Solar and Heliospheric Observatory that studies the Sun, and the 
Tropical Rainforest Measuring Mission to monitor tropical rainfall, 
among several others. In 1958, after the Soviet launch of Sputnik 
opened the space age, the International Council for Science (previously 
the International Council of Scientific Unions) created the Committee 
on Space Research, a multidisciplinary international science committee 
to exchange the results of scientific activities conducted in space: 
COSPAR currently lists 44 member nations.
    In addition to the larger national and regional space programs, 
including those of the U.S., Europe, France, Germany, Japan, and 
Canada, several nations with emerging space programs, including India 
and China, have also begun to demonstrate increasing capabilities in 
space science activities. For example, Brazil and China have cooperated 
on a series of Earth resources satellites. Japan, China, and India 
launched lunar orbiters, the first planetary missions for China and 
India. At the same time, nations with more established space programs 
also continue to augment their technical skills and abilities to 
accomplish increasingly challenging scientific activities, often 
through cooperative projects. As examples, in November of 2009 NASA and 
the European Space Agency signed a statement of intent for potential 
joint robotic exploration of Mars, and Russia and India are planning a 
robotic lander and rover expedition to the Moon.

            Global Navigation and Positioning

    The U.S. maintains the only completely operational global 
positioning and navigation system (GPS)--the U.S. Navigation Signal 
Positioning System, according to The Space Report 2009. The U.S. GPS 
system provides for both military and civilian applications. The 
Russian satellite navigation system, the Global Navigation Satellite 
System (GLONASS) is used for military and civilian purposes. According 
to The Space Report 2009, the Russian system ``declined during Russia's 
economic downturn and is in the process of being reconstituted.'' The 
European Union is developing a 30-satellite civilian satellite 
navigation and positioning constellation, Galileo, with a projected 
date of service beginning in 2010, according to The Space Report 2009. 
In addition, China is planning to add to its existing Compass Satellite 
network to provide positioning and navigation services over the Asia 
Pacific region, Japan is developing the Quasi-Zenith Satellite System 
to augment GPS service over Japan, and India is developing the Indian 
Regional Navigational Satellite System.
    Global navigation and positioning data are being used in myriad 
applications including transportation, logistics, and location 
services, among others. The commercial market for positioning and 
navigation has been in the devices that receive the signals and in 
associated services. As stated in The Space Report 2009, ``The 
satellite positioning market is extremely large, with estimates of the 
total revenues from equipment and services ranging as high as $56 
billion a year, according to a 2008 study from ABI Research.''

            Remote Sensing

    Remote sensing data are used for a variety of purposes including 
scientific research about climate change, the Earth system and 
environment; weather forecasting; intelligence-gathering; urban and 
land-use planning; and in applications to agriculture, fishing, mining, 
construction, and public health. As discussed in the National Research 
Council report, America's Future In Space: Aligning the Civil Space 
Program with National Needs, ``Changes in land-use patterns, 
agricultural productivity, ecosystems' health and forest resources are 
readily observed from space; and their management can be enhanced by 
the use of accurate position-sensing information and diagnostic 
measurements taken at multiple wavelengths and as a function of time. 
Space observations are thus an essential component of the ability to 
manage the planet's resources, a source of knowledge that might protect 
against the effects of its most damaging forces, and a tool to verify 
the impact of international environmental agreements.''
    According to The Space Report 2009, ``In 2008 the National Oceanic 
and Atmospheric Administration's (NOAA) Advisory Committee on 
Commercial Remote Sensing reported that there were 88 satellites in use 
or in development . . . operated by 27 different countries'' for civil, 
scientific, and military applications. In addition, a report by the 
Center for Strategic and International Studies (CSIS), Briefing of the 
Working Group on the Health of the U.S. Space Industrial Base and the 
Impact of Export Controls, notes that Russia, France, Israel, Korea, 
and India have commercial imaging satellites of one meter in resolution 
or better; Canada, the European Space Agency, Italy, Germany, and Japan 
have civil radar imaging satellites; India and Argentina will also 
possess radar imaging capability; and China has deployed two radar 
imaging spacecraft.

            Communications

    Communications satellite services are a critical part of the 
infrastructure in many nations, because they enable connections between 
distant and remote locations and provide a means to transmit video, 
data, voice, and radio content to multiple locations at the same time.
    According to The Space Report 2009, the bulk of the satellite 
communications services are provided by multinational service providers 
such as Intelsat. In addition, several nations operate satellites that 
provide communication services to a region or a nation. Nations with 
the capability to operate fixed communications satellites include 
China, Argentina, the United Kingdom, Egypt, Greece, Russia, Spain, 
Indonesia, India, the United States, Kazakhstan, Korea, Philippines, 
Malaysia, Nigeria, Pakistan, Mexico, Luxembourg, Thailand, Singapore, 
Japan, Israel, Brazil, Norway, Canada, Turkey, Venezuela, Vietnam, and 
the UAE, according to The Space Report. In addition, The Space Report 
also notes that ``The fixed satellite services revenue was the 
strongest market growth driver [for commercial satellite services] 
increasing 31% to $16.79 billion in 2008 from $12.82 billion in 2007.''

            Space Situational Awareness

    Ensuring the future safety of civil and commercial spacecraft and 
satellites is becoming a major concern, and one that will require 
international collaboration. The February 2009 collision between an 
Iridium Satellite-owned communications satellite and a defunct Russian 
Cosmos satellite above Northern Siberia highlighted the growing problem 
of space debris and the need to minimize the chances of in-space 
collisions. That collision also increased the number of pieces of space 
debris circling the Earth, a debris population that had already 
experienced a significant increase two years earlier following a 
Chinese anti-satellite weapons test that created thousands of 
fragments.
    While several nations such as Russia, France, Germany and Japan 
have some form of space surveillance capability, these systems are not 
interconnected and are neither as capable nor as robust as the United 
States' Space Surveillance Network (SSN).
    Many questions remain as to how to improve space situational 
awareness with an ever growing population of spacecraft and 
international operators. Improvements in information services, 
capabilities, resources, and coordination will all have to be 
addressed. In addition, although organizations and individuals have 
examined the pros and cons of potential space traffic management 
approaches or international ``rules of the road'', at this point, there 
does not appear to be a consensus on the appropriate long-term 
framework for space traffic management.
                              ATTACHMENT A
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairwoman Giffords. This hearing will now come to order.
    Good morning, everyone. First of all, I would like to thank 
all of our witnesses for coming here today and of course our 
Subcommittee members for being here and all of our staff.
    The topic of this hearing, ``The Growth of Global Space 
Capabilities: What Is Happening and Why It Matters'', is one 
that should concern all members of this Subcommittee but also 
all Members of Congress as well. Because the world is changing, 
and those changes present both opportunities and frankly some 
very challenges to the United States that we cannot ignore, and 
today we are going to hopefully get to the bottom of some of 
those opportunities and challenges.
    While I believe this hearing is particularly timely in 
light of the President traveling to China, Japan and other 
nations of the Asian region, there is another reason why we 
decided to hold this hearing at this time. We are at a critical 
juncture and decisions are being contemplated that will have a 
significant impact on both the direction and the health of our 
Nation's civil space program for decades to come. While the 
President and his advisors are engaged in their internal 
deliberations on what to recommend for NASA and its human 
spaceflight program, we believe it is imperative not for 
Congress to stand by idly. Instead, I believe that Congress 
must use the time remaining in this session to carry out the 
independent oversight necessary to oversee and assess the 
findings of the Augustine panel, and more importantly, to 
illuminate the stakes that are involved in whatever decisions 
the White House and Congress make regarding NASA's funding and 
future direction. We started that oversight process, you will 
remember, in September with a review of the overall, the 
totality of the Augustine report. We followed that full 
Committee hearing with a Subcommittee hearing to review what 
needs to be done to improve the effectiveness of NASA's 
technology programs, an issue raised by the Augustine panel.
    Schedule permitting, I intend to follow today's hearing 
with a hearing to examine human spaceflight safety issues, an 
area that many believe was given inadequate scrutiny by the 
Augustine report, and then a hearing to examine workforce and 
industrial-base issues that are inextricably linked to the 
decisions we make about NASA's future.
    As I mentioned earlier, our hearing this morning focuses on 
the growth of global space capabilities, capabilities that have 
significant implications to the United States as we contemplate 
the future of our own space program. As our witnesses will make 
clear, at a time when some in the United States seem to be 
questioning whether we should sustain a strong commitment to 
investing in our space program, the rest of the world has not 
hesitated to embrace the promise that the exploration and the 
utilization of outer space can offer to them. Those other 
nations recognize that space activities can spur innovation, 
help improve the quality of life of their citizens, promote 
national security and economic competitiveness, and advance 
geopolitical objectives. That recognition echoes the 
aspirations of our Congressional predecessors, many of whose 
portraits we see here today, when they first established NASA 
and undertook other related actions some 50 years ago.
    While the Sputnik moment delivered by the Soviet Union in 
1957 and the subsequent Space Race helped catalyze action by 
the United States government, it was not just geopolitical 
competition that drove us to invest in our U.S. space program. 
Important as the Cold War rivalry was, I believe that even 
then, visionaries in the Congress and the Executive Branch 
recognized the benefits to our society and our country that a 
strong and robust space program could deliver to the United 
States. History has proved them right. Here we are today. We 
can look at the myriad of ways that our space investments have 
transformed our economy, our defense and our quality of life 
over the last 50 years to realize that space has become woven 
into the very fabric of all of our daily lives. So it is no 
surprise that other nations, seeing the benefits that space 
investments have delivered to our Nation, they want to share in 
those benefits as well, and I, for one, see that as a positive 
development and not one to fear. While we must always be 
vigilant against those who would use space capabilities to 
threaten others, we should not turn away from opportunities for 
constructive engagement in peaceful space cooperation because, 
as our witnesses make clear, there are no lack of challenges 
that would benefit from cooperation among nations in the space 
arena. That of course was expressed by President Kennedy almost 
50 years ago. He said, ``This generation does not intend to 
founder in the backwash of the coming age of space. We mean to 
be part of it. We mean to lead it.''
    We face of course different challenges today than the ones 
that were faced by President Kennedy and folks that come before 
us in the Congress, but it is really that vision of the 
importance of space to the future of this country and the 
importance of generally overall U.S. leadership in exploring 
and utilizing space that has been borne out over the 
intervening years. It is clear that the space capabilities that 
have been created around the world can play a constructive and 
a significant role in addressing the many societal challenges 
we face today. It is also clear that our next great space 
endeavor, that of human and robotic exploration of our solar 
system, can benefit greatly from those same global space 
capabilities.
    Yet if we are to harness those capabilities, the United 
States needs to make clear to the rest of the world that we are 
not wavering. We are not wavering in our commitment to space 
exploration and to the path that we started down. Of course, it 
is hard to lead without a clear sense of direction. 
Fortunately, this Congress has a sense of direction. The NASA 
Authorization Act of 2008 established a Congressional consensus 
in support of a strong human and robotic exploration initiative 
as part of a robust and balanced space program and in support 
of the devoting the resources needed to pay for it. I know the 
President is currently grappling with many hard decisions in 
the days ahead as he attempts to balance competing priorities, 
but what to do about the Nation's space program doesn't have to 
be one of them.
    Based on the actions already taken by Congress over the 
last four years, I think there is a clear path ahead that 
already has broad Congressional support, and I am confident 
that he will support it.
    With that, again I thank you. I welcome our witnesses.
    And now we will hear from Mr. Olson.
    [The prepared statement of Chairwoman Giffords follows:]
          Prepared Statement of Chairwoman Gabrielle Giffords
    Good morning. I'd like to begin by welcoming our witnesses to 
today's hearing and thanking them for their participation.
    The topic of this hearing-``The Growth of Global Space 
Capabilities: What's Happening and Why It Matters'' is one that should 
concern all Members of this Subcommittee, and indeed all Members of 
Congress.
    Because the world is changing--and those changes present both 
opportunities and challenges to the United States that we cannot ignore 
. . . nor should ignore.
    While I believe this hearing is particularly timely given the 
president's current trip to China, Japan, and other nations of the 
Asian region, there is another reason why I decided to hold such a 
hearing at this time.
    We are at a critical juncture and decisions are being contemplated 
that will have a significant impact on both the direction and health of 
our nation's civil space program for decades to come.
    While the president and his advisors are engaged in their internal 
deliberations on what to recommend for NASA and its human space flight 
program, I believe it is imperative for Congress to not stand idly by.
    Instead, I believe that Congress must use the time remaining in 
this Session to carry out the independent oversight necessary to assess 
the findings of the Augustine panel, and more importantly, to 
illuminate the stakes that are involved in whatever decisions the White 
House and Congress make regarding NASA's funding and future direction.
    We started that oversight process in September with a review of the 
overall Augustine report.
    We followed that full committee hearing with a subcommittee hearing 
to review what needs to be done to improve the effectiveness of NASA's 
technology programs--an issue raised by the Augustine panel.
    Schedule permitting, I intend to follow today's hearing with a 
hearing to examine human space flight safety issues--an area that many 
believe was given inadequate scrutiny in the Augustine report--and then 
a hearing to examine workforce and industrial base issues that are 
inextricably linked to the decisions we make on NASA's future.
    As I mentioned earlier, our hearing this morning focuses on the 
growth of global space capabilities--capabilities that have significant 
implications for the U.S. as we contemplate the future of our own space 
program.
    As our witnesses will make clear, at a time when some in the United 
States seem to be questioning whether we should sustain a strong 
commitment to investing in our space program, the rest of the world has 
not hesitated to embrace the promise that the exploration and 
utilization of outer space can offer to them.
    Those other nations recognize that space activities can spur 
innovation, help improve the quality of life of our citizens, promote 
national security and economic competitiveness, and advance 
geopolitical objectives.
    That recognition echoes the aspirations of our congressional 
predecessors when they established NASA and undertook other related 
actions some fifty years ago.
    While the ``Sputnik moment'' delivered by the Soviet Union in 1957 
and the subsequent ``Space Race'' helped catalyze action by the U.S. 
government, it was not just geopolitical competition that drove us to 
invest in our space program.
    Important as the Cold War rivalry was, I believe that even then, 
visionaries in Congress and the Executive Branch recognized the 
benefits to our society and our country that a strong and robust space 
program could deliver to the United States.
    History has proved them right.
    We can just look at the myriad ways that our space investments have 
transformed our economy, our defense, and our quality of life over the 
last fifty years to realize the space has become woven into the very 
fabric of our daily life.
    So it's no surprise that other nations, seeing the benefits that 
space investments have delivered to our nation want to share in those 
benefits.
    I, for one, see that as a positive development and not one to fear.
    While we must always be vigilant against those who would use space 
capabilities to threaten others, we should not turn away from 
opportunities for constructive engagement in peaceful space 
cooperation.
    Because, as our witnesses make clear, there are no lack of 
challenges that would benefit from cooperation among nations in the 
space arena.
    That said, I agree with the sentiment expressed by President 
Kennedy when he said 47 years ago that:

         ``This generation does not intend to founder in the backwash 
        of the coming age of space. We mean to be part of it--we mean 
        to lead it.''

    We face different challenges today than the ones faced by President 
Kennedy, but his vision of the importance of space to the future of 
this country and the importance of U.S. leadership in exploring and 
utilizing space has been borne out over the intervening years.
    It's clear that the space capabilities that are been created around 
the world can play a constructive and significant role in addressing 
the many societal challenges we face today.
    It's also clear that our next great space endeavor--that of human 
and robotic exploration of our solar system--can benefit greatly from 
those same global space capabilities.
    Yet if we are to harness those capabilities, the United States 
needs to make clear to the rest of the world that we are not wavering 
in our own commitment to space exploration and to the path we have 
started down.
    It's hard to lead without a clear sense of direction.
    Or as Yogi Berra once said:

         ``If you don't know where you're going, you'll probably end up 
        somewhere else.''

    Fortunately, I believe we do know.
    The NASA Authorization Act of 2008 established a congressional 
consensus in support of a strong human and robotic exploration 
initiative as part of a robust and balanced space program--and in 
support of devoting the resources needed to pay for it.
    I know that the president will be grappling with many hard 
decisions in the days ahead as he attempts to balance competing 
priorities.
    But what to do about the nation's space program doesn't have to be 
one of them.
    Based on the actions already taken by Congress over the last four 
years, I think there is a clear path ahead that already has broad 
congressional support, and I am confident that he will support it too.
    With that, I again want to welcome our witnesses, and I look 
forward to your testimony.

    Mr. Olson. Madam Chairwoman, thank you for calling this 
morning's hearing to examine the efforts and goals of countries 
around the world that have recognized the importance of space 
capabilities to their respective nations. Understanding their 
objectives and how the United States can work with them 
directly and indirectly to achieve common goals must, must be 
an aspect of our own Nation's space program.
    Let me begin by thanking our witnesses for their appearance 
here today. I recognize that each of you has spent considerable 
time and effort preparing for this hearing and in some cases 
traveling a considerable distance to be here. Please know that 
this Subcommittee appreciates your efforts as well as the 
wisdom and experience you bring and that we will refer to your 
guidance in the months and years ahead.
    As has been well documented, the Space Age was born out of 
international cooperation, came of age during a time of 
international competition and now is maturing under a period of 
both. How we progress going forward has global implications 
beyond what we witnessed in the Cold War. We see nation after 
nation recognize that space-based capabilities are beneficial 
in the areas of disaster relief, broadband deployment, 
telemedicine, agriculture, training and education and climate 
monitoring, just to name a very few.
    As interested as I am to hear what other countries are 
doing and how they are investing their resources, I want to not 
lose sight of how those efforts should impact the United States 
of America. I am all for talking about global partnerships but 
we should never, ever cede American leadership in endeavors we 
have earned and invested in for several decades now. In the 
area of human spaceflight in particular, the activity of other 
nations is extremely telling. With each nation that commits to 
the goal of sending humans into orbit and with each promise of 
missions to the moon, both manned and unmanned, we should 
recommit ourselves to an unequivocal path of human spaceflight 
that serves as an example of leadership and potential 
partnership for other nations.
    Continuously since 2000, the International Space Station 
has orbited the earth as an example of how nations can work 
together to achieve great goals. The engineering, scientific 
and diplomatic achievements of this lab should be an example of 
the type of partnership we can achieve going forward. In an era 
of lowered economic resources, particularly in our Nation, we 
must find creative solutions to fund worthy enterprises.
    We spend a lot of time in this room talking about the 
benefits of space-based technologies, industries and 
exploration, and it is critical to convey that those benefits 
are not limited to the United States but that the impact is 
global. After all, satellites don't just orbit America.
    Whether the efforts are made at understanding our climate, 
to help people recover from natural disasters or to connect 
economies around the globe, we can look to space to help make 
our world a better place. When that is the goal we are 
discussing, it is more than worth the time of this Committee 
and our witnesses again for sharing your insights with us.
    Thank you, Madam Chairwoman. I yield back my time.
    [The prepared statement of Mr. Olson follows:]
            Prepared Statement of Representative Pete Olson
    Madam Chairwoman, thank you for calling this morning's hearing to 
examine the efforts and goals of countries around the world that have 
recognized the importance of space capabilities to their respective 
nations. Understanding their objectives, and how the United States can 
work with them directly and indirectly to achieve common goals must be 
an aspect of our own nation's space program.
    Let me begin by thanking our witnesses for their appearance today 
before this subcommittee. I recognize that each of you has spent 
considerable time and effort preparing for this hearing, and in some 
cases traveling considerable distance to be here. Please know that this 
subcommittee appreciates your efforts, as well as the wisdom and 
experience that you bring, and that we will refer to your guidance in 
the months and years ahead.
    As has been well documented, the space age was born out of 
international cooperation, came of age during a time of international 
competition, and now is maturing under a period of both. How we 
progress going forward has global implications beyond even what we 
witnessed during the Cold War.
    We see nation after nation recognize that space based capabilities 
are beneficial in the areas of disaster relief, broadband deployment, 
telemedicine, agriculture, training and education, and climate 
monitoring, just to name a very few.
    As interested as I am to hear what other countries are doing and 
how they are investing their resources, I want to not lose sight of how 
those efforts should impact the United States. I'm all for talking 
about global partnerships, but we should never cede American leadership 
in endeavors we have earned and invested in for several decades now.
    In the area of human space flight in particular, the activity of 
other nations is extremely telling. With each nation that commits to 
the goal of sending humans into orbit, and with each promise of 
missions to the moon, both manned or unmanned, we should recommit 
ourselves to an unequivocal path of human space flight that serves as 
an example of leadership, and potential partnership for other nations.
    Continuously since 2000, the International Space Station has 
orbited Earth as an example of how nations can work together to achieve 
great goals. The engineering, scientific, and diplomatic achievements 
of this lab should be an example of the type of partnership going 
forward. In an era of limited economic resources, particularly in our 
nation, we must work to find creative solutions to fund worthy 
enterprises.
    We have spent a lot of time in this room talking about the benefits 
of space-based technologies, industries, and exploration. It is 
critical to convey that those benefits are not limited to the United 
States, but that the impact is global. After all, satellites don't just 
orbit over America.
    Whether the efforts are to better understand our climate, to help 
people recover from natural disasters, or to connect economies around 
the globe, we can look to space to help make our world a better place. 
When that is the goal we are discussing, it is more than worth the time 
of this committee and I thank our witnesses again for sharing your 
insights with us.
    Thank you, Madam Chairwoman. I yield back my time.

    [The prepared statement of Mr. Griffith follows:]
          Prepared Statement of Representative Parker Griffith
    I would first like to thank Chairwoman Giffords and Ranking Member 
Olson for their work on this hearing. The Space and Aeronautics 
industry has become a booming industry ever since the Space race of the 
1960's. While the United States won the space race when Apollo 11 
landed on the moon in 1969, numerous countries before and after that 
time, have sent astronauts to space and established space agencies. 
America must continue to maintain its space dominance as superiority in 
space equals excellence in national defense, intelligence, education, 
future technologies, trade, and economic development. We can continue 
to be America, or we can settle for second best. We should never be 
satisfied with second best.

    Chairwoman Giffords. Thank you, Mr. Olson.
    If there are members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    Today we have a distinguished set of witnesses but we also 
have a new Member of Congress, John Garamendi, who is sitting 
in the audience. He is from California. John, where are you? 
Congressman, good to see you. Welcome. We are excited about 
having you in our Committee and we just want to welcome you and 
make sure you're feeling at home here.
    Mr. Garamendi. Thank you very much.
    Chairwoman Giffords. Okay. Let us take a moment to 
introduce our witnesses. First up we have Dr. Marty Hauser, who 
is the Vice President of Research and Analysis of the 
Washington Operations of the Space Foundation. As someone who 
played a key role in the Space Report 2009, he is well 
positioned to talk about the status of global space 
capabilities and the global space economy. Next up we are going 
to hear from Mr. J.P. Stevens, who is the Vice President for 
Space Systems at the Aerospace Industries Association. He is 
going to provide for us a perspective on the emerging global 
space environment and the implications for the U.S. aerospace 
industry and its workforce. We are also going to hear this 
morning from Dr. Pace, Dr. Scott Pace, who is the Director of 
the Space Policy Institute at the George Washington University. 
He is going to provide some insights on what is growing in 
terms of global space capabilities, what that means for the 
United States leadership and associated policies that we will 
need to confront. Also, we are going to hear from Dr. Kai-Uwe 
Schrogl, who is the Director of the European Space Policy 
Institute. He has agreed to provide a European perspective on 
the impact and implications of growing space capabilities, and 
we are pleased to have that foreign perspective this morning, 
so good morning. And finally we have Dr. Ray Williamson, who is 
the Executive Director of the Secure World Foundation. Dr. 
Williamson will provide perspectives on the capabilities of 
emerging space nations and as well some of the issues that we 
are going to need to consider when engaging with them.
    I will let all our witnesses know that you will each have 
five minutes for your spoken testimony. I know that is not a 
very long period of time but I know we are going to have some 
really good questions and discussion a little bit later. Your 
written testimony will be included in the record for the 
hearing, and when you have completed your spoken testimony, we 
will begin questions, and of course, each member will have five 
questions. So Mr. Hauser, we are going to start with you.

STATEMENTS OF MR. MARTY HAUSER, VICE PRESIDENT FOR RESEARCH AND 
     ANALYSIS, WASHINGTON OPERATIONS, THE SPACE FOUNDATION

    Mr. Hauser. Thank you, and good morning, Chairwoman 
Giffords, Ranking Member Olson and distinguished members of the 
Subcommittee. I am Marty Hauser and I am Vice President of 
Washington Operations Research and Analysis at the Space 
Foundation. On behalf of our board of directors and CEO, it is 
a pleasure to be here today and I want to thank you for holding 
this event.The Space Age is now more than 50 years old and has 
given birth to a global industry valued at more than $257 
billion. What was once the providence of only the United States 
and the former Soviet Union is now a dramatically growing 
industry. Many of our allies are catching up and they are 
catching up fast. They have developed their nascent space 
capabilities and are modestly and steadily investing in their 
own space capabilities.
    The trend we all know is that the U.S. leadership in space 
is eroding on multiple fronts and legislative policy and fiscal 
redirections are all critical. Most any space capability we 
have in the United States now exists in other nations. Quality 
may vary and no other country currently can do what we do but 
the number of countries' capabilities are growing and again 
growing steadily. Lots of countries have active space programs, 
even countries at the low- and middle-income levels. The fact 
is that more than 60 countries now have a space agency. This is 
a significant trend as it wasn't half that large just a few 
years ago. That said, with all of these nations so active in 
space, it is increasing opportunities for more international 
collaboration. Benefits can be found.
    Another trend is an increasing willingness to share 
knowledge and expertise about space. An example is China 
agreeing to build and launch satellites for Nigeria and 
Venezuela. They also train the staff in those countries how to 
operate those systems. Established space companies are also 
involved in training. The European company EADS is partnering 
with Kazakhstan to build satellites, operate a satellite 
integration center and train Kazak engineers. This is difficult 
for American firms to do because of ITAR restrictions.
    We also can't underestimate these countries either. Europe, 
Japan, Russia, India and China have first-rate launch 
capabilities. Japan, China and India all have programs today 
that include lunar exploration. This past September a Space 
Foundation delegation visited China and toured a number of 
previously classified facilities. While I was not on that trip, 
I was told it was quite stunning; the facilities are state-of-
the-art. Another member also went to French Guyana on a trip 
and came back saying it is a launch site can teach us many 
things about how to improve our launch infrastructure. He also 
noted the large numbers of young men and women doing 
engineering and technical work, that we need to better engage 
young Americans and we need to encourage them to work in 
America's space program. We are losing our competitive position 
in some of the most critical disciplines such as launch, 
manufacturing and services. We must work harder to preserve and 
retain strategic, technical and commercial advantages to remain 
the market leader in any global technology field.
    In some cases, international capabilities provide 
opportunities for us in terms of technology exchange, exports, 
outcomes through direct foreign investment. In other instances, 
the international capabilities may be competitive in nature and 
may reduce U.S. capability and economic opportunity over the 
long term. It can also create rivals, and I doubt that any of 
us want to hear about a Soviet-Chinese relationship and 
cooperation that goes on without involving the United States. 
From a purely pragmatic point of view, space is--are crowded 
and we need to reduce the debris that is up there because of 
potential for satellite collisions is great.
    Historically, the United States has held the position of 
space superiority. This means we are in a more favorable 
position than most other nations in space. However, this space 
superiority is declining quickly towards parity. A few quick 
examples. The Russians lead the world in space launch over the 
past five years. They intend to increase that dramatically. 
While Russia and the United States provide the most orbital 
launches from year to year, 2007-2008 the share of non-U.S.-
Russian launches grew from 34 to 41 percent.
    I don't envy your task but I agree with much of what you 
both said in your opening statements. So for me, this is my 
personal view as because comes down to one simple question: 
Does the United States want to continue to be the leader in 
space? If the answer is no, then we are already living our 
future. If the answer is yes, however, we must remember that 
our leadership position in space is not a birthright. Over the 
past 50 years we have had to make bold decisions and earn that 
leadership position. To continue being the global space leader, 
we must bite the financial bullet, roll up our sleeves and get 
to work. We apply our great minds and our great talent, find 
better and smarter ways. We make the tradeoffs to do what is 
necessary to get to and work in space. We build international 
partnerships and share costs. Where no one else can, we stand 
up and we lead the way we always have. We innovate, we educate, 
we produce and we lead. Space is an enabler for people around 
the world and a multitude of industries that can better our 
world, but to better our world, we must first as the United 
States once again enable space.
    Thank you for your time. I will be prepared to answer your 
questions later.
    [The prepared statement of Mr. Hauser follows:]
                   Prepared Statement of Marty Hauser

INTRODUCTION

    Good morning Chairwoman Giffords, Ranking Member Olson, and 
distinguished members of the subcommittee. My name is Marty Hauser and 
I am Vice President of Washington Operations, Research and Analysis for 
the Space Foundation. On behalf of myself and Space Foundation CEO, 
Elliot Holokauahi Pulham, I want to thank the subcommittee for 
providing the Space Foundation the honor to sit before you today to 
talk about the trends we are seeing in non-U.S. space programs.
    The Space Age is now more than fifty years old and it has given 
birth to a global industry valued at more than $257 billion. Early on, 
space was the province of only the former Soviet Union and the United 
States. By the 1970's, many of our allies had developed nascent space 
capabilities and they have modestly, yet steadily, invested in their 
capabilities. Today we have an International Space Station and more 
than 60 nations maintain space agencies with active space programs. 
Space is getting more crowded, not only due to a rise in government-
funded space activity on a global scale, but also due to significant 
growth in commercial space activity.
    The world's oceans and airspace have been transformed over the 
centuries from dangerous frontiers into channels through which trade 
and travel are routine occurrences. A similartransformation is taking 
place in space, as the global economy further establishes its dominance 
over the frontier beyond the Earth's atmosphere. The challenging and 
demanding environment of space means that activity there is expensive 
and time-consuming. In spite of this, other nations clearly see the 
value in space systems for a variety of reasons and they are devoting 
scarce resources to create and expand space capabilities.

WHAT SPACE CAPABILITIES EXIST OUTSIDE THE U.S. AND ARE THERE ANY 
                    SIGNIFICANT TRENDS IN THAT REGARD?

    U.S. leadership is eroding on multiple fronts and both legislative 
and policy redirections are critical.
    Almost any general space capability that exists in the United 
States, including human spaceflight, satellite manufacturing, launch, 
space science, and military applications, also exists in other nations. 
The quality of the capability may vary, but no other country has the 
same breadth and depth of capabilities as the United States. However, 
the number of countries with space capabilities is growing. This is 
illustrated by Iran's recently acquired satellite launch capability and 
efforts by the two Koreas to develop a launch capability. India has 
plans to develop a human spaceflight program and the quality of its 
other capabilities is improving. China has gone from rudimentary human 
spaceflight to plans for a space station in the coming decade. China 
clearly intends to achieve and maintain- status as a major space power. 
Other countries have selected leadership in certain niches and large 
number of countries have targeted development efforts toward Earth 
observation and remote sensing, including military intelligence and 
reconnaissance capabilities.
    Canada, China, much of Europe, Brazil, Israel, India, Japan, 
Russia, Iran and South Korea all have very active space programs. Some 
are more capable than others; however, even among nations ranked by the 
World Bank as having low or middle income levels, investments are being 
made in the acquisition and use of space hardware and expertise. In 
all, there are more than 60 nations that maintain space agencies. This 
is a significant trend, as we see steady growth in the number of 
nations whose governments are active in space in some fashion.
    As the number of spacefaring nations increases, so do the 
opportunities for international collaboration. The United States can 
reap benefits from this in the form of new partnerships, but another 
result could be that foreign governments will partner with each other 
instead of the U.S. space program. To maximize the return on smaller 
budgets, many nations seek to develop limited capabilities with the 
expectation that they will be able to partner with another nation that 
has complementary capabilities. For instance, a government may choose 
between satellite development and launch vehicle technology, rather 
than spending money on both. The natural partnerships that develop 
between two such countries are likely to extend into other areas of 
space activity because they already understand each other.
    Another trend is an increasing willingness to share knowledge and 
expertise about space technology and operations. Some countries take 
the approach demonstrated by China when it agreed to build and launch 
satellites for Nigeria and Venezuela, and to train staff in those 
countries to operate the systems. Established space companies are also 
involved in training, as when the European company EADS entered a 
partnership earlier this year with the government of Kazakhstan to 
build satellites, operate a satellite integration center, and train 
Kazakhengineers. The details of such agreements are as varied as the 
needs and abilities of the countries and companies that participate, 
but they all indicate an interest in generating returns on a collective 
investment rather than an individual one. This kind of activity is more 
difficult in the United States due to the restrictions imposed by ITAR, 
meaning that U.S. companies and government agencies are less desirable 
partners because of the regulatory complications involved.
    Europe, Japan, Russia, India, and China have first-rate launch 
capabilities. Japan, China and India all have programs today that 
include lunar exploration. Europe, Israel, and India have robust remote 
sensing capabilities. Canada has a wide range of niche specialties, 
most notably in robotics. Of particular note over the past decade is 
the emergence of China's human spaceflight capabilities.
    At present, there are only three nations with human spaceflight 
capabilities; the United States, Russia, and now China. Once we retire 
the Space Shuttle, that ``club'' will be just Russia and China for many 
years. I would also add that India has also been working on its own 
human spaceflight program as well.
    In September 2009, a delegation led by the Space Foundation visited 
China and toured a number of previously secret space facilities. It was 
a stunning experience. Not only are China's facilities newer than ours, 
but they are also state-of-the-art.
    This past summer, a Space Foundation member visited the European 
launch facilities in French Guiana. This modem and very active launch 
site can teach us many things about how to improve our launch 
infrastructure. Additionally, the large number of young twenty/thirty-
something men and women doing engineering and technical work in French 
Guiana should make us sit up and realize that we need to better engage 
young Americans and encourage them to join the space industry. I should 
add that China has a lot of young people working on its space program 
also.

WHY DOES THE GROWTH OF NON-U.S. SPACE CAPABILITIES MATTER TO THE U.S.?

    Space provides many kinds of strategic, economic, scientific and 
geopolitical benefits. Other nations understand this and they are 
spending time and resources on it.
    The United States is losing its relative competitive position in 
most critical space industry disciplines such as launch, manufacturing, 
service provision, and specialized services. Our relative competitive 
position matters a great deal economically in the near- to mid-term, 
and over the-longer term it is essential to our national defense and 
security position. It is also essential to retaining the strategic, 
technical and commercial advantages which accrue to the market leader 
in any global technology field.
    In some instances, international capability provides opportunities 
for enhanced outcomes, benefiting the United States through technology 
exchange, economic opportunity from exports, direct foreign investment, 
or lower costs. These capabilities are complementary and beneficial, 
and can provide additional means of cooperation on space ventures (like 
NASA flying instruments on the first Indian lunar mission, Chandrayaan-
1), which can . become part of achieving broader U.S. foreign policy 
goals.
    Other international capabilities are competitive in nature and may 
reduce U.S. capability and economic opportunity. In addition, some 
technologies and capabilities are strategic, meaning U.S. leadership 
confers value to the nation beyond pure capability or economic benefit. 
In some cases the growth of non-U.S. space capabilities can be 
threatening, as in the cases of Iran and North Korea. It can also 
create rivals to U.S. capabilities in space if other countries such as 
China and Russia cooperate with one another and/or other nations on 
projects without involving the United States.
    From a purely pragmatic viewpoint, the more actors in space, the 
greater the chances of collisions between spacecraft, increased lethal 
debris and associated traffic management problems, especially in low 
Earth orbit. This poses a problem for the U.S. since we have the 
largest number of space assets in orbit and the United States Air Force 
is charged with cataloging and tracking all active and inactive space 
objects. Currently the Air Force tracks more than 20,000 items in 
space. The U.S. should take a leadership role and encourage other 
spacefaring nations to agree to ``rules of the road'' for responsible 
action in space. If this does not happen, there is a greater risk to 
our space systems and it is more likely that we will lose access to 
those vital capabilities.
    From competitiveness viewpoint, having a strong technical workforce 
is essential for a nation to be a serious competitor in the global 
economy. Space is a potent lure for talented young minds. Competency in 
space activities translates easily into other high-tech sectors of the 
economy.
    We reported a trend of concern in our book, The Space Report 2009, 
showing that the United States is losing its lead in producing 
bachelor-equivalent degrees in technical fields critical to sustaining 
the space industry. In 2004, China produced approximately seven times 
the number of engineering graduates from a population four times that 
of the United States. In addition the National Science Foundation 
reports that graduate student visas have declined since the attacks of 
September 11, 2001 and that could translate into a declining talent 
pool for U.S. space industry recruiting.

WHAT ISSUES DOES THE GROWTH OF NON-U.S. SPACE CAPABILITIES RAISE FOR 
                    CONGRESS AS IT ASSESSES THE FUTURE DIRECTION AND 
                    FUNDING OF THE U.S. SPACE PROGRAM?

    Congress and the Administration must decide if America will 
continue to lead in space. The position of the United States is one of 
``space superiority,'' which means we have a more favorable position 
than most others nations in space. However, even that space superiority 
is beginning to slide toward greater parity.
    For example, the Russians are the world leaders in space launches 
over the past five years. While Russia and the United States provide 
the most orbital space launches from year to year, in 20072008 alone, 
the share of non-U.S./Russian launches grew from 34% to 41%. Similarly 
in spacecraft manufacturing trends, the United States fell from clear 
dominance in the 1990's to the point where in 2008 we produced the same 
number of satellites as Europe. These are just a couple of the trends 
and realities that become more clear each year.
    Earlier in my--testimony I highlighted the wonderful assets and 
facilities our European colleagues have in French Guiana. They should 
be commended for the intelligent and effective investments they 
continue to make in their launch site. They are not pouring vast sums 
of money into their facilities in an effort to outspend us, but they 
are certainly getting more out of their investments. While the funding 
amounts and budgetary processes of China's investment in space 
capabilities are hazy at best, I would posit to the subcommittee that 
they are not outspending us either. It is interesting to note that some 
nations, such as Russia and India, devote about half a percent of their 
national budgets to space, a proportion similar to U.S. funding for 
NASA. The reason that NASA's budget is larger than these other space 
programs is because the total U.S. budget is considerably larger.
    All of this begs several questions. What role does the United 
States want or need to play in the global space industry? What does 
securing and maintaining that position over time require both 
financially and strategically? Does the U.S. government fully 
understand the likely impacts of failing to achieve those goals? Can 
the nation afford to assume a second-tier role in certain areas? If so, 
what are those roles and what would the trade-offs be nationally for 
making such a choice?
    We must also sort out where the best opportunities for government 
and industry partnerships are to improve results, reduce duplicative 
effort and achieve the greatest cost efficiency? What are the best 
opportunities for international collaboration to achieve the same 
goals? Are there cost and effort efficiencies available within current 
programs which would permit the deployment of resources to the most 
essential future programs?
    Given the high projected costs of the ultimate goals of human space 
exploration, it seems unnecessary and unwise for one nation, such as 
the United States, to go it alone. The growing capabilities of these 
countries allow for cost-sharing on various aspects of such efforts, 
while maintaining U.S. leadership. However, as the number of 
spacefaring countries and their capabilities grow, it is not 
unreasonable to think that a consortium of them could work together on 
such missions without any involvement by the United States, if we 
decide to exclude them or decide not to undertake such efforts.
    If would be foolhardy for us to assume we know best for any and all 
things related to space. I suggest we take a hard look at our space 
capabilities and see where we have gaps and other failings. We should 
see where other nations are doing better in those areas and learn some 
lessons from them and in some cases partner with them. In areas where 
no one else is able to lead, the United States should stand up and 
lead.
    I've stated that other nations clearly and easily understand the 
value in investing in space systems. In the United States, we seem to 
perpetually ask ourselves if we should continue to invest in space 
systems. We currently lead the world in space, but that leadership 
position is not a birthright. We must choose to continue to lead. If we 
do not, we will be supplanted as the premier spacefaring nation.
    I stand ready to answer any questions.
    Thank you.

    Chairwoman Giffords. Thank you, Mr. Hauser.
    Mr. Stevens.

 STATEMENT OF MR. J.P. STEVENS, VICE PRESIDENT, SPACE SYSTEMS, 
                AEROSPACE INDUSTRIES ASSOCIATION

    Mr. Stevens. Good morning, Chairwoman Giffords, Ranking 
Member Olson and members of the committee, I am grateful to be 
here to testify before you today.
    The Aerospace Industries Association is the largest 
aerospace trade association in the United States and we 
represent--we have about 300 members and we represent over 
640,000 high-wage workers and indirectly support another 2 
million workers, 30 suppliers in all 50 states. We appreciate 
the efforts of Congress to keep both our civil and national 
security programs healthy.
    Commercial interests such as banking transactions, business 
and personal communications, all depend on communications and 
GPS satellite. Essential national security information and all 
of our military operations depend on space assets, and weather 
and climate satellites give us lifesaving warnings and 
information on climate change.
    Now, for many years the benefits of space programs were 
provided primarily by the United States and Russia. Our lead 
was achieved because space was given a Cold War priority as far 
as funding but funding is no longer at the level it was back 
then. Other nations with the proper workforce and foresight to 
make the necessary investments have rapidly caught up to us. 
Allow me just quickly to mention a few areas where I believe 
the United States has either lost or is losing its leadership 
in space, and that includes satellites, human spaceflight and 
launch systems.
    As you are well aware, satellites are employed and built by 
a number of nations. However, because of export control 
restrictions, many countries are building and employing 
satellites and advertising them as ITAR free. This is not good 
for our companies when our share of the world market now is 
only 29 percent. Global positioning system satellites are used 
by our airlines, our emergency responders and others and they 
also provide exact timing, which is critical to both the 
financial and banking industry. Of the $144 billion that is 
generated worldwide by satellite revenues, roughly $23 billion 
come out of our system, our GPS system. However, other nations 
are developing their own. Russia is about to launch six more 
satellites and will have their system completed by March. The 
Europeans and Chinese are working on theirs and they will have 
their systems completed sometime between 2014 and 2017, and 
India and Japan are developing their own systems. New global 
navigation satellite systems compete with our system but most 
importantly they raise the issues of compatibility and 
interoperability not only between the systems but also the 
systems they support.
    In regard to human spaceflight, the Chinese orbited an 
astronaut, as you are well aware, for a day in 2003 and since 
then they have made significant milestones. They have had 
multiple crews, orbital maneuvers and space walks. The thing to 
remember here is that they are on the same pace as we were 
during the moon race with the Russians but most importantly 
they are doing it with fewer flights. The Europeans and 
Japanese have flown cargo vessels to the International Space 
Station and the Europeans are now talking about taking that 
cargo section of their spacecraft and adding a human-rated 
capsule. India is planning to set up astronaut training in 2012 
and hope to have their first astronaut in space by 2015.
    Another area of concern for us is the U.S. commercial space 
launch industry which now only has about 15 percent of the 
global market. Now, why is all this important to Congress? 
Well, space is an excellent technology driver and military 
programs enabled early human spaceflight. Recall John Glenn, my 
former boss, and Yuri Gagarin were both launched on military 
ICBMs. Well, the reverse is also true. These countries that are 
getting into the space race now can enable their space 
capabilities into military capabilities.
    So what can you do? Well, the first thing we need from your 
is your commitment to maintain space leadership. To do this, we 
need stable and robust funding. Space programs take time to 
develop, test and build. Fluctuating budgets and delayed 
programs take their toll on agencies like NASA. We need your 
leadership to support space being treated as a singular 
enterprise where all the decisions and strategies of all the 
agencies that deal with space are coordinated at the White 
House level.
    We need your support with our future workforce. Currently 
we graduate only 74,000 engineers a year, and out of that many 
of them are foreign nationals that return to their countries to 
work on things like ITAR-free satellites and so that ends up 
leaving us about 60,000, and you compare that with China and 
India, basically they graduate hundreds of thousands each year.
    Space systems are also producing small numbers, so 
interruptions or cancellations negatively impact our big 
companies but they can be catastrophic to the small suppliers 
that often produce the small but critical components on which 
huge portions of our economy, infrastructure and national 
security depend.
    I agree with you, Chairwoman, that as a Nation we need to 
consider international partnerships but I will say cooperation 
needs to be equitable with our partners and not adversely 
impact our industrial base or our national security, and I 
think a good example of this is the International Space Station 
and I believe that the International Space Station should be 
funded and flown until at least 2020.
    In conclusion, our space technologies have become an 
important part of our Nation's economic and national security 
capabilities but our leadership in space and everything that 
space supports is no longer guaranteed.
    We thank the Committee for their time and I look forward to 
your questions.
    [The prepared statement of Mr. Stevens follows:]
                   Prepared Statement of J.P. Stevens
Introduction

    Good morning Chairwoman Giffords, Ranking Member Olson and members 
of the Subcommittee. I am grateful for the opportunity to testify 
before you today on the growth of global space capabilities.
    As the largest aerospace trade association in the United States, 
the Aerospace Industries Association (AIA) represents nearly 300 
manufacturing companies with over 640,000 high-wage, highly skilled 
aerospace employees across the three sectors: civil aviation, space 
systems and national defense. This includes over 140,000 workers who 
make the satellites, space sensors, spacecraft, launch vehicles and 
ground support systems employed by NASA, DOD, NOAH, NRO and other 
civil, military and intelligence space efforts. Our member companies 
export 40 percent of their total output, and we routinely post the 
nation's largest manufacturing trade surplus, which was over $57 
billion in 2008. Aerospace indirectly supports 2 million middle class 
jobs and 30,000 suppliers from all 50 states. The aerospace industry 
continues to look to the future, investing heavily in research and 
development, spending more than $100 billion over the last 15 years.
    AIA appreciates the efforts of the Congress to keep our civil and 
national security space programs healthy, as well as in promoting 
commercial space ventures. Over several decades space technologies have 
increasingly become a part of our daily lives with virtually every part 
of the U.S. economy being touched by their applications.
    Commercial interests such as banking transactions, business. and 
personal communications, and precise location for our emergency 
responders, airliners and automobiles all depend on communications and 
GPS satellites.
    Essential national security information and support of our troops' 
military operations are all are dependent upon space assets.
    Weather and climate satellites give us life saving warnings and 
provide us recurring, global wide data on climate change.
    Observing, monitoring and exploring space relies on incredibly 
robust equipment functioning in extremely hostile and demanding 
environments.
    Additionally our space programs, particularly NASA's work, remain 
an excellent source of inspiration for our youth to study science, 
technology, engineering and mathematics and to enter our aerospace 
workforce on which much of our nation's transportation, security and 
satellite infrastructure depend.

Global space capabilities

    For many years the benefits of space programs were provided 
primarily by the United States and Russia. Our leadership was based on 
the strength of our engineers and scientists, and research and 
development supported by our industrial base. Our lead was also 
achieved because space was given a `Cold War' priority and funding at a 
level it no longer receives.
    Now other nations with the foresight to make the necessary 
investments and a pool of talented workers have rapidly caught up. By 
learning from our early successes and mistakes their investments--while 
not insubstantial--have generally not needed to be as great as ours to 
reach near parity,
    Allow me to quickly mention just a couple of areas where the U.S. 
can rapidly lose its leadership edge in space: satellites and human 
spaceflight.
    Satellites are now employed and built by a number of nations. 
Because of U.S. export control restrictions some foreign built 
satellites actually advertise themselves as ``ITAR free.'' The U.S. 
share of overall world wide satellite manufacturing revenues was 47 
percent--or 4.6 billion dollars--in 2003 but it decreased to only 29 
percent--or 3.1 billion dollars, in 2008.
    An example of other nations developing their own satellite systems 
can be seen with Global Positioning System satellites, or GPS. Our GPS 
system is used by our military, airlines and emergency responders. It 
also provides exact timing that allows our communications to share 
limited bandwidth with more than one party at a time. This timing is 
also important to accurately mark financial and banking transactions.
    Of the 144 billion dollars generated world wide by satellite 
revenues in 2008, roughly 23 billion are directly related to America's 
GPS system.
    As a result, other nations are moving into the global navigation 
satellite market. Russia has modernized its GLONASS system and plans to 
launch six more satellites by March. It should be complete next year. 
The Europeans and Chinese both plan to have their systems--Galileo and 
Compass--operational between 2014 and 2017. India and Japan are also 
developing their own systems.
    New global navigation satellite systems will compete with our 
system, impacting our revenues. They will also raise issues of 
compatibility (ensuring new systems don't impact the function of 
existing ones) and interoperability (where the systems can work 
together).
    In regard to human spaceflight, other nations clearly recognize the 
value of space programs as innovation drivers, increasing world stature 
and as a source of national pride.
    The Chinese orbited one ``Taikonaut'' for nearly a full day in 
2003. Since then they have achieved significant milestones (multiple 
crews, orbital maneuvers and space walks). The Chinese have made these 
steps at about the same pace as the U.S. and U.S.S.R. did during the 
moon race and they are doing it with far fewer flights.
    The Chinese ``Shenzhou'' spacecraft is an adapted design of the 
Russian Soyaz, which the U.S.S.R. once sent around the moon and 
returned safely to the Earth with turtles aboard as biological 
specimens. Using several flights on. its Long March V rocket--currently 
under development--they could make a human moon landing within a 
decade.
    India is planning to set up an astronaut training center in 2012 
and is looking at a human launch around 2015. They have also sent a 
probe into lunar orbit.
    The Europeans and Japanese have developed and flown remote control 
cargo ships--the ATV and the HTV--to the International Space Station. 
The Europeans have suggested in time they can replace the cargo section 
of their craft with a capsule creating a human rated spacecraft.

Why is this important to Congress?

    There is a clear trend that the projects other nations have for 
space are already in place or could potentially be achieved within a 
decade.
    Space is a major demonstration of `smart power.' The United States 
is a world power--as is Russia--and we have strong space programs. 
China and India are becoming large players in the global economy and 
they will certainly continue demonstrating their prowess with space 
systems.
    Even more substantial is that space is an excellent technology 
driver. Military programs enabled early human space exploration. Recall 
John Glenn and the Russian Yuri Gagarin were launched on ICBMs. It is 
important to remember that the reverse is also true--strides other 
countries make in their civil or commercial space programs can enable 
military capabilities. From a security point of view we always want our 
space capabilities to be leading edge.
    Our lead has already shortened in many places. Over the last 20 
years competition from foreign launch systems has grown significantly. 
The U.S. Commercial Space Launch industry now only has about 15 percent 
of the global commercial launch market.

What can Congress do?

    Congress should maintain its commitment--both through the actions 
of its Appropriators and Authorizers--to U.S. space leadership so we 
have an edge, or at least are ``first among equals.'' This can best be 
done by ensuring our nation maintains its industrial drive.
    To do this first and foremost, our nation's space programs need 
stable and robust funding. By their very nature space programs take 
several years to develop, test and build. Once launched, satellites are 
not accessible, so systems must work with high reliability the first 
time. Fluctuating budgets and delayed programs take their toll on 
schedule, production and maintaining a skilled workforce on the 
project. Budget shortfalls also deeply impact agencies like NASA that 
have been asked to take on many valuable projects simultaneously.
    We need Congressional leadership to also support space being 
treated as a ``singular enterprise'' where the decisions and strategies 
of the many agencies using space are coordinated at a White House 
level.
    We face challenges with our future workforce. AIA members have 
identified that a ``lack of trained technical workforce for the 
future'' is one of the most important long-term issues facing our 
industry. Currently the U.S. annually graduates just 74,000 engineers 
in total--covering all fields in the discipline. Further, many of these 
students are foreign nationals who return home shortly after graduating 
which drops the number of domestically employable engineers under 
60,000. In comparison, China and India respectively graduate 600,000 
and 350,000 engineering students each year. The U.S. runs the real risk 
of losing its skilled engineering lead over other nations.
    Our space industrial base designs, develops, produces and supports 
our spacecraft, satellites, launch systems and supporting 
infrastructure. These systems are often produced in small, or even 
single, numbers. We need to keep this base healthy. We ask that 
Congress remember that interruptions or cancellations negatively impact 
large companies and can be catastrophic to smaller firms--often the 
only entities with the unique abilities to produce small but critical 
components on which huge portions of our economy, infrastructure and 
security depend. As an example, only one firm in the U.S. produces 
ammonium perchlorate which is used in solid rocket propellants 
including the space shuttle solid rocket boosters, other space launch 
and military capabilities.
    Additionally all other nations provide their commercial launchers 
with some form of government indemnification. The House recently 
extended our form of indemnification until the end of 2012 through the 
Commercial Space Launch Act. We hope the Senate follows suit. 
Elimination of U.S. government indemnification would drive even more 
launch business overseas and could also impact launches of U.S. civil 
and national security payloads. AIA. believes the indemnification of 
U.S. commercial space launch should be made permanent.
    Our nation needs to ramp up technological development, which has 
atrophied in recent years. In the September the Review of U.S. Human 
Spaceflight--or Augustine--Committee recommended NASA once again put 
greater focus into this area.
    As a nation, we need to consider future international partnerships, 
pooling funds, talent and resources for space exploration or climate 
study from space based sensors. International participation will 
increase the number of possible projects, providing us with a win-win 
situation. It will however, be important to ensure our cooperation is 
equitable with our partners, opening opportunities for all but not 
adversely impacting the U.S. industrial base.
    An important step to promoting further international cooperation in 
space is continuing U.S. participation on the International Space 
Station until at least 2020. U.S. involvement is currently in danger of 
ending in 2015. Supporting the ISS will clearly demonstrate America's 
commitment in other areas of international cooperation in space. 
Further this will allow America to continue utilizing the ISS as a 
National Laboratory.
    While AIA believes it is important to protect critical U.S. 
capabilities, many U.S. export control policies are counterproductive 
for our industry, negatively impacting our security interests. While we 
must keep sensitive technologies out of the wrong hands, we also must 
facilitate technology trade and cooperation critical to U.S. interests 
with our friends and allies in a timely manner. Barriers to the export 
competitiveness of U.S. companies have prompted numerous countries to 
develop their own indigenous aerospace capabilities., leveraging their 
own R&D and innovation. Without a cutting edge U.S. space industrial 
base, our government could be forced to rely on foreign suppliers for 
key components.

Conclusion

    Over the last 50 years, space technologies have become an 
increasingly important part of our nation's economic, scientific and 
national security capabilities. Over time, all sectors of the U.S. 
economy have become inextricably reliant upon space systems. As other 
nations make rapid advancements in acquiring or exploring space 
capabilities, America's leadership in space is no longer guaranteed and 
the securing of its space assets is no longer assured.
    I thank the committee for their time and attention and would be 
happy to answer any questions.

    Chairwoman Giffords. Thank you, Mr. Stevens.
    Dr. Pace.

STATEMENT OF DR. SCOTT PACE, DIRECTOR, SPACE POLICY INSTITUTE, 
                THE GEORGE WASHINGTON UNIVERSITY

    Dr. Pace. Thank you, Madam Chairwoman and Ranking Member 
Olson, for providing this opportunity to talk about this 
important topic, and I particularly commend the international 
orientation that you decided to take on this because I think 
this goes to the heart of the geopolitical significance of 
space that often isn't recognized.
    The geosynchronous arc is crowded with communication 
satellites. As you have heard, Russia, Europe, Japan, China, 
India are modernizing or building their own satellite-based 
navigation systems. The U.N. Committee on the Peaceful Uses of 
Outer Space is larger than ever with 69 member states. In some 
cases, developments are cause for congratulations, as is I 
believe the case when China became the third country to 
independently conduct a space walk. In others, these 
developments are a cause for concern as the case of North Korea 
and Iranian missile programs.
    Last month, I attended an annual meeting of the 
International Astronautical Federation in Daejeon, South Korea. 
There is a statute of South Korea's first astronaut on the main 
boulevard. The president of South Korea spoke at the opening 
ceremony and said, ``Space technology is already being applied 
in various areas of our daily lives. Space technology is the 
growth engine that will open the future of mankind and has 
become a necessary tool of our own survival.'' Representatives 
from Europe, Japan, Russian, China, India and Korea presented 
their increasingly specific plans for exploration of the moon 
and missions to Mars.
    NASA also presented current U.S. plans, and images of 
hardware being built and tested I have to say were quite 
impressive. Just as impressive was the expressed spirit of 
international cooperation and coordination not only among 
International Space Station partners but rapidly rising powers 
such as India, China and Korea, and this spirit has been in 
development not overnight but over the last three years and is 
part of an inclusive U.S. diplomatic strategy that resulted in 
14 space agencies agreeing to a common global exploration 
strategy.
    Unfortunately, ongoing U.S. debates combined with the 
realities of the fiscal year 2010 NASA budget have created an 
air of uncertainty over U.S. intentions. To borrow from Norm 
Augustine, you know, it is hard to get others to work on your 
garden if you are pulling up the flowers to check the roots.
    So the United States is a founding member of the space 
club, as you have heard, but we are at the risk of shifting to 
an emeritus status. The Chinese in particular have laid out a 
careful, logical approach in which they plan to launch a 
mission in 2011 to test docking and rendezvous techniques 
followed by a man-tended laboratory in 2015 and a three-man 
space station by 2020, an interesting date. The selection of 45 
new taikonauts is underway along with plans for a lunar sample 
return and a Mars orbiter, and I have to say I welcome peaceful 
Chinese space exploration efforts. However, I don't want to see 
them or other nations to be on the frontier of space without 
us.
    If we are not planning for what comes after the ISS, the 
government is in effect getting out of the human space launch 
business. There may be space tourists launched by U.S. 
companies, and I certainly hope so. But tourism alone cannot 
sustain a major international cooperative human spaceflight 
effort. If we are not going beyond the earth orbit, we are 
ignoring both the recommendations of the Columbia Accident 
Investigation Board and the reality of increasing globalization 
of space activity.
    For India, ambitious space efforts are to attract new human 
capital to a strategic aerospace sector which must compete with 
a growing information technology sector. For China, human 
spaceflight experiences are training a new generation of 
technical specialists and raising the quality level of 
industrial suppliers. For Japan and Europe, spaceflight demands 
are creating interdisciplinary skills that can increase the 
competitiveness of their aerospace and their non-aerospace 
sectors. The sophisticated system engineering demanded by human 
spaceflight is part and parcel of what a great nation does, and 
more importantly, a symbol of what it is capable of doing.
    Human spaceflight is the most demanding space activity 
technically, financially and organizationally. From the 
beginning it has also been the most symbolic activity both at 
home and abroad, a powerful symbol of cooperation among former 
adversaries such as on the International Space Station and the 
deep international relationships built through the ISS are 
among its most impressive and perhaps most enduring 
achievements to date.
    For the future, we need to continue efforts to bind friends 
and allies to us in a multi-partner world in which space 
capabilities are globalized. We need friends and allies to 
secure the global commons of space upon which we all depend. We 
need to inspire a new generation of Americans to take on many 
demands in a globally competitive environment driven by 
scientific and technical innovation. The international norms 
for human space activity will be shaped by those who are there, 
not by those who stay behind. If we want to see a human future 
in space that reflects our values, then we must be a part of 
that effort.
    The NASA Authorization Acts of 2005 and 2008, as mentioned, 
combined with the global exploration strategy that was 
developed with U.S. participation provides, in my view, a clear 
and practical way forward for this Nation. I hope the 
Administration and Congress will support the restoration and 
necessary NASA funds for exploration and carrying out those 
directions.
    The United States is facing a generational transition away 
from the period represented by the space shuttle and is just as 
profound as the transition from Apollo was. The Nation will 
need to compete and cooperate in space as never before. The 
transition is upon us now at home and abroad. Just as we see 
that others are not delaying their entries into space, the 
question before this House will be, what will this Nation do?
    Thank you for your attention and I would be happy to answer 
any questions you might have.
    [The prepared statement of Dr. Pace follows:]
                    Prepared Statement of Scott Pace
    Thank you, Madam Chairman, for providing an opportunity to discuss 
this important topic. The growth of global space capabilities presents 
several important opportunities and challenges in charting future 
directions and funding choices for U.S. space efforts. An understanding 
of the changing international landscape, from low Earth orbit to 
geosynchronous orbit, to the Moon and beyond, is of fundamental 
importance to many national interests. Our national security and public 
safety, global economic competitiveness and scientific capabilities, 
are all reliant on access to space and space-based capabilities.
    The geosynchronous arc is crowded with international communication 
satellites. Russia, 'Europe, Japan, China and India are modernizing or 
building their own satellite-based navigation systems. With Russian 
assistance, South Korea attempted to launch a satellite from its own 
territory this past August. Many smaller countries are organizing their 
own space agencies to support scientific and technical research in 
space, The United Nations Committee on the Peaceful Uses of Outer Space 
is larger than ever--with 69 member states. As with many other 
technologies, space capabilities are increasingly globalized--including 
human space flight. In some cases, these developments are a cause for 
congratulations as when China became the third country to independently 
conduct a spacewalk. In others, these developments are a cause for 
concern as in the case of North Korean and Iranian missile programs.

Globalization and Space

    Last month I attended the annual meeting of the International 
Astronautical Federation in Daejeon, South Korea. There was a statue of 
South Korea's first astronaut, Yi So-Yeon, on the main boulevard. The 
President of South Korea, Lee Myung-bak, spoke at the opening ceremony 
and said, ``Space technology is already being applied in various areas 
of our daily lives. Space technology is the growth engine that will 
open the future of the mankind, and it has become a necessary tool for 
our own survival.'' Representatives from Europe, Japan, Russia, China, 
India, and Korea presented their increasingly specific plans for 
explorations of the Moon and missions to Mars.
    NASA also presented current U.S. plans for replacing the Space 
Shuttle, and the images of the hardware being built and tested were 
quite impressive. just as impressive was the expressed spirit of 
international cooperation and coordination, not only among 
International Space Station partners, but rapidly rising space powers 
such as India, China, and Korea. This spirit has been in development 
for three years, based on an inclusive U.S. diplomatic strategy that 
resulted in 14 space agencies agreeing to a common Global Exploration 
Strategy.
    Let me quote from that strategy:

        Space exploration follows a logical set of steps, starting with 
        basic knowledge and culminating, it is hoped, in a sustained 
        human presence in space. This journey requires a variety of 
        both robotic and human missions. The Global Exploration 
        Strategy provides a framework to coordinate the efforts and 
        contributions of all nations so that all may participate in the 
        expansion into space and benefit from it.

    Unfortunately, the internal U.S. debate this past summer, combined 
with the realities of the Fiscal Year 2010 NASA budget have created an 
air of uncertainty over U.S. intentions. To borrow from Norm Augustine, 
it's hard to get others to work on a garden if we're pulling up flowers 
to check the roots. It's hard for many of our international friends to 
secure support for human spaceflight from their governments if we 
appear to have doubts about the value of the effort.
    The United States is a founding member of the space club, but we're 
at risk of shifting to emeritus status while others with more energy 
step up. The Chinese in particular have laid out a careful, logical 
approach in which they plan to launch a mission in 2011 to test docking 
and rendezvous techniques, followed by a man-tended laboratory in 2015, 
and a three-man space station by 2020. The selection of 45 new 
taikonauts is underway along with plans for a lunar sample return 
missions and Mars orbiter by 2013. To be clear, I welcome peaceful 
Chinese space exploration efforts. However, I don't want them and other 
nations to be on the frontier of space without us. We may not be in a 
race, but we need to keep up with the new arrivals.
    The Apollo program was intentionally a unilateral U.S. effort. The 
whole point was to beat the Soviet Union to the Moon. The Space Shuttle 
included international contributions such as the Canadian robot arm and 
a European Spacelab. The space station began as a U.S.centered 
international effort but evolved into the fully integrated partnership 
that is the International Space Station (ISS) today. After the loss of 
the Columbia, sustaining the ISS would not have been possible without 
the international partners.

Questions for Space

    Today, we have the Global Exploration Strategy as an international 
common approach to human and robotic exploration of the Moon, Mars, and 
beyond. There is no question about the practical, scientific, and even 
diplomatic value of space exploration and this is recognized by other 
spacefaring nations as well. What about humans in space? That is the 
key question for our nation's civil space policy.
    What are the questions that will drive and sustain a human space 
exploration effort, if nations are not competing against each other in 
Cold War-like competitions for prestige?
    Challenger forced the question of whether we should risk humans 
flying payloads that could be launched in other ways. The answer was no 
and we moved satellites to expendable launch vehicles operated by 
private companies.
    Columbia forced the question of why are we risking humans at all. 
The Columbia Accident Investigation Board (CAIB) said that travel 
beyond Low Earth Orbit was necessary if we were to justify the risks 
involved. The current U.S. Space Exploration Policy, past 
NASAauthorizations by Congress, and Global Exploration Strategy are 
consistent with the views of the CAIB.
    If we are not planning for what comes after the ISS, the government 
is, in effect, getting out of the human spaceflight business. There may 
be space tourists launched by U.S. companies--I certainly hope so--but 
tourism cannot sustain a major international cooperative human space 
exploration effort. If we are not going beyond low Earth orbit, we are 
ignoring both the recommendations of the CAIB and the reality of the 
increasing globalization of space activity.
    We should take a page from our science colleagues in asking simple, 
but profound questions to shape an implementation strategy. In science, 
questions such as ``Does life exist elsewhere in the solar system?'' or 
``What is dark energy?'' help shape and sustain scientific strategies 
and programs over long periods.
    What is the question for human spaceflight? I believe it's asking 
whether there is a human future beyond the Earth,
    Dr. Harry Shipman posed two questions in his 1989 book Humans in 
Space whose answers lead to very different human destinies. The first 
is, ``Can extraterrestrial materials be used to support life in 
locations other than Earth?'' And the second is, ``Can activities of 
sustained economic worth be carried out at those locations?'' Or as I 
shorten it: ``Can we live off the land?'' and ``Can we make it pay?"
    If the answer to both questions is yes, we will see space 
settlements and the incorporation of the Solar System into our economic 
sphere as former Science Advisor Jack Marburger has suggested. If the 
answer is no, then space is a form of Mount Everest--good for personal 
challenge and tourism but nobody really lives there. Other answers 
might see Antarctica-like outposts or perhaps a North Sea oil platform 
exploiting space resources but without sustainable human communities in 
space.
    Many people seem to have faith-based answers to these questions but 
I would suggest a greater humility in admitting that we don't really 
know. And therefore our efforts should be to answer these questions as 
in the course of human and robotic exploration beyond the Earth. The 
quest to do so will teach us much of practical benefit as we seek to do 
things that are hard. The experiences we gain in exploration will give 
us new insights into what humans can do and who we are.

Value From Space

    The practical benefits of sending humans beyond the Earth are the 
``acceptable reasons'' of supporting national interests in science, 
technology development, and international relations. For many 
countries, these reasons are not just ``nice to do'' but serious 
reasons of state. For India, ambitious space efforts attract new human 
capital to the strategic aerospace sector, which must compete with a 
growing information technology industry. For China, human spaceflight 
experiences are training a new generation of technical specialists in 
many fields and raising the quality level of industrial suppliers. For 
Japan and Europe, space flight demands interdisciplinary skills that 
can increase competitiveness in aerospace and non-aerospace sectors. 
The sophisticated systems engineering demanded by human space flight 
are part and parcel of what a great nation does, and more importantly, 
what it is capable of doing.
    Human spaceflight is the most demanding space activity, 
technically, financially, and organizationally. From the beginning it 
has also been the most symbolic activity, both at home and abroad. In 
the past, it responded to the question of who we were as Americans in 
the Cold War. Today, it is a powerful symbol of cooperation among 
former adversaries on the International Space Station. The deep 
international relationships built through the ISS are among its most 
impressive and perhaps most enduring achievements to date.
    The question of whether there is a human future beyond the Earth 
will not be answered in a decade or five decades. It is a question that 
will evolve, challenge, confound, and test.us for a long time as we try 
to answer it.
    For the future, we need to continue efforts to bind friends and 
allies to us in a multi-partner world in which space capabilities are 
globalized,
    We need friends and allies to help secure the global commons of 
space upon which we depend, to ensure that the space environment 
remains free of interference and open to peaceful uses by all.
    We need to inspire a new generation of Americans to take of the 
many demands of a globally competitive environment driven by scientific 
and technical innovation. The interdisciplinary demands of space flight 
and human space flight in particular can be a highly effective school 
for meeting those challenges.
    It is not just our machines or even our DNA that travel into space 
but our values as well. What values to we want to see be the norm in 
human activities beyond low Earth orbit? The international norms for 
human space activity will be shaped by those who are there, not by 
those who stay behind. If we want to see a human future in space that 
reflects our values then we must be part of that effort.

What Will the United States do?

    Ambitious goals and rhetoric require difficult actions and serious 
resources or the symbolism and actuality of human spaceflight will be 
hollow. The President is critical to effectively setting space policy 
priorities in budget requests to the Congress. All Presidents have put 
their stamp on the nation's space efforts, from Kennedy and Nixon to 
Clinton and Bush. Their actions have typically reflected the broader 
international approach the United States seeks to play in the world. 
Their decisions reflected considerations of national security and 
foreign policy as well as scientific interests and budget constraints.
    While each President has responded to the need to provide space 
policy direction within the specific context of his era, beliefs, and 
political priorities, in retrospect it is clear that many of these 
choices have not proven advantageous to the long-term interests of the 
United States. Many examples could be offered but it is not my intent 
to review this history in detail. However, as the Congress considers 
the future direction and funding of U.S. efforts in space--especially 
human space exploration--I would hope that it takes a broad and 
strategic view of global space developments. Those developments are 
enabling new opportunities for international cooperation from the 
International Space Station to lunar outposts and scientific missions 
to Mars. Those same developments also mean the United States cannot 
stand still and expect to influence the international development of 
space. The NASA Authorization Acts of 2005 and 2008, combined with the 
Global Exploration Strategy that was developed with U.S. participation, 
provides a clear and practical way forward for the nation. 1 hope the 
Administration and Congress will support the restoration of NASA funds 
for exploration necessary to execute existing authorizations and 
international strategies.
    The United States is facing a generational transition away from the 
period represented by the Space Shuttle that is just as profound as the 
transition from Apollo was. We are facing a transition not just of 
hardware and contracts, but also of leadership and values. NASA will be 
cooperating more with commercial and international partners than ever 
before. The nation will need to compete and cooperate in space as never 
before. The transition is upon us at home and abroad, just as we see 
that others are not delaying their entries into space. The question 
before us is simple: What will this nation do?
    Thank you for your attention. I would be happy to answer any 
questions you might have.

    Chairwoman Giffords. Thank you, Dr. Pace.
    Dr. Schrogl.

  STATEMENT OF DR. KAI-UWE SCHROGL, DIRECTOR, EUROPEAN SPACE 
                        POLICY INSTITUTE

    Dr. Schrogl. Thank you very much. Madam Chairwoman, Ranking 
Member, members of the subcommittee, thank you for the 
opportunity to appear today. In this intervention, I would like 
to provide European perspectives on the implications of the 
growth of global space-faring capabilities and to point out 
some implications of these current trends for the trans-
Atlantic relations.
    The European Space Policy Institute, ESPI, is the central 
European think tank for space policy, created following a 
decision by the member states of the European Space Agency, 
ESA, and established as an independent institution in Vienna, 
Austria. ESPI prepares analysis and conducts activities 
addressed to policymakers in Europe with the aim of 
facilitating the decision-making processes in the field of 
space policy.
    Madam Chairwoman, in addressing the first issue, the 
European perspectives on the implications of the growth of 
global space-faring capabilities, it should be pointed out that 
Europe regards this trend as basically positive, but also 
identifies numerous threats. The opportunities are twofold: a 
rising number of space-faring countries and a broadening of 
space programs and missions can be a beneficial tool for 
supporting joint efforts for dealing with global problems. Two 
examples are global climate change monitoring and disaster 
management and mitigation. In both cases, the number of 
coordinated satellite missions cannot be large enough in order 
to achieve the highest impact possible. A second area of 
opportunities lies in the possibility to develop markets for 
space-related products and services on an international and 
global scale. Threats, however, can be seen in the 
proliferation of critical technologies or in the field of 
lacking regulations in emerging space-faring countries, leading 
to flags of convenience and distorting fair international 
competition. Europe also understands that it can lose 
international prestige, if it is passed by space powers like 
China or India, which would have consequences for the 
attractiveness of Europe as a high-technology partner. But this 
consequence should only encourage Europe to further increase 
its own efforts.
    Now, Madam Chairwoman, the consequences of these trends for 
the trans-Atlantic relations can be set out as three 
categories: a promising field, which is cooperation in the 
field of space for security, a necessary field, which is space 
as a strategic economic issue area and tool to deal with 
climate change, and the third, a potential field, which is 
space exploration.
    In our view, the most promising field for trans-Atlantic 
cooperation today is space for security. Space situational 
awareness should be addressed and organized in a cooperative 
way between the United States and Europe. The European Draft 
Code of Conduct for Outer Space Activities is the first major 
European diplomatic initiative in this field and should be 
actively supported by the United States, since it matches 
completely its interests. Other areas for cooperation could be 
space for internal security or homeland security, maritime 
security and responsive space, where both the United States and 
Europe could benefit from closer cooperation. In addition to 
that, the United States could consider benefiting from recent 
technology developments made in Europe, for example, in the 
field of radar technology.
    A necessary field, the second one I want to mention, for 
trans-Atlantic cooperation is the coordination in issues 
related to space as a strategic economic area. ESPI has 
recently published a joint memorandum with the Space Policy 
Institute led by Dr. Pace identifying numerous actions. Amongst 
them are the protection of the radio frequency spectrum for 
space services, the promotion of open, interoperable standards 
and the promotion of open international markets in space goods 
and services as well as closer international consultations on 
the development or modification of domestic regulations. The 
United States and Europe should also jointly lead efforts in 
using space for tackling the global problems, as I mentioned, 
climate change.
    Before that background, space exploration, while leading 
the debate today, can only be regarded as a potential field of 
trans-Atlantic cooperation. While first deliberations have to 
be made now, the priority has to be the full and successful use 
of the International Space Station as the basis for an 
international space exploration program.
    In summarizing, I first of all would like to point out that 
the trans-Atlantic relations should receive your high 
attention, since they are crucial in organizing the most 
important aspects of space activities which are space for 
security and space as a strategic economic field.
    Dialogue and partnership in this field, with the European 
Union and the European Space Agency as well as the European 
Parliaments, should be intensified and institutionally 
strengthened. The single issues, I have mentioned in these 
areas, require roadmaps for implementing joint activities. This 
might be reflected in the ongoing space policy review in the 
United States and a strong United States-European partnership 
can certainly strengthen security and successfully tackle 
global challenges.
    Thank you very much for your attention.
    [The prepared statement of Dr. Schrogl follows:]
                 Prepared Statement of Kai-Uwe Schrogl
    Madame Chairwoman and Members of the Subcommittee, thank you for 
the opportunity to appear today. In this intervention, I would like to 
provide European perspectives on the implications of the growth of 
global space-faring capabilities and to point out some implications of 
these current trends for the trans-Atlantic relations.
    In the outset, please allow me to introduce to you the European 
Space Policy Institute (ESPI), which is the central European think tank 
for space policy, created following a decision by the Member States of 
the European Space Agency (ESA) and established as an independent 
institution in Vienna, Austria. ESPI prepares analyses and conducts 
activities addressed to policy-makers in Europe with the aim of 
facilitating the decision-making processes in the field of space 
policy.
    1. In addressing the first issue, the European perspectives on the 
implications of the growth of global space-faring capabilities, it 
should be pointed out that Europe regards this trend as basically 
positive, but also identifies numerous threats. The opportunities are 
twofold: a raising number of space-faring countries and a broadening of 
space programs and missions can be a beneficial tool for supporting 
joint efforts for dealing with global problems. Two examples are global 
climate change monitoring and disaster management and mitigation. In 
both cases, the number of coordinated satellite missions cannot be 
large enough in order to achieve the highest impact possible. A second 
area of opportunities lies in the possibility to develop markets for 
space-related products and services on an international and global 
scale. Threats, however, can be seen in the proliferation of critical 
technologies or in the field of lacking regulations in emerging space-
faring countries, leading to ``flags of convenience'' and distorting 
fair international competition. Europe also understands that it can 
loose international prestige, if it is passed by space powers like 
China or India, which could have consequences for the attractiveness of 
Europe as a high-technology partner. But this consequence should only 
encourage Europe to further increase its own efforts.
    2. The consequences of these trends for the trans-Atlantic 
relations can be set out as three categories:

        <bullet>  a promising field, which is cooperation in the field 
        of space for security,

        <bullet>  a necessary field, which is space as a strategic 
        economic issue area and tool to deal with climate change,

        <bullet>  a potential field, which is space exploration.

    In our view, the most promising field for trans-Atlantic 
cooperation today is space for security. Space Situational Awareness 
should be addressed and organized in a cooperative way between the U.S. 
and Europe. The European Draft Code of Conduct for Outer Space 
Activities is the first major European diplomatic initiative in this 
field and should be actively supported by the U.S., since it matches 
completely its interests. Other areas for cooperation could be space 
for internal security/homeland security, maritime security and 
responsive space, where both the U.S. and Europe could benefit from 
closer cooperation. In addition to that, the U.S. could consider 
benefiting from recent technology developments made in Europe, for 
example in the field of radar sensors.
    A necessary field for trans-Atlantic cooperation is the 
coordination in issues related to space as a strategic economic area. 
ESPI has recently published a joint memorandum with the Space Policy 
institute at George Washington University identifying numerous actions. 
Amongst them are the protection of the radio frequency spectrum for 
space services, the promotion of open, inter-operable standards and the 
promotion of open international markets in space goods and services as 
well as closer international consultations on the development or 
modification of domestic regulations. The U.S. and Europe should also 
jointly lead efforts in using space for tackling the global problems 
like climate change.
    Before that background, space exploration--while leading the 
debate--can only be regarded as a potential field of trans-Atlantic 
cooperation. While first deliberations have to be made now, the 
priority has to be the full and successful use of the ISS as the basis 
for an international space exploration program.
    In summarizing, I first of all would like to point out that the 
trans Atlantic relations should receive your high attention, since they 
are crucial in organizing the most important aspects of space 
activities: space for security and space as a strategic economic field. 
Dialogue and partnership in this field (with the European Union and the 
European Space Agency on the European side) should be intensified and 
institutionally strengthened. The single issues, I have mentioned in 
these areas, require roadmaps for implementing joint activities. This 
might be reflected in the ongoing space policy review in the U.S. A 
strong U.S.-European partnership can strengthen security and 
successfully tackle global challenges.

    Chairwoman Giffords. Thank you so much.
    Last we are going to hear from Dr. Williamson.

STATEMENT OF DR. RAY A. WILLIAMSON, EXECUTIVE DIRECTOR, SECURE 
                        WORLD FOUNDATION

    Dr. Williamson. Chairwoman Giffords, Ranking Member Olson 
and distinguished members of the subcommittee, I am pleased to 
have this opportunity to share with you Secure World 
Foundation's insights on the growth in world space capabilities 
and why these changes are important to U.S. interests.
    One of the most important characteristics of the past 
decade is the rapid emergence of new actors in outer space. 
Since 1999, the number of states with space systems in orbit 
has increased from 27 to 37. Countries as diverse as Algeria, 
Iran, Nigeria, Venezuela, South Africa and Turkey have now 
become part of the so-called space club. The addition to the 
space environment of new players and spacecraft raises both 
opportunities and challenges for the governance of space 
activities, as you mentioned, Chairwoman Giffords. It also 
means a larger marketplace for U.S. products. Finally, it 
raises the important challenge that every space-faring state 
wants to own its own earth observation and communications 
satellite, leading to crowding in the orbits. This and the 
growth of space debris increases the need to establish 
effective governance of the global commons of outer space and 
raises the following concerns for the United States. Have the 
emerging space states instituted best operational practices in 
designing and operating their launch systems and spacecraft? 
Have they signed and modified the 1967 Treaty on Outer Space 
and the other space agreements? Do they adhere to the United 
Nations orbital debris guidelines?
    In the view of the foundation, the United States could 
improve its own orbital security for commerce, science and 
national security and gain closer allies by engaging with the 
emerging space states in two key areas: first, assisting 
emerging space-faring countries to adhere to international best 
practices in space activities. Guaranteeing the long-term 
sustainability of outer space is one of the most important 
space issues the United States will face over the next decade. 
It is therefore important to assist emerging states to develop 
clear policies and laws that conform with international norms.
    This February, the U.N. Committee on Peaceful Uses of Outer 
Space will begin work on a set of so-called best practices for 
space activities. The United States can continue to play a 
significant role in COPUOS by engaging with the small states as 
well as the larger ones in defining best practices.
    Second is taking greater advantages of the opportunities 
that the emergence of these new space states present for U.S. 
policymaking. The space arena can provide a powerful platform 
for engaging in what has been called soft power, the use of 
U.S. technological and economic capabilities in policies to 
influence policymakers in other countries.
    Through NASA, the U.S. Geological Survey and NOAA, the 
United States has long engaged with Latin America in space 
science and applications. It may time to increase that 
engagement in part to counterbalance the growing influence of 
China in the region. China has taken a strong interest in Latin 
America and has actively assisted both Brazil and Venezuela in 
their space efforts. China and Brazil jointly developed and 
operate the CBERS earth resource satellite system. Just a year 
ago, China launched into orbit a Chinese communications 
satellite that it sold to Venezuela under a technology transfer 
agreement. Some 90 Venezuelan engineers and technicians 
traveled to China to help build and launch the satellite. 
Satellite Simon Bolivar now provides communications for most of 
Latin America and has enabled Venezuela to extend its influence 
throughout Latin America and the Caribbean.
    The United States could extend its own engagement with 
Latin America through additional teaching and cooperative space 
science and applications programs. However, the current onerous 
ITAR regulations impede our ability to cooperate effectively 
with space countries. ITAR reform would go a long way to fix 
this impediment. We need a regulatory framework that assists, 
not impedes the creation of new markets and enhances 
international cooperation and competition.
    We at Secure World Foundation mostly see space developments 
among emerging space states as opportunities rather than as 
threats. In general, the United States can bolster the long-
term security climate in space by working with these states to 
build space capacity, especially in space science and 
applications where current ITAR regulations are not large 
issues. Enhanced ability to make use of the benefits that space 
systems provide means a broader market for U.S. goods and 
services, especially high-tech consumer items.
    Just as important, however, is the need to assist emerging 
space states to develop space policies with a global long-term 
sustainable approach. The U.S. range of policies, legal 
instruments and interagency practices can be instructive to 
emerging space states that are just developing their own space-
related policies and law. Countries that gain an economic and 
political stake in the space environment are more likely to 
pitch in to preserve the space environment for the future.
    Finally, these reflections lead to the overall need for the 
United States to develop an overarching space strategy that 
includes military, civil and commercial and international 
components. Such a strategy would go a long way to clarify the 
direction of U.S. investments in space and the nature and scope 
of U.S. involvement in the international community.
    [The prepared statement of Dr. Williamson follows:]
                Prepared Statement of Ray A. Williamson
    Chairwoman Giffords, Ranking Member Olson, and distinguished 
members of this Subcommittee, I am pleased to have this opportunity to 
share with you Secure World Foundation's insights on the growth in 
space capabilities throughout the world and why the changes this growth 
represents are particularly important to U.S. interests. From the 
emergence of China as a country with a significant human spaceflight 
program to the launch this September of South Africa's second 
indigenous remote sensing satellite, over the past decade the 
international space community has experienced many significant changes.
    One of the important, but often overlooked, characteristics of the 
past decade is the rapid emergence of new actors in outer space. Since 
1999, the number of States with space systems in orbit has increased 
from 27 to 37. Countries as diverse as Algeria, Iran, Nigeria, 
Venezuela, South Africa and Turkey have now become part of the so-
called ``space club.'' Eight States are now also capable of launching 
satellites into orbit. South Korea will likely soon make that a total 
of nine.
    Countries wish to enter the space realm for a variety of reasons, 
not least of which is the desire to gain prestige in the international 
community. Rationales include the following, the priority of which 
varies depending on the needs of the State:

        <bullet>  Advance scientific and technical capacity. Emerging 
        space States see space science and technology as assisting in 
        the development of domestic scientific and technical capacity 
        well beyond the space scene. Information, communication and 
        imaging technologies, especially, have strong links to space 
        science and technology. Even health technologies and the 
        millennia old practice of agriculture are greatly enhanced by 
        space technology. For example, as an article last week in the 
        Economist highlighted, the data from remote sensing space 
        systems and GPS can assist in improving crop yield, and 
        reducing the overuse of fertilizer and seed.\1\
---------------------------------------------------------------------------
    \1\ ``Harvest Moon: Artificial Satellites Are Helping Farmers Boost 
Crop Yields,'' Economist, 7 November 2009, p. 73.

        <bullet>  Improve the management and use of resources and 
        provide better protection against the ravages of natural 
        disasters. The smaller states place an especially heavy 
        emphasis on space applications. Hence, it is no surprise that 
        Algeria, Nigeria and Turkey decided to enter the space realm by 
        each purchasing a the satellite in the Disaster Monitoring 
        Constellation (DMC),\2\ which acquires a complete, medium-
        resolution data set of the globe every day. All participating 
        States have access to data from the entire DMC, providing much 
        more coverage and timeliness at lower cost than each State 
        could achieve individually. Data from the DMC has helped those 
        countries tackle the enormous challenge of managing forests, 
        grasslands and waterways, and of responding to natural 
        disasters. Having access to the DMC system has also spurred the 
        creation of training in space technologies in these countries 
        and development of new markets for data products.
---------------------------------------------------------------------------
    \2\ http://www.dmcii.com/about us constellation.htm. The DMC 
satellites were designed and constructed by SSTL of the United Kingdom. 
http://www.sstl.co.uk. DMC participants are: Algeria, China, Nigeria, 
Spain, United Kingdom, and the Spanish company, Deimos. Turkey was part 
of the original constellation but its satellite has reached the end of 
life.

        <bullet>  Enhance access to education and health information 
        throughout the country. For many developing countries, 
        especially, communication satellite systems can help spread 
        access to educational programs and modem communications and 
        information throughout a nation, especially those with poor 
        infrastructure or vast geographical extent. Such systems also 
        create opportunities for the development of tele-health and 
        tele-education to serve extended remote areas. Canada and India 
        have been particularly strong in providing tele-services to 
        remote areas. Further, space activities are exciting to young 
        people and help interest them in following careers in science 
        and mathematics, which are needed to develop the country's 
---------------------------------------------------------------------------
        industrial capacity.

        <bullet>  Improve national security. One of the primary drivers 
        of a country's interest in space systems is their use in its 
        national security apparatus. Space technology can especially 
        assist in the improvement of border security. Furthermore, by 
        monitoring potentially hostile activities in neighboring 
        countries, space technology can help reduce tensions between 
        States and preempt conflict.

        <bullet>  Advance industrial capacity and the economy. In order 
        to participate more effectively in the global space economy, 
        emerging space States use their entry to build the capacity to 
        design and build space components. This upgrading of their 
        economies can result in demand for products from the United 
        States and other developed countries. In addition, as a recent 
        study carried out by the Space Policy Institute of The George 
        Washington University has demonstrated for GPS technologies, 
        incorporating this space technology into the workflow of 
        transportation services can markedly improve efficiency and 
        reduce costs.\3\
---------------------------------------------------------------------------
    \3\ Henry R. Hertzfeld, ``Space as a Utility: An Exploration of GPS 
in Commercial Use,'' Report to Secure World Foundation, May 2009.
---------------------------------------------------------------------------
        <bullet>  Prestige in the international community. We must not 
        overlook the role that prestige plays in joining the space 
        club. Identifying with other countries that are more advanced , 
        technologically can be a powerful incentive because being part 
        of the growing number of countries with space capabilities 
        indicates a certain level of scientific and technological 
        achievement. This achievement enhances the pride of citizens 
        and augments the reputation of the country in the international 
        marketplace.

    The addition to the space environment of spacecraft owned and 
operated by emerging space States raises both opportunities and 
challenges for the space community and the governance of space 
activities. From the standpoint of increased opportunities, having more 
space players means greater chances for finding other space actors with 
which to cooperate in order to pursue space science and technology 
development. Doing so means pooling some resources and saving costs for 
each individual country.
    Cooperation specifically means that States can create beneficial 
international agreements on space science and applications and on space 
exploration, allowing them to make advances that they might not achieve 
on their own. European countries have demonstrated the enormous value 
of such cooperation in the European Space Agency, a model that other 
regions have indicated they would like to emulate when conditions are 
right. Such cooperation can also lead to technological cooperation in 
other, non space disciplines.
    A greater number of space actors means a larger marketplace for 
space products, of which both established and emerging actors can take 
advantage. Greater numbers can result in increased demand for a variety 
of commodities, everything from space launch vehicles to data analysis 
software and expert advice, all of which can benefit U.S. industry. 
More States involved in the pursuit of space science also potentially 
means greater and broader advances in our knowledge of the universe.
    The increase in the numbers of space actors, coupled with the fact 
that the established space actors are increasing the numbers of their 
spacecraft in orbit also increases the need to establish effective 
governance of the global commons of outer space. Every spacefaring 
State tends to want its own Earth observing and communications 
satellite. As a result, we are beginning to experience crowding in 
certain orbits, such as in low Earth polar, sun-synchronous orbit where 
most Earth observation satellites are located and in the geosynchronous 
orbits (GSO) favored for satellite communications.
    As this Committee knows, the increasing growth of orbital debris 
has also become an important concern in assuring the long term 
sustainability of space activities. For the emerging spacefaring States 
there is another set of issues related to sustainability:

        <bullet>  Have they instituted best operational practices in 
        designing and operating their launch systems and spacecraft?

        <bullet>  Have they signed and ratified the 1967 Treaty on 
        Outer Space and the subsequent Agreements on Liability, 
        Registration, and Return of Astronauts?

        <bullet>  Do they adhere to the orbital debris guidelines 
        agreed to and passed by the United Nations General Assembly?

    Since its inception, Secure World Foundation has partnered with 
other institutions to pursue its mission of addressing space governance 
issues and the long term sustainability of space activities. For 
example, just one year ago, we, the European Space Policy Institute and 
the International Academy of Astronautics, held a workshop in Vienna, 
Austria focused on the fair and responsible use of outer space.\4\ The 
workshop, which included analysts from emerging and established space 
countries, focused on the identification and analysis of key challenges 
to the achievement of fair and sustainable use of outer space for all 
space actors, including the newly emerging space States.
---------------------------------------------------------------------------
    \4\ European Space Policy Institute, Nov. 2008 conference, Fair and 
Responsible Use of Outer Space, http://www.espi.or.at/.
---------------------------------------------------------------------------
    Among other things, the workshop emphasized the need for the 
established spacefaring States to establish appropriate practices to 
ensure that outer space remains available for the future use of 
emerging States and guarantees the fair and equitable use of the 
frequency spectrum for all space actors. By the same token, emerging 
States have the responsibility to ensure that they act as good citizens 
by adhering to the international space treaties and to resolutions such 
as the UN Guidelines on Orbital Debris.
    In the view of the Foundation, the United States can improve its 
own orbital security for commerce, science and national security and 
gain closer allies within the international community by engaging with 
the emerging space States. The emergence of new space States raises two 
key questions for the United States:

        1)  What can the United States do to assist emerging 
        spacefaring countries in adhering to international best 
        practices in space activities?

    It is important to assist emerging states as much as possible to 
develop clear polices that incorporate the elements of Outer Space 
Treaty and the other three international Agreements and to bring them 
into conformity with accepted space debris-reducing practices. 
Maintaining the benefits we gain from space systems through 
guaranteeing the long term sustainability of outer space is one of the 
most important space issues the United States and other spacefaring 
States will face over the next decade. It is a matter of ensuring space 
security, space commerce, and the economic and social benefits with 
which space systems provide us.
    Over the past few years, the U.N. Committee on the Peaceful Uses of 
Outer Space, or COPUOS has made excellent progress on improving the 
international governance of space activities. The Committee has 
developed guidelines on limiting the creation of orbital debris which 
were passed in 2007 by the General Assembly. The U.S. delegation played 
a significant part in that effort.
    This February the COPUOS Subcommittee on Science and Technology 
will begin serious work on a set of so-called ``best practices'' for 
space activities. U.S. delegates to COPUOS have played a strong role in 
both efforts. Committee membership includes many small states that had 
a major role in crafting the Space Debris Guidelines and they are 
likely to be helpful in reaching agreement on a best practices 
document. The United States can continue to play a significant role 
here by engaging with the small states as well as the larger ones in 
the work on best practices.

        2)  Is the United States taking sufficient advantage of the 
        opportunities that the emergence of these States as spacefaring 
        entities present for U.S. policymaking?

    The space arena can provide a powerful platform for engaging in 
what has been termed ``Soft Power'' by analysts--the use of U.S. 
technological and economic capabilities to influence policymakers in 
other countries.
    The case of Latin America might serve as a good example where the 
use of soft power could assist the achievement of U.S. goals. Two weeks 
ago, Secure World Foundation partnered with CRECTEALC, the Regional 
Center for the Teaching of Science and Technology in Space for Latin 
America and the Caribbean [Centro Regional de Ensennanza de Ciencia y 
Tecnologia del Espacio para Amenrica Latina y el Caribe] to hold a 
workshop focused on sharing the space policies, programs and plans of 
Latin America.\5\ This workshop specifically included presentations on 
space policy essentials, space security, international law of outer 
space, and the structure of U.S. space activities.
---------------------------------------------------------------------------
    \5\ The SWF-CRECTEALC workshop: http://
www.SecureWorldFoundation.org, SWF Activities.
---------------------------------------------------------------------------
    Participants expressed appreciation for the focus on policy and 
legal matters experienced in other countries that they might consider 
in drawing up space policies and designing national legal regimes that 
adhere to international space treaties. During the workshop 
representatives of several Latin American countries presented their 
countries' space policies and activities. They expressed just pride in 
what they had accomplished, despite the financial and political 
challenges of bringing a dedicated program of space science and 
technology into being.
    Through NASA, the U.S. Geological Survey and NOAA, the United 
States has long engaged with Latin America in space science and 
applications, in a variety of programs. It may be time to increase that 
engagement, in part to counterbalance the growing influence of China in 
the region.
    In recent years, China has taken a strong interest in Latin America 
and has actively assisted both Brazil and Venezuela in their space 
efforts. China and Brazil jointly developed and operate the CBERS Earth 
resources satellite system. Data from this system are available for 
free to countries neighboring Brazil and to other countries who wish to 
build a ground station.\6\ Other cooperative agreements in Earth and 
space science are underway. Just a year ago, China launched into orbit 
a DFH4 communication satellite that it had sold to Venezuela. The sales 
agreement included a technology transfer arrangement that resulted in 
some 90 Venezuelan engineers and technicians having direct involvement 
in China in the satellite's construction and launch. Satellite Simon 
Bolivar is now located at 78 degrees East Longitude over Uruguay and 
provides communications for most of Latin America with C band satellite 
communications. This satellite has enabled Venezuela to extend its 
influence throughout Latin America and the Caribbean.
---------------------------------------------------------------------------
    \6\ http://www.imagingnotes.com/go/article_free.php?mp_id=134.
---------------------------------------------------------------------------
    The United States could extend its own engagement with Latin 
America through teaching programs, perhaps with the U.N.-affiliated 
CRECTEALC, which has campuses in Mexico and Brazil. It could also 
explore more vigorously than it has, cooperative space science and 
space applications efforts. However, the current onerous .ITAR 
regulations make certain types of technology cooperation extremely 
difficult. ITAR is a serious issue that impedes the U.S. ability to 
cooperate effectively with emerging and established space countries 
alike. ITAR reform would go a long way to fix this impediment. We need 
a regulatory framework that assists, not impedes, the creation of new 
markets and enhances international cooperation and competition.
    One specific thing the United States might do with Latin America is 
to take an active part in the Space Conference of the Americas that 
will be held in Mexico in November 2010. This conference will bring 
together all of the major Latin American and Caribbean countries that 
are interested in outer space for several days of presentations, 
discussions and sharing of ideas. The United States could gain a lot 
not only from attending this important event but also from offering 
some specific science and technology initiatives for the countries 
attending.
    In short, we at SWF mostly see space developments among emerging 
space States as opportunities rather than as threats. In general, the 
United States can bolster the long-term security climate in space by 
working with emerging space states to build space capacity, especially 
in space science and applications, where ITAR restrictions intrude 
relatively little. Enhanced ability to make use of the benefits that 
space systems provide also means a broader market for U.S. goods and 
services, especially high technology consumer items like GPS devices.
    Just as important, however, is the need to assist emerging space 
States to develop space policies having a global, long-term sustainable 
approach. Since the beginning of the space age, the United States has 
constructed a range of policies, legal instruments and interagency 
practices to guide its space efforts. These can be instructive to 
emerging space States who are just developing their space-related 
policies and laws.
    Countries that gain an economic and political stake in the space 
environment by having systems in orbit are more likely to be inclined 
to pitch in to preserve the space environment for their benefit. 
Nevertheless; it is important to work with all possible spacefaring 
countries to ensure that the space environment remains available for 
all for the many benefits space systems provide.
    Finally, these reflections lead to the overall need for the United 
States to develop an overarching space strategy that goes beyond any 
necessary revisions to U.S. space policy and includes both
    military, civil, and commercial components. Such a strategy would 
go a long way to clarify the direction of U.S. investments in space 
science, space applications, the human exploration of outer space, and 
the nature and scope of U.S. involvement in the international 
community.
                                 * * *
    Secure World Foundation (SWF) is a private operating foundation 
headquartered in Superior, Colorado and with offices in Washington, DC 
and Vienna, Austria. The Foundation is dedicated to maintaining the 
secure and sustainable use of space for the benefit of Earth and all 
its peoples. SWF engages with academics, policy makers, industry, 
scientists and advocates in the space and international affairs 
communities to support steps that strengthen governance of outer space 
and delivery of the benefits of space to Earth. http://
www.SecureWorldFoundation.org.

                International Effect of U.S. Commitment

    Chairwoman Giffords. Thank you so much, Dr. Williamson, and 
to all of our panelists today, you really brought forward some 
fascinating aspects of this very complex situation. At this 
point we are going to begin our first round of questions. The 
Chair recognizes herself for five minutes.
    I think a couple of points were clear across all of our 
witnesses. One is that the space environment globally is 
changing, that we have seen a tremendous amount of development 
in the last 50 years but particularly in the last decade. Also 
that U.S. leadership is in question and the lack of commitment 
that we have seen here in the United States and that the world 
has seen really changes the perspective of this economic, this 
defense aspect, exploration aspect, technological aspect that 
space brings with it. So my question, and I am going to begin 
with Dr. Pace, is a bit of twist. You know, you talked about 
your international experience and I am interested to hear from 
others as well, but what does this non-direct clear vision for 
the United States mean to other countries without a clear, 
precise vision for where we are going in space at this moment? 
How does that change other nations' commitment without having a 
U.S. strong lack of commitment to space?
    Dr. Pace. Well, I think that it makes it difficult for 
advocates in other countries who want to work with us to make 
an argument that they will in fact be a partner. It also 
increases desires to look for other partners and alliances with 
other rising partners to make different arrangements as they 
pursue their own self-interest. As I said, the global 
exploration strategy is one which is a very collaborative 
effort. It is not a situation where the United States says we 
need to define everything and then you get to fit in in various 
places. The global exploration strategy is one which has been 
very inclusive to have other countries involved in defining the 
architecture and working together in a way that really I think 
is unprecedented. But if the United States appears not to be 
there or to be uncertain to be there, then what is there to 
talk about, and therefore people start looking at each other 
and going, you know, maybe we should be making other 
arrangements because we just don't know if the Americans are 
going to be there. As a result, it is not as if people are 
being hostile or anything to the United States; it is simply 
that we are making ourselves irrelevant to the discussions, and 
if we become irrelevant, then I think that does harm our 
interests as people will pursue their own self-interests in 
economic and commercial and international and security 
interests.
    Chairwoman Giffords. Thank you.
    Dr. Schrogl?
    Dr. Schrogl. Yes. Thank you, Madam Chairwoman. The United 
States is still spending so much more money than all the other 
space-faring countries that U.S. leadership is present in your 
capabilities and in the activities you are conducting in outer 
space. The United States is leading through this engagement, 
and as I pointed out in my statement, Europe is very much 
interested in a strong relationship with the United States. The 
European countries have recently started to come up with 
diplomatic initiatives of their own and we regard this as an 
opportunity to jointly develop issues in outer space where the 
United States could have taken leadership but where we as the 
Europeans have waited for such initiatives. We have seen a 
number of areas where Europe started debates like on space 
debris and now on safe conduct of space activities where it is 
absolutely necessary of course that the United States engages 
actively in such debates and we have seen that the United 
States is ready to cooperate in such fields with Europe in 
order to come up with joint global visions in these fields. So 
the United States certainly has to take an active role in the 
international field. You can do that, and Europe is certainly 
ready to work very closely with the United States in order to 
achieve common objectives.
    Chairwoman Giffords. Thank you.
    I have more questions, but we have so many members, I think 
we want to make sure with votes and everything we get 
everyone's question in, so let me stop there and turn the floor 
over to Mr. Olson.

                        Specialization in Space

    Mr. Olson. Thank you very much, Madam Chairwoman. Thank you 
for your kindness, and gentlemen, I will be brief to make sure 
that all the members get to ask their questions.
    I want to talk about collaborations and specialization. 
Going forward, exploration of space beyond low earth orbit 
either robotically or by human presence will most likely be 
done collaboratively between two or more nations. By limiting 
the role each partner might play in a future mission, does this 
necessarily mean that as nations become specialized in one of 
several capabilities they give up the capability of maintaining 
a full suite of capabilities and is necessarily bad--is it 
necessarily bad if a nation decides to cede a set of 
capabilities to another nation? Too much overspecialization. 
Mr. Hauser, you are on the left.
    Mr. Hauser. I think it depends on the nation's perspective 
and what they want to achieve and what their goals are for 
their own space program. You know, if you are a smaller country 
and you don't have the financial wherewithal to do, then maybe 
it gives you an opportunity to play where you might not have 
been able to play before. If you have grandioser dreams, then 
maybe overspecifying is a little bit too difficult. I would 
defer to my colleagues, who probably know more specifics about 
each of the nations, but I really--it does come down to the 
objectives of that nation and to their own psyche about what 
they want to achieve for their country and the status that they 
want their country to be perceived at, so I think it really 
comes down to them and what they want to do.
    Mr. Olson. Thank you for that answer.
    Mr. Stevens?
    Mr. Stevens. I would tend to agree with what Marty said, 
and I would just add that I think for the United States, 
though, it is a totally different issue. I think we need to be 
capable in all areas of space. We are now and we should 
continue to be that way. I think it would be unsatisfactory for 
us to totally turn over one capability to another nation.
    Mr. Olson. Thank you very much. That is exactly what I was 
looking for. I appreciate that.
    Dr. Pace.
    Dr. Pace. I think, you know, keying off that, the 
capabilities that we have should be commensurate with what our 
responsibilities are. A relatively smaller country, a regional 
power may want to have space capabilities that are appropriate 
for it. If we want to see ourselves as a global power and 
global influence, then we need to have a full suite of those 
capabilities. So capabilities reflect what we think our role in 
the world is, and I think that as my colleague mentioned about 
strategic economic issues, if we are going to be cooperating 
with other countries, part of what we should be doing is being 
able to shape the ability of those countries to make it easier 
for them to work with us, so that is why we talk about open 
international standards, open markets. We protect the radio-
frequency spectrum. We talk about global commons. Just as we 
are a maritime nation, we are a space nation and therefore 
things that are part of that space commons are of deep interest 
to us. I don't think there is a capability that we should 
unilaterally cede to depend on others because I don't think 
there is an aspect of our national security and foreign policy 
that we would want to cede to others, but at the same time, we 
should make it easier for others to work with us both by being 
a stable and trusted partner and making sure that our standards 
and markets are open to that cooperation.

                            ISS Continuation

    Mr. Olson. And just to follow up on one of your comments, 
do you think that by deorbiting the International Space Station 
in 2015 that we sort of violate those promises we made to those 
countries and hurt our standing globally?
    Dr. Pace. I think that the problem with 2015 date, and I 
agree with what has been said, that I think it should at least 
be sustained through 2020 so that we can make a data-driven, 
data-based decision on whether to continue it or not. I mean, 
the experiment has been set up but the experiment has not yet 
run so we should see whether we get value out of it. As I've 
said, I think the international collaboration we have achieved 
so far is already an outstanding value and a creation that is 
very impressive. Now we need to run the science experiment, see 
how that works, and then we make a decision based on real data 
and real results and so I think it would be wrong to 
preemptively deorbit that station. And if I might say, what I 
would have preferred is that we may have put something in the 
budget that said we are either going to deorbit it or we are 
going to extend it and not have left it ambiguous the way we 
did. But nonetheless, that is the decision now before this 
Administration.
    Mr. Olson. Yes, sir, agree on that comment as well.
    Dr. Schrogl.

                             Specialization

    Dr. Schrogl. Thank you. In Europe, we are used to the fact 
that our smaller countries are not able to cover the whole 
range of space activities so we are used to cooperation, 
cooperation in the European framework in order to achieve 
common objectives and then try to cover the whole field. Europe 
and other countries, space-faring countries, are certainly very 
much interested in getting into the position to have autonomous 
capabilities in various areas be it space transportation, be it 
now global navigation services, and as I said, it is, or it 
will be extremely important in the future that these systems 
will be combined and coordinated into systems of systems in 
order to achieve common goals like global change where we 
simply cannot have enough systems around the earth in order to 
achieve these common objectives.
    Mr. Olson. Thank you, Mr. Schrogl.
    Dr. Williamson?
    Dr. Williamson. It seems to me it is not just a matter of 
which technologies to focus on and so forth but what the 
capabilities you want are, and in my view, the United States 
should maintain a full range of technological capabilities but 
it may be, for example, that we depend on another country more 
for certain areas rather than others in order to achieve a 
greater common good for the international community. So it is a 
question of how--taking leadership to determine how we can best 
use the capabilities of others to achieve our goals as well as 
contribute to theirs.
    Mr. Olson. Yes, sir. Thank you very much for that answer.
    I am over my time. Thank you, Madam Chairwoman.
    Chairwoman Giffords. Thank you, Mr. Olson.
    We are going to hear from Representative Kosmas next.

                     Maintaning American Leadership

    Ms. Kosmas. Thank you, Madam Chairman.
    Thank you all, gentlemen, for being here this morning. It 
has been quite enlightening to hear from you and I think 
encouraging as well for us to understand the significance of 
the opportunities before us to cooperate internationally in 
space exploration. However, I suspect that you feel the angst 
that we as members of this committee have and as 
representatives of communities that depend on space and 
consider it to be a very, very important issue for our Nation 
both in national security as well as in advancements of science 
and technology. I guess I would say ``ambiguous'' I think was a 
word just used as to where are we headed, and I guess my 
question is, what do you sense--some of you have made rather 
blunt assessments as to the aggressive way in which other 
countries are seeking to do the things that we have always 
considered our primary territory and our ability to continue to 
be a leader in space exploration. What do you consider to be 
the greatest impediment that we are--by which we are hindered 
at the moment in terms of our ability to continue to be leaders 
in space exploration and specifically manned space exploration? 
Mr. Hauser?
    Mr. Hauser. Finance is certainly one of the biggest 
impediments. You know, as we discussed already here, it is very 
difficult not only for us to plan with our budgets but then for 
other countries to depend on us and to engage in partnerships 
and cooperative efforts if they don't have reasonable 
comfortability that we are going to continue to be there as we 
go through that process. There are probably some regulatory 
issues as well. It is also a great impediment and certainly 
hurting our own marketplace because of the ITAR restrictions 
and in many ways we have been our own worst enemy. I am a 
retired Air Force colonel so I certainly believe in protecting 
national security but, you know, you have to protect what is 
important but you also have to find ways to work in the 
environment so that you are not so restrictive that you create 
other markets and other opportunities for everybody else which 
I personally believe we have, so we need to balance that out. I 
think those are the two big ones that really come to my mind.
    Ms. Kosmas. Mr. Stevens?
    Mr. Stevens. Well, once again, Marty took my two things, 
but I would like to add to it. The biggest concern I think we 
have is ITAR, and it really affects the companies that we 
represent, especially the small ones. Most of them need 
business. It is a global economy. They need to be doing 
business overseas to stay in business, and with the defense 
market starting to go down, a lot of them are losing money 
there and they need to be able to do business in a timely way. 
It drastically impacts our industrial base and we need to 
really watch that carefully.
    Ms. Kosmas. Thank you for that. I know that there have been 
some movements made by other jurisdictions, Foreign Affairs 
Committee, it is languishing perhaps in the Senate, but in 
terms of what we as a Nation need to continue to have that kind 
of inspiration and that kind of leadership, again, global 
leadership in this space exploration, your final answer would 
be finances and ITAR?
    Mr. Stevens. It would be.
    Ms. Kosmas. Dr. Pace?
    Dr. Pace. I would say that again maybe as the policy guy, 
it is policy, programs and budgets, the alignment between those 
and there are a lot of disconnects between policies, programs 
and budgets that we are looking at, and that is really the core 
of instability. I think we need to have a clear statement that 
we are going to be going beyond low earth orbit and doing what 
the CAIB said we should do. I think we should have a program to 
execute that ability to go beyond low earth orbit and I think 
that there is one on the books, and I think we need to fund 
those programs. Now, if we don't like those answers in some 
ways, then we have a choice: we can change our goals, we can 
decide to, you know, add more money or we can decide to take on 
more risk. But I think that the fact that people are uncertain 
about what policies, programs and budgets we are going to be 
implementing is an ambiguous problem that makes other countries 
wonder if we are going to be there as a partner. So policy 
stability, I guess, would be my number one supported by the 
resources to carry that out.
    Ms. Kosmas. I think what you have all answered is 
consistent with the recommendations from the Augustine 
committee and those are of concern to us in terms of what will 
be the outcome of that report and where those policies, 
programs and funding will be established, so I think we are all 
saying the same thing.
    Thank you, Madam Chairman. I yield back.
    Chairwoman Giffords. Thank you, Representative Kosmas.
    Mr. Rohrabacher.

                            Funding Problems

    Mr. Rohrabacher. Thank you very much, Madam Chairman, and I 
appreciate your holding this hearing. I appreciate the 
witnesses today, stimulating our discussion of America's space 
program. One thing is clear. Although the complaint that 
funding is a problem, something else is clear by the testimony 
today is that we spend more money than any other country on 
space. Thus, if there is a problem, it is not necessarily that 
the money isn't there but the money that is being spent has not 
been spent wisely and that there has been a lack of discipline, 
prioritization and perhaps lack of professionality both inside 
our government and in the private sector. I understand that the 
Ares I was launched recently and I was just reading Buzz 
Aldrin's analysis of that, which is very interesting. I would 
submit that for the record at this point.
    [The information follows:]

Why We Need Better Rockets

By Buzz Aldrin

Posted: November 9, 2009 04:56 p.m.

Well, it looked spectacular.

    I'm referring to NASA's recent launch of the Ares 1-X, billed as 
the prototype of the Ares 1 as a crew launch vehicle, a fancy term for 
a manned space booster. The rocket is said to have performed as 
planned, and ushered in the era of the Ares rockets to replace the 
Space Shuttle next year. Only it won't. In fact, the much-hyped Ares 1-
X was much ado about nothing.
    Yes, the rocket that thundered aloft from NASA's Launch Pad 39B 
sure looked like an Ares 1. But that's where the resemblance stops. 
Turns out the solid booster was--literally--bought from the Space 
Shuttle program, since a five-segment booster being designed for Ares 
wasn't ready. So they put a fake can on top of the four-segmented motor 
to look like the real thing. Since the real Ares' upper stage rocket 
engine, called the J-2X wasn't ready either, they mounted a fake upper 
stage. No Orion capsule was ready, so--you guessed it--they mounted a 
fake capsule with a real-looking but fake escape rocket that wouldn't 
have worked if the booster had failed. Since the guidance system for 
Ares wasn't ready either they went and bought a unit from the Atlas 
rocket program and used it instead. Oh yes, the parachutes to recover 
the booster were the real thing--and one of the three failed, causing 
the booster to slam into the ocean too fast and banging the thing up. 
So, why you might ask, if the whole machine was a bit of slight-of-hand 
rocketry did NASA bother to spend almost half a billion dollars (that's 
billion with a ``b'') in developing and launching the Ares 1-X?

The answer: politics.

    Technical problems, the kind that follow every new rocket's 
development, have haunted the Ares like leftovers from Halloween. The 
rocket as currently designed shakes so much during launch that shock 
absorbers are needed beneath its capsule payload. All of this takes 
time to fix--and money, money that NASA really doesn't have. To stave 
off critics, three years ago the Project Constellation managers 
conceived of the 1-X flight to supposedly show some progress. They 
could instrument the rocket with hundreds of sensors gathering 
information never before obtained during a booster use in a Shuttle 
mission. It would give the launch team some practice in the assembly of 
an Ares. And NASA would find out if something as ungainly as the Ares 1 
design--a thicker top than the bottom booster--could survive during 
ascent through the Earth's atmosphere. Of course, all of the changes to 
the Shuttle launch pad to accommodate the Ares wouldn't be ready in 
time, so they decided to just leave all of the Shuttle hardware, such 
as the rotating tower that envelops the Shuttles there. A success might 
just buy more time for Ares to fix its problems.

And that's just what happened.

    Meanwhile, the huge Ares V super booster is just a series of 
drawings. Unlike the plan used to send Neil Armstrong, Mike Collins and 
me to the Moon in 1969, whereby we used just one rocket to lift all of 
the elements of our Apollo spaceships, the current return-to-the-Moon 
plan requires not one rocket but two-one launch of an Ares 1 carrying 
the astronauts in the Orion capsule, and an Ares V lifting a big upper 
stage, a sort of space tug, and the lunar landing craft called Altair. 
Together, the two ships dock in orbit and then the tug, called the 
Earth Departure Stage, fires up for the outbound trip to the Moon. Two 
rockets in development; two launching systems. And two price tags. Two 
ways for failure to occur. Or delays to develop.
    Worse yet, neither rocket alone can accomplish a deep space 
mission. And deep space, such as Mars is, as our friends in the recent 
Augustine report stated, our destination in space. These rockets were 
originally supposed to all be derivatives of the Space Shuttle-using 
four segment boosters and Shuttle engines--but the designs were changed 
to save money and development time. Neither of which has proven to be 
the case today. Our Augustine panel colleagues stated flatly that some 
new heavy lift rocket would be needed no matter which direction 
President Barack Obama chose for the space program. But Ares 1 is too 
small, barely able to lift the crew space capsule. And Ares V is too 
weak to boost all of the elements together.
    What do we need? One rocket for all our deep space missions. Save 
the taxpayer's money by canceling the Ares 1 and V. And go ``back to 
the future'' in designing the big beast. So how do we get to the space 
station without Ares 1? Let the commercial space firms develop their 
own crew launchers, and crew vehicles. Why should Uncle Sam be in the 
people hauling business?
    Here's my plan--and yes, I am a rocket scientist--cancel Ares 1 now 
and the version of the Orion capsule that is supposed to fly astronauts 
back and forth to the International Space Station. Instead, unleash the 
commercial sector by paying them for transportation services to the 
station. Could be capsules. Could be winged ships like the Space 
Shuttle, capable of flying back to a runway with its crews and cargoes, 
not splashing in the ocean like a cannonball. With the money saved, 
start developing a true heavy lifter worthy of the Saturn V's 
successor. Could be a side-mount rocket like the Shuttles, with a tank-
and-booster set flanked by a payload pod jammed full of cargo-or a 
space capsule with astronauts in tow. Or new upper stages capable of 
deep space missions. Let's open'er up to a true competition, with 
designs from inside--and outside--NASA. If we bypass a foolish Moon 
race and let the development of the Moon be an international affair, we 
will have time to refine the super booster to make sure it is 
compatible with our deep space goals, like missions flying by comets or 
asteroids--or to the moons of Mars. Such a rocket would be ready when 
the time comes to colonize Mars. No more false starts and dead end 
rockets.
    Maybe use innovative elements like new upper stage engines, or 
entirely new propulsion systems. Or designs truly evolved from the 
Shuttle era. The idea is to get the best thinking from rocketeers 
before we start spending Uncle Sam's space bucks.
    I confess I have a design in mind that I and my team have worked on 
for years. It's called Aquila, and it is a true offspring of the Space 
Shuttle. It makes maximum use of the existing Shuttle infrastructure--
unlike the real Ares--and Shuttle boosters, engines and the side-
mounted design where today the winged orbiter rides into space. If we 
need bigger rocket engines, Boeing's RS-68 behemoth is always 
available, flight proven and flight tested aboard the Delta IV 
commercial launchers. You see, heavy lifting doesn't need to be heavy 
spending, if we do the job right.
    But let the designers take the field-and may the best booster win. 
To paraphrase David Letterman, we don't need any stupid rocket tricks. 
Just good sound engineering. For without good new rockets to carry our 
payloads and crews, nobody is ever going to follow in Neil, Mike and my 
footsteps into deep space. And that's where we are destined to go.

    Mr. Rohrabacher. And I understand that the Ares I actually 
cost us a half a billion dollars. Is that correct? Ares I-X 
cost us a half a billion dollars and it was--and if you take a 
look at the details of exactly what it was all about, it was 
probably the most expensive launch that we have had for a long 
time and was not really an entire--it wasn't a rocket in and of 
itself. But let us get to the subject at hand here.

                           ITAR Restrictions

    When we talk about space cooperation, I personally believe 
that space cooperation is a prerequisite because of cost 
factors to future endeavors in space. We have got to have that 
because we can't afford to do it on our own but in-space 
cooperation, that doesn't necessarily mean we need to cooperate 
with every country in the same way. The first complaint of the 
witnesses today was ITAR. I have heard that. And second was 
funding. But can we not cooperate with other countries like our 
European friends and things like space debris, which I think is 
a vitally important issue for us all to handle. It affects 
every one of the space-faring nations without having to have an 
elimination of the ITAR restrictions on dealing with vicious 
dictatorships like China. Can we not cooperate with the rest of 
the countries of the world, more democratic countries of the 
world without having to lift ITAR restrictions on China? That 
is my question to the panel. Go right ahead.
    Dr. Pace. Well, I think that is a good question and I think 
that there are a number of areas, for example, in basic 
science, space science and earth science, where cooperation can 
happen without necessarily changing the export control rule 
because these are areas that we engaged with the Soviet Union 
during the height of the Cold War. We had science programs that 
went on and built relationships and so that is kind of a 
careful foundation that I think could be done also with China 
and may probably should be done with China. Issues of 
protection of spectrum, issues such as sharing information 
about space situational awareness standards, these are all 
things where cooperation could be extended without violating 
current export control rules. Regulatory reforms, open trade, 
these again are things where progress I think can be made. But 
at the end of the day, if you want to achieve the highest 
degree of cooperation and the degree of insight and trust that 
come only with flying together in space, you eventually do have 
to control the ITAR regulations and the burdens they impose but 
are there things that you can proceed with right now? Yes, 
there are, and I think my colleague in the European Space 
Policy Institute and I have tried to speak to that.
    Mr. Rohrabacher. Well, certainly, when we are talking about 
future space endeavors, I think that China is a country that we 
should look at and recognize, and by the way, the Germans had 
tremendous technological capabilities during the 1930s and it 
probably would have been a bad idea for us to enter into 
cooperative relationships then at the same standard for Germany 
that we had for our European, more democratic allies, and 
perhaps in China until we see some reform. We could be 
cooperating at the level that you are talking about within ITAR 
but loosen the restrictions for ITAR with our other more 
democratic countries. Isn't that a better strategy?
    Dr. Williamson. Yes, sir. Well, I think we could certainly 
adopt a strategy like that. One of the reasons--with respect to 
China, one of the reasons that I focused as an example on Latin 
America--I could have chosen other regions, Africa or some 
other areas of the world--is that we see the increasing 
influence of China in Latin America, specifically in the space 
realm, and while I think that that has certainly assisted some 
of those countries there to develop their space capabilities, I 
am not sure we want to encourage that kind of activity with, 
say, Venezuela, which has extended its own influence over Latin 
America. So I think there are some concerns there and the 
United States becoming a bit more involved, especially in the 
space realm, because there is a great interest, a number of 
countries are now--in Latin America are now developing their 
own space policies and their own space programs, and--
    Mr. Rohrabacher. Well, that is a good thing. Let us just 
note--and I know my time is up, Madam Chairman. Just note for 
the end that a lot of these Chinese space capabilities, some of 
us believe that that came directly from America's irrational 
cooperation with the Chinese 15 years ago in which there were 
major transfers of technology that had been developed by 
American taxpayers. We need to make sure we focus and get our 
money's worth and not necessarily transfer those capabilities 
to our adversaries and competitors. Thank you very much, Madam 
Chairman.

                                 Ares I

    Chairwoman Giffords. Thank you, Representative Rohrabacher. 
And also for the record, I just want to state that the Ares I-X 
launch not only was highly successful but also a very necessary 
key part of moving towards the Constellation program, which 
members of Congress have supported, and a new platform, a new 
vehicle and I for one am just particularly pleased with the 
results of Ares I.
    Mr. Rohrabacher. Are you pleased with the cost of the 
project for what we got out of it?
    Chairwoman Giffords. Congressman Rohrabacher, as you know, 
because you have certainly been the Subcommittee chair in the 
past, that what we do as a Nation with human exploration is 
very risky, it is very complicated. Obviously we have not seen 
it replicated in many different examples by many different 
countries or, you know, by individual standalone companies, and 
you know, there is a cost to greatness and I for one am willing 
to pay that cost.
    Representative Fudge.

             Mitigating Effect of Gap in Human Spaceflight

    Ms. Fudge. Thank you, Madam Chair, and thank you for being 
here today, all the panelists. I really just have one question 
actually.
    Mr. Pace, I believe it was your statement, you indicated 
that China's human spaceflight experiences are training a new 
generation of technical specialists and raising the quality 
level of industrial suppliers. I know that I sit in these 
hearings all the time and most of the people I see in rooms, 
especially in this committee, are very young people. My staff 
is very young. I have people who are very interested in science 
who tell me that if we continue to go forward as we have with 
knowing that probably at least for the next five years that we 
are not going to have any human access to space, what do we do 
to keep our young people engaged? What is your suggestion? What 
do we do to keep our young people engaged and our supplier base 
capable so that as we go forward we can be where we need to be? 
Anyone can answer the question. I just happened to think it was 
Mr. Pace that said it. Thank you.
    Dr. Pace. I will see what my colleagues suggest. I think 
the fundamental thing we have to do is, we have to do real 
missions. We have to have real hardware. We can't simply have 
programs where we have lots of view graphs and we say how great 
things are going to be. They can be modest things. They can be 
small satellites. They can be balloons. They can be aircraft. 
They can be test flights such as the Ares vehicle. They can be 
things that take a long time. But there is a unique change that 
occurs when engineers see real hardware happening. You start 
figuring out who is actually really good in the field and who 
is, maybe they should stick to, you know, doing view graphs. 
And that lack of sense of reality, where is the real hardware 
going to be, I think is the thing that most deters people from 
pursuing longer-term careers because they don't see what is 
going to be built, and thank you for mentioning the Chinese 
case. I have to note there was just a press report this week 
that China had opened a 7,000-square meter plant outside 
Beijing that is used for design and development of the lunar 
exploration systems in orbit management of spacecraft and 
analyses. They are laying the groundwork now for a very long 
term. It may take them longer than expected but they have 
younger people coming. They are investing in the facilities. 
They have got a fairly logical program that is step by step 
going forward. They will do it with or without us, and again, I 
said we shouldn't fear them being out there but we should worry 
if we are not out there with them.
    Ms. Fudge. Thank you. Yes?
    Dr. Williamson. I would like to pick up on something Dr. 
Pace mentioned and add to it a bit. It is the question for 
engineers, scientists to work with hardware, to work with 
experiments, to work with observations and so forth so we can 
do a lot in those realms, even with small satellites. I teach 
in the International Space University from time to time, and 
you find there some very, very great interest in space, even 
when the projects are small, where there are small satellites, 
but the point is that the students have a chance to get their 
fingers dirty soldering, you know, the circuit boards and so 
forth and actually putting together a small satellite, and it 
is wonderful when they work but there is still an excitement if 
the project fails at some point because they have actually had 
a hand in it, so I think that is very important.
    Ms. Fudge. Yes, go ahead.
    Mr. Stevens. This afternoon I have the pleasure of going to 
a commercial launch. It is my six-year-old son at St. Steven's 
model rocket club. They are launching rockets this afternoon 
and I hope that some day he participates in AIA's Team America 
Rocketry Challenge, which is a big event that I think you are 
aware of. The point I am trying to make is that we need to get 
to these kids early and we need to get them excited, and I know 
that the chairwoman mentioned you are going to be having a 
hearing on workforce and industrial base, and I know you will 
talk more about it then, but I think as has been said here, we 
really need to have stable funding and we need to have policies 
that cross Administrations. We cannot have each President that 
comes up every four or eight years changing the direction that 
we are going. We have to stick to something because to get to 
the moon, to get to an asteroid to do things is going to cross 
many Administrations and we can't keep on changing horses in 
the middle of the river.
    Ms. Fudge. Thank you very much. I just want to thank all of 
you for your answers and just say for the record that what I am 
hearing today from a panel of experts is that it is worth the 
money to do what we need to do to keep us where we need to be 
as a Nation, where we need to get young people engaged in 
science early, and it is worth it. Sometimes we fail, sometimes 
we succeed, but the dollars are necessary to keep us as the 
premier country in this world, so I thank you very much.
    Chairwoman Giffords. Thank you, Representative Fudge.
    We have noticed that votes are going to be called between 
11:15 and 11:30, but I think we have time for another round 
with the members, and it is a long round of votes so we are 
going to have to adjourn when the votes are called and we have 
to leave.

                          Global Space Market

    I have another couple of quick questions. Specifically, we 
talked about growing international capabilities and what is 
happening with space products in the global market. 
Specifically, I would like to hear in what exact products or 
which types of services are we seeing increased competition, I 
mean true, real competition with what we have been able to 
produce here in the United States. Let me start with Mr. 
Stevens, so that way you can't blame Mr. Hauser for taking your 
answers.
    Mr. Stevens. Well, the two issues that come to my mind are 
launch capability, and I mentioned that, and COMSATS. These are 
two areas that are being undercut, and it is difficult to 
compete with nations that have a labor force and don't pay them 
what we pay people and take care of people that way. So that is 
very tough, and the ITAR adds to that type of thing. It makes 
it very difficult for us to do business with people overseas 
and, as I mentioned, that is why we are coming up with--other 
countries are coming up with satellites where they don't have 
to do business with us. It makes it much easier, so--
    Chairwoman Giffords. Thank you.
    Other people? Dr. Pace.
    Dr. Pace. Well, I think I would like to point out, the 
launch vehicle and the communications satellite industry are 
the two areas where you see U.S. market share drop off fairly 
seriously over the last decade or more, and particularly in the 
case of space launch. One of the problems there is that there 
is a relatively small number of launches that are competed 
every year and they are competed with other countries that have 
different industrial policies. In some cases, as is said, it is 
because of differences in what they pay people. In some cases 
they are inheriting material that was left over from the Cold 
War, or in other cases other countries have decided we are 
simply going to produce a certain production run of vehicles 
and then simply going to then make those vehicles available, so 
it is not a commercial market in a pure sense. It is, we are 
going to have X numbers of vehicles, we will produce those. We 
want to keep a production line open. We want to maintain a 
certain size industrial base and then we will allocate those 
vehicles. That is not, you know, a commercial market and so it 
is really hard, I think, for private U.S. firms who are trying 
to compete against state enterprises or against foreign 
industrial policies that are there for other purposes to 
compete in that kind of market. It is a very hard question. I 
don't know that I would want to emulate or replicate that 
policy for the United States but I think it is fair to 
recognize that we are not competing on the same terms and 
conditions that other countries are, and that has an effect on 
our industrial base and our competitiveness since we have to 
ask okay, now what should we do given that reality. As I say, 
the globalized market means not only are there more competitors 
in terms of products but there are more competitors in terms of 
alternative policies that affect our companies.

              Selling Space to the Public Internationally

    Chairwoman Giffords. I have been thinking about other 
countries that certainly have financial constraints in this day 
and age just like the United States yet other countries while 
they don't spend the dollars that we exactly spend in terms of 
their budgetary priorities are making significant inroads. How 
is it that other global leaders or other governments are 
justifying to their people the benefits or, you know, the 
rewards or the sacrifices being made to fund new space 
innovation? Dr. Schrogl?
    Dr. Schrogl. In fact, Europe has recognized space as a lead 
market. The European Union has set out a number of particularly 
important areas for the economy and one out of six has been 
space, and this was a clear signal that space does comprise a 
number of benefits, be it in manufacturing, but even more so in 
the services, and Europe wants to grow, of course, in this area 
and its strategy is in particular also in view of Galileo as a 
global system which will certainly provide a new setting and 
create competition in particular also for the services which 
are provided in the manufacturing which is related to GPS and 
where Europe intends to grow considerably. So the European 
governments say the economic impact of space will be raising 
and it is also doing its best to make the right framework 
conditions on the regulatory level as well as on the policy 
level, which is a straightforward European space policy to make 
that really become to the benefit of the people. On the other 
hand, I should mention that as well the European leaders have 
recognized the high potential of space as a symbolic issue area 
and that the prestige you can get in the international field 
should not be underestimated by the Europeans. So far we 
haven't really went into that but now we are recognizing it, 
also vis-`-vis the other countries which are competitors in 
this field, attractiveness as a high technology part like China 
or India. So Europe is putting together a whole set of 
arguments in order to invest in space and make it known to the 
public that this is money well spent.
    Chairwoman Giffords. Interesting.
    Dr. Williamson.
    Dr. Williamson. I might add to that that Europe has 
invested time and effort into developing a kind of strategy for 
its space efforts in Europe, and I think as I mentioned in my 
testimony, I think it would be very helpful for the United 
States not just to develop policies but also a strategy going 
forward to guide our space efforts. One of the things that 
Europe and a lot of the small countries have done is focus a 
lot on earth observation services in addition to the technology 
and the science. We have tended to focus more in earth 
observations on the science side of it and a lot less in the 
service side of it for public sector, and the difficulties 
there are enhanced or made more difficult by the fact that it 
is very difficult to make a shift from the science side that 
NASA funds into, say, for earth observations either U.S. 
Geological Survey taking over systems or NOAA taking over 
systems, which tend to be very expensive systems to develop and 
maintain. So that is one area that we could work on, it seems 
to me is fixing that. I am not sure how to do it. I know it has 
been around for a long time but I feel the need to point that 
out once again.
    Chairwoman Giffords. Thank you, Dr. Williamson.
    Congressman Olson.

                          Alternatives to Ares

    Mr. Olson. Thank you very much, Madam Chairwoman.
    I have one question. It will be very brief. It is for you, 
Dr. Pace. In your testimony, you state that the human 
spaceflight review has ``created an air of uncertainty over 
U.S. intentions.'' Now, I am concerned that any changes to the 
program at this point will extend the gap, and I know that I am 
going to step on the territory and I am going to incur the 
wrath of my colleague from California here but I thought the 
Ares I-X launch was an extremely successful launch, and my 
question for you is, how are the alterations of the path we 
have planned for the Ares I affect your ability as a partner, 
an international partner, particularly if we assume that we are 
going to extend the space station to 2020 and we are going to 
have to have some access to it?
    Dr. Pace. Well, thank you. You know, I have to say in one 
area I will certainly agree with Congressman Rohrabacher in 
that the Ares I did not demonstrate brand-new physics. I mean, 
it was an engineering achievement, it was a test achievement. 
It was not something that you would consider technologically 
groundbreaking, and that is a good thing because the shuttle 
program is ending and we need to have a vehicle that we can 
rely on for access to space. It is time to really, I think, put 
aside a lot of the really pretty view graphs and make sure that 
the U.S. government and this Nation has the capability that it 
is going to be able to rely on. Now, if it turns out that other 
commercial activities are able to take over the burden of 
getting to LEO, I will be thrilled. I think that will be 
absolutely wonderful. But the question is, I don't want to bet 
on that happening unless I know that I have got something else 
to back it up. So to me, the Ares I vehicle is absolutely 
necessary as insurance and as a way of making sure I can get to 
space so I can place considered bets on the commercial 
community. It in fact is enabling of those bets on the 
commercial community. And the other thing is, it helps me bring 
forward that capability, that strategic capability in this 
country for doing human spaceflight farther in the future. So 
it is a crucial bridge, if you will, to the future, because if 
it turns out that we don't have Ares I, if it turns out that 
the commercial options take longer and are more expensive than 
maybe people expect, the result is, we will be reliant upon our 
ISS partners, in particular Russia. Now, Russia has been an 
excellent partner. If it was not for Russia after the loss of 
Columbia, we would not have been maintaining the station. But a 
strategy going forward that is willing to place maybe a decade 
worth of bet on relying on a foreign country for access to our 
facility to me is not a great idea. I want to encourage 
commercial but I want to have a backup option in case it 
doesn't show up on time.
    Mr. Olson. Yes, sir. Thank you for those comments.
    Madam Chairman, I yield back my time.
    Chairwoman Giffords. Thank you, Mr. Olson.
    Representative Kosmas.
    Ms. Kosmas. Thank you, Madam Chairwoman.
    I was going to ask a different question but in light of the 
comments that were just made, I think it is an excellent place 
to round out this conversation today. I think Dr. Pace said 
much of what we have been saying as a committee and as a group 
of members who strongly support manned space exploration and 
the continuation of our ability to maximize the use of the 
International Space Station with our partners but also to 
continue and look for what you all had suggested, which is 
policy, programs and budgets that will work going forward and a 
consistency of programs, and I think we are all most interested 
in seeing that occur and we appreciate your conversation with 
us today. Thank you so much.
    Chairwoman Gifford. Thank you, Representative Kosmas.
    Congressman Rohrabacher.
    Mr. Rohrabacher. Well, here I am again. Let us just note 
that as we progress with this discussion that there is no doubt 
in my mind that space investment is worth the money. There is 
no doubt about that, and I am a strong supporter of making 
sure--and space cooperation is essential if we are going to 
achieve the potential that we have and all of humankind has in 
terms of utilizing space for the benefit of the people here on 
earth but also to explore in the areas beyond. The question 
isn't whether or not it is worth the money. The question is, 
are we getting our money's worth that we are spending. We are 
spending more than any other country of the world yet we are 
falling behind. What does that tell you? We have got to do some 
things better than what we are doing and we are not going to do 
it by simply excusing inefficiencies when we see them.
    Now, let us note that in the private sector and the 
commercial space business, you have SpaceX out there, and from 
what I have seen, SpaceX has spent less money and developed a 
whole new rocket system, the Falcon system, and everything that 
they spent is less than the cost of a design test of Ares 1-X 
that has not even tested any new hardware. Now, this test that 
we just had was a test of design but not a test of hardware but 
yet you have a commercial endeavor that is able to spend less 
money and develop a whole new rocket system. Now, we can't go 
on like that. What we have here is not a lack of money. We have 
a lack of discipline, a lack of focus, a lack of prioritization 
and a lack of demand by Members of the United States Congress 
on more-effective use of the resources that we are spending, 
and I would suggest that we do need to cooperate. That is one 
of the things that we can maximize it but we also have to keep 
in mind that when we cooperate with non-democratic countries 
like China, there is a payback and in the end it is a brutal 
payback for the people of the United States who have upgraded, 
which we did 15 years ago with our cooperation with China. We 
upgraded their capabilities and now they are coming back as our 
competitors and our adversaries. So it seems to me that we just 
have to be responsible and we have to be self-disciplined and 
we have to try to be as realistic as we can, and sorry to shoot 
that out but maybe some of the panelists or the chairman would 
like to comment on that. Thank you, Madam Chairman.
    Mr. Stevens. What a softball. I would rather talk about the 
times when I went to UCLA and used to surf down at Huntington, 
but I guess I will take this one on.
    Mr. Rohrabacher. I never cut you off when you were down 
there.
    Mr. Stevens. I represent all the companies you mentioned, 
SpaceX, and all the companies that are building Ares I, and I 
would say that having been a program manager over on the 
aircraft side of things, it is hard to tell exactly what the 
costs are and what it costs to do something these days. I would 
agree with you that any time there is acquisition, there are 
ways to do things better, and we need to take a look at that. I 
don't think there is competition between companies like SpaceX 
and the other companies that are building Ares I. They are two 
different missions. One is designed to go up in a commercial 
way, supply the International Space Station. The other one is 
already looking at human spaceflight and it takes a lot of 
money to do that type of thing, and it is supposed to go beyond 
that. It will provide us the capability. And as I said earlier, 
I don't think we should be changing horses in the middle of the 
stream right now or we will never be able to get up there. We 
will have to extend the space station to 2030 by the time we 
start--we get something--the government gets something. I hope 
you are right about SpaceX. They are a very good company and I 
think they will do great in the commercial world, and as I 
mentioned, it is good both ways to have two different systems 
to get up there.

                                  ITAR

    On the ITAR side of things, I agree with a lot of what you 
are saying but it is impacting us. I think we need to take a 
look, as you mentioned earlier, at different countries and how 
we treat them. Scott mentioned that we are working with the 
Chinese on different things. We are members of the Global Earth 
Observation Systems. Eighty countries are involved in that. We 
are sharing climate data and things like that and that is a 
good thing to do, and one would think that if we had an 
accident of some sort up on the International Space Station and 
the Chinese had the capability of rescuing our astronauts, we 
would like to take that into account, but we do not want to be 
in a position of handing over important data, and as I said 
earlier, the two questions you need to ask whenever you are 
thinking about doing cooperation with other countries is, 
number one, how does it impact national security, and number 
two, how does it impact the industrial base.
    Chairwoman Giffords. Great. Thank you, Mr. Rohrabacher.
    As we all know, votes have been called. I have one final 
question, and certainly if there is anyone else that wants a 
final question, please let me know. We have a few minutes here. 
A couple of nights ago I had the pleasure of listening to a 
lecture on Hubble by Dr. John Grunsfeld over at the 
Smithsonian, and the images of course from Hubble are 
absolutely phenomenal but more so than that, having spent a lot 
of time watching a lot of space station videos, as we all have 
a chance when the crews come back and at home too, get a chance 
to watch these videos, it really, I mean, just piques the 
imagination there of how large the universe is and all the 
questions that we have about the universe that are really 
unanswered, and I think it touches too this human exploration 
part of getting out of lower earth orbit and moving back to the 
moon and then going on and exploring this vast, vast tract of 
sky that we have. There have been a lot of questions, and I 
think as members of this Subcommittee and Members of Congress, 
we take space very seriously but in some respect, in terms of 
the growth of global space capabilities, the problems and the 
opportunities it presents, that this also needs to be 
shouldered by the private sector and also by the nonprofit 
community, all of these NGOs out there, these groups that also 
have an interest in space.

                        Role of Private Advocacy

    So I guess my final question to the panelists is that 
obviously you can hear a strong commitment by members of this 
Subcommittee, the Committee and the vast majority of Members of 
Congress. You can see that and certainly in the past budgets 
that we have supported. But really, what is the responsibility 
and what are the actions that the private sector and folks out 
there in the nonprofit world--I mean, what are all of you 
willing to do to make sure that the United States continues to 
lead in this area? Mr. Hauser?
    Mr. Hauser. I will take the first stab at it. I would like 
to think we are attempting to do our job fairly well. Certainly 
in the Space Foundation we have a very active education program 
and based on the question earlier, I had wanted to share that 
we have a partnership with Charles County, Maryland, which is 
quite a fabulous partnership. A very forward-leaning school 
superintendent wanted to build a planetarium for our students 
and he realized the only way to do that was to leverage it 
across all of the disciplines. So every grade level and every 
discipline has to integrate space and science into their 
education program, which is pretty fascinating. You find the 
teachers are thrilled with what they are doing because the 
English teacher is teaching mythology, you know, based on 
space. You find, I can't think of the right word, but teachers, 
shop teachers talking about mining asteroids and things like 
that.
    So I think part of what we do is the education process. The 
other thing we do at Space Foundation obviously is come to 
hearings like this. We publish the Space Report. We thank you 
for the plug earlier today to help educate and inform America, 
and we spend a great deal of time trying to make sure that this 
works for not only the technical person but, you know, grabs my 
mom's interest as well too. And then I would say that we do a 
lot of things to partner with industry, provide networking 
forums and things like that again to get our message out and to 
interest more people in space and in science and all the things 
you just mentioned. So thank you for the opportunity.
    Chairwoman Giffords. Mr. Stevens?
    Mr. Stevens. One of the things that the Aerospace 
Industries Association on the space side is ramping up and 
really doing a big campaign, I think. We are talking to our 
members about doing this right now but we really to focus and 
get the public involved. If you look back at the public 
approval of going to the moon back when we did that, it was 
only about 40 percent, but if you talk to people now and you 
look at surveys and Gallup polls and what is going on, it is 
close to 77 percent. So people like space, they want the United 
States to remain a leader in space and, you know, we just need 
to stay involved. We need to keep the funding stable and 
robust, as I mentioned, so that would be my answer.
    Chairwoman Giffords. Thank you.
    Dr. Pace?
    Dr. Pace. Well, I think the most important way I think we 
contribute at George Washington University of course is the 
education of people and the people over the many, many years 
who come through the program, you find them all over the world. 
We have students who are in every space agency around the 
world, we have visiting scholars from all over the world, and 
so that there is a community that has been built up that on one 
hand recognizes deep differences that other countries have 
their own subjective objectives and interests and needs but 
also the commonality that you describe as we sort of look 
beyond, you know, our immediate needs and we recognize this 
broader horizon that we can be moving toward.
    So one of the things I think that we try to do is try to 
connect space to these sort of broader interests of national 
security, foreign policy, economic development, international 
trade development, that is not simply about a bunch of 
engineers having a good time with their own particular project 
but it is about serving a sort of broader, really more 
transcendent interest in our societies, and I think that is one 
of the privileges in the institute that I have is being able to 
see that in generation after generation of students who come 
through that program.
    Chairwoman Giffords. Thank you.
    Dr. Schrogl, could we have the European perspective?
    Dr. Schrogl. Yes, indeed, Madam Chairwoman. I cannot 
exactly respond to your question because I am working for the 
purpose of having Europe maybe in the future being a leader in 
outer space, at least a small leader. Now, we are trying to 
convey the message that space is useful for a number of policy 
areas, and this is I think a theme that Scott Pace has already 
mentioned as well. In Europe is it very complicated with all 
the levels we have for the member states at the European level 
to also educate the decision makers that space is a tool, a 
powerful tool to achieve results in these policy areas ranging 
from security to knowledge, mobility, resource management and 
the environment in particular. And so this is one of our main 
tasks to show the benefit of space and space applications in 
these policy areas, and of course then to try to convince the 
decision makers as well as all the users, the potential users 
to reap the benefit from utilizing space capabilities to this 
extent.
    Chairwoman Giffords. Thank you.
    Dr. Williamson.
    Dr. Williamson. Well, yes. The Secure World Foundation, it 
is a small foundation with offices in Colorado, United States, 
and Vienna. We have focused heavily on space sustainability and 
educating people not only in the United States but also in 
other countries about the importance of focusing some effort on 
sustainability so that we reduce the issues with space debris 
and also with this orbital crowding that I mentioned in my 
testimony. One of the things we do is partner with an 
organization in Canada, Project Plowshares, to produce this 
Space Security Index every year, and which is available online 
and in paper copy, so that we educate people about space 
policies and about the importance of maintaining the space 
environment for all the benefits we obtain from the space 
environment.
    Chairwoman Giffords. Thank you. I just want to thank all of 
our witnesses today. Any additional questions? No? Okay. Again, 
I mean, I think we covered a lot of ground, and this is 
something during a very difficult time of competing budget 
priorities that we need to continue to be vigilant about and we 
need to continue to focus on, so again, for our witnesses, 
thank you so much for being here.
    Before we bring the hearing to a close, also I want to make 
sure that the record will remain open for 2 weeks for 
additional statements from the members and for answers to any 
follow-up questions that Subcommittee members may ask of our 
witnesses. The witnesses are now excused and the hearing is now 
adjourned.
    [Whereupon, at 11:38 a.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Marty Hauser, Vice President for Research And Analysis, 
        Washington Operations, the Space Foundation

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  What does the changing global space arena and the increasing 
capabilities of space players mean for our national security interests?

A1. It means that a domain we are accustomed to operating in with 
complete freedom is more constrained. This limits our options and we 
must take more third parties into consideration when we select a course 
of action related to space.

Q2.  You indicate in your statement that China and the Europeans, 
though not spending more, are getting more out of their investments 
than we are. What is your basis for saying that? In your opinion, what 
investments in NASA would give us a greater bang for the buck?

A2. Estimates of Chinese spending vary, but the administrator of the 
Chinese National Space Agency stated in 2006 that they had spent $2.8 
billion on developing human spaceflight capabilities over the years. 
This is less than the amount spent on the Space Shuttle in a typical 
year (approximately $3 billion). Even accounting for fewer Chinese 
flights, and assuming that the administrator's statement was accurate, 
this is a very low price for developing human spaceflight capabilities 
(partly due to collaboration with Russia). On the European front, in 
spite of a lower level of overall space spending the Europeans 
developed a launch vehicle, the Ariane 5 that is the only booster 
capable of delivering two large communications satellites to 
geosynchronous orbit at a time. This capability has made the Ariane 5 a 
world leader in the commercial launch industry. Investments in NASA 
that are intended specifically to produce or enhance commercial 
applications may give the United States a greater return.

Q3.  The Space Foundation organized a private delegation to China and 
visited space facilities and infrastructure for China's human space 
flight program. What, during the visit, was most striking? How, if at 
all, did the visit change perceptions of China's space capabilities on 
the part of those who went on the trip?

A3. I was not on that trip but I am told what was most striking is that 
they have a program of record that they are committed to. They are not 
trying to ``leap frog'' ahead of the United States in terms of manned 
space, but they are making steady incremental progress. While here in 
the U.S. we are making programmatic and funding starts and stops. This 
focusand commitment by the Chinese will allow them move ahead of us in 
space.

Q4.  What is the impact of U.S. export controls, particularly ITAR, on 
the United States' ability to reach out to emerging spacefaring 
nations? What would you recommend be done?

A4. It is crippling for the aerospace industry. It dramatically affects 
our business opportunities and operations. The loss of business due to 
unnecessary export controls creates a long term national security issue 
for us. We must protect critical national security technology without 
question but we must also find a balance and loosen unnecessary 
restrictions. This would allow our companies to compete internationally 
and to build and rebuild necessary partnerships and collaborative 
efforts with other countries. The administration and emerging 
congressional efforts at export modernization should be applauded.

Q5.  To what extent does cooperating on space activities improve 
domestic national capabilities in science and technology? Does that 
apply to emerging space powers as well as to the United States?

A5. Ideally, if a partner has a core competency, for example Canada and 
their tele-robotics, it allows the partner to focus on their strengths, 
reduces demand on the US to develop such capabilities, and allows the 
US to devote resources to other critical path systems. I believe this 
is true when dealing with emerging space powers as well. In some cases 
it is even more beneficial because they are starting with a clean slate 
and can focus their investment in new areas of expertise that have not 
been fully explored.

Q6.  While several new participants have entered the global space arena 
and others are demonstrating increasing capabilities, what do we know 
about the ability of these nations to sustain their space programs and 
investments?

A6. Not surprisingly it is not easy to garner complete and concrete 
data on how other nations are explicitly funding their programs. What 
we have seen is that other nations are doing two things when 
prioritizing and allocating scarce resources:

        #1.  Identifying near-term, pragmatic needs and requirements 
        that can be addressed via space assets/capabilities

        #2.  Where appropriate, they are making their contributions to 
        any collaborative space effort with other nations.

    In addition, the model for space is changing daily. It used to be 
countries like the U.S. and Russia built their own launch vehicle and 
satellite, launched it, and operated it. That paradigm has changed and 
now has numerous possibilities. Now that more nations with smaller 
budgets have recognized the value of space and using space assets and 
products, there are all kinds of unique arrangements. For example, one 
country could pay another to build their desired satellite, pay another 
to launch and operate it for them. This a la carte way of purchasing 
hardware and support comes in just about any type of arrangement one 
could want. And in some instances, like China, there is a package of 
agreements and services that extend beyond space, i.e., building and 
operating a country's satellite in exchange for rights to oil or other 
resources or land use. These are the arrangements that turn countries 
into partners and potentially threaten the long term security of the 
United States.

Questions submitted by Representative Pete Olson

Q1.  Talking about other space-faring nations, you stated that, 
``(T)hey are not outspending us, but they are certainly getting more 
out of their investments.'' Could you expand on that statement? How are 
other space-faring nations able to exploit their investments to greater 
effect?

A1. Over the past decade and across both civilian and national security 
space, US government programs have seen programs start, have their 
requirements change, costs increase, schedule delays, get restructured 
and cancelled. Billions are wasted because of poor management, 
unrealistic expectations and funding uncertainty. Other nations are not 
immune from these problems, but they seem more judicious in how they 
allocate funds.

Q1a.  For what period of time does the US typically hold on to newly 
developed space technologies--whether talking about launchers, sensors 
or other related capabilities--before these technologies are replicated 
by other countries?

A1a. Unfortunately I am not a technology expert and I don't think I am 
qualified to answer this question. That said, I will take a stab at it.
    There is no simple answer--it depends on the technology and the 
capabilities of the other countries that are involved. In some cases, 
it is enough to know that a capability exists. Once that is known, it 
is possible to determine how it is accomplished and how it can be 
duplicated. Other technologies require significant empirical testing to 
perfect, and substantial resources must be dedicated to the research 
process before the capability can be replicated.

Q2.  What capabilities are the emerging space-faring nations working 
hardest to develop, and why? Should we be concerned?

A2. Many emerging spacefaring nations, particularly developing nations, 
are focusing on capabilities that are Earth-oriented and show direct 
benefits for education, communications, agriculture, and other public 
services. The greatest concern may be when these emerging space nations 
do not seek assistance from the United States for their programs, as it 
is a lost opportunity for us to use ``soft power'' to form useful 
connections with them for the long teen.

Q3.  What are the long-term effects and strategic implications on our 
country's economy, our ability to engage in international 
collaborations, and our ability to exploit space, if we are reduced to 
launching a relative handful of civil missions each year?

A3. There will be all sorts of unforeseen ripple effects through the 
aerospace industrial base, and the number of talented young Americans 
who choose space as a career.
    This will eventually spill over into how the US develops cutting 
edge technology and capabilities in both civilian and national security 
communities. Costs per flight will increase as well.

Q4.  How closely coupled are our commercial and civil space programs, 
including human spaceflight, to our national security space posture? 
Would a reduction in civil space R&D and infrastructure imperil the 
technology base and capabilities on the military side?

A4. They inexorably linked. Most companies that comprise our space 
industrial base perform work in both civil and national security space. 
An easy example is ATK. The lion's share of their work with solid 
rocket boosters (SRBs) is with NASA. Due to economies of scale it 
reduces the costs for the Department of Defense (DOD) usage of SRBs. If 
NASA ends their use of SRBs or dramatically reduces their use of SRBs, 
the costs for ATK and DOD will increase.
    Additionally, in many cases space technology and equipment is 
provided by smaller, second tier suppliers. Many of them are the only 
supplier of a specific piece of necessary space equipment. Today, many 
of them exist on the margins when it comes to profitability. If demand 
and requirements decrease, many could not afford to stay in business, 
thus causing problems for the entire production chain and potentially 
create an unrecoverable affect in the industrial base.

Questions submitted by Representative Parker Griffith

Q1.  Regarding space dominance, my question for the panel focuses on 
Human Space Flight Exploration. I would like to remind everyone, we 
currently have a capable and recently tested Constellation program 
intended for low earth orbit, which is managed in my district at 
Marshall Flight Center in Huntsville Alabama. Could you talk about the 
geopolitical perception of the United States if we walked away from the 
current national exploration initiative and further extended the human 
space flight gap by turning over the mission to a commercial industry 
that is yet to have a human rated space exploration vehicle?

A1. In the past several days we are starting to see that reaction to 
such a scenario. We ourselves have had interactions with foreign space 
officials who are somewhat dismayed and saddened by such a move. While 
a move to a commercial launch marketplace may be a good long term 
solution, no doubt in the short term it weakens the perception of the 
U.S. being the global space leader we are known to be. It also begs the 
question, what is the true commitment of the United States to human 
spaceflight, and when will we make a decision and stick to it?

Q2.  How can the United States maintain its space dominance when we are 
reassessing the goals of human space flight exploration with 
presidential administration and continuing to underfund our NASA 
programs? What is needed for the United States to maintain its space 
dominance and inspire America's youth?

A2. Programmatic and funding starts and stops hurt development of 
vehicles and systems as well as failing to get the public enthused 
about space. I think a sustained commitment to the program by 
successive Congresses and Presidents will help. This commitment needs 
to be aggressive in spirit and in effort. It must be well developed and 
installed in programmatic goals and provide increasing long term, 
reliable national funding to achieve those goals.

Q3.  While the United States is attempting to maintain space dominance, 
the financial and public support is waning as we get past 2010. How do 
we work to reverse this trend?

A3. NASA and its contractor partners need to execute as best they can. 
Overruns and delays reduce enthusiasm. Nothing builds support more than 
mission success. A new vision must be developed quickly, communicated 
and then funded long term without wavering commitment. As they say in 
the movies, ``If you build it, they will come.''
                   Answers to Post-Hearing Questions
Responses by J.P. Stevens, Vice President, Space Systems, Aerospace 
        Industries Association

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  What does the changing global space arena and the increasing 
capabilities of space players mean for our national security interests?

A1. Space is a `high ground' in national security and a resource 
currently available to only a few other nations. As the use of space 
increases, new and potentially unfriendly nations will secure these 
capabilities. Increases in foreign communications satellites could 
support foreign troops and unmanned vehicles. Other nations are 
developing GPS systems which could be employed for targeting and 
military navigation. Remote sensing will provide other nations a global 
view of military and industrial capabilities and even deployments.
    It is incumbent upon the United States to remain vigilant about 
these foreign space capabilities while we continually maintain -. and 
advance--our own capabilities. We are risking our national security 
should we become complacent about these capabilities.

Q2.  In your prepared statement, you mentioned increasing competition 
in the satellite manufacturing industry and the decline in the U.S. 
share of revenues in this market. What are the implications of the U.S. 
market position in these and other industries for our national space 
capabilities?

A2. In 2007, the satellite market provided the U.S. 257,000 jobs 
(services--84,000; manufacturing--27,000; launch services--50,000; and 
ground equipment--96,000).
    The U.S. had 47 percent (4.6 billion dollars) of satellite 
manufacturing revenues in 2003; this number sank to 29 percent (3.1 
billion dollars) by 2008. This loss of market share has a major impact 
on U.S. aerospace companies and continues to be of concern.
    The satellite industry is a 144 billion dollar industry worldwide; 
with satellite services providing 58 percent of these revenues, ground 
equipment providing 32 percent, satellite manufacturing providing 7 
percent and launch services providing 3 percent. Services and ground 
equipment alone represent 130 billion dollars worldwide each year. As 
foreign satellite use grows, the U.S. share of the overall satellite 
industry will continue to decline.
    Due to an overly restrictive export control system for commercial 
satellite and related technologies, U.S. firms are becoming 
increasingly reliant on government contracts for business 
sustainability. As the U.S. market share declines and government 
programs remain flat or decline, many U.S. companies--particularly 
small firms or component manufacturers--are faced with hard choices, 
including whether or not to exit the market altogether.
    Further erosion of the U.S. market share has far reaching 
implications to our nation's space industry, especially our second and 
third tier suppliers. These suppliers are necessary for more than just 
commercial satellite customers, as many produce components needed for 
our national security community. Losing these companies puts our 
national security at risk, can increase the cost of major space 
programs, and impacts the ability of industry to meet the needs of our 
military and intelligence community.

Q3.  What is the impact of U.S. export controls, particularly ITAR, on 
the United States' ability to reach out to emerging space nations? What 
would you recommend be done here?

A3. Outdated export barriers affecting U.S. companies have prompted 
other countries to develop their own indigenous capabilities, and have 
promoted the ability of other nations to trade in space technology 
globally. In light of the current export control system, U.S. firms 
have become increasingly dependent on government contracts to remain in 
business and are not able to compete on a level playing field globally. 
These restrictions make it harder for the U.S. government and industry 
to partner with our friends and allies internationally.
    Our export control system is currently under review by the 
administration, and also requires legislative action to move control of 
commercial satellites and related components to the Department of 
Commerce. A system must be developed that keeps sensitive technologies 
out of the wrong hands while facilitating technology trade and 
cooperation with our friends and allies in a timely manner.

Q4.  I am concerned about continued U.S. competitiveness in the global 
economy. What does the increase in global space capabilities among 
other space nations mean for our U.S. aerospace industry and our 
economic competitiveness? Are any of the emerging space nations able to 
compete with space products and services on the global market? In what 
areas are we likely to see increased competition due to growing space 
capabilities?

A4. As demonstrated in question two, the global satellite industry is 
increasingly leaving U.S. companies behind. Another key area of concern 
is commercial launch services. In 2008, U.S. companies launched only 
six of 28 worldwide commercial payloads. Currently, Russia and Europe 
have around 60 percent of the global launch market. In addition, our 
GPS system will be facing competition in the next several years with 
systems being developed or deployed by Russia, the European Union, 
China, India, and Japan.
    The increased competition worldwide is of serious concern to the 
U.S. aerospace industry. Fostering a business environment that rewards 
innovation and risk, while removing barriers that exist with our 
current export control regime, is what is needed to ensure we remain 
competitive into the future.

Questions submitted by Representative Pete Olson

Q1.  For what period of time does the U.S. typically hold on to newly 
developed space technologies--whether talking about launchers, sensors 
or other related capabilities--before these technologies are replicated 
by other countries?

A1. Four variables to consider are (1) the cost of pursuing the 
specific technology, (2) which areas of expertise a nation chooses to 
pursue, (3) the capacity of each nation for R&D of the new technology, 
and (4) a willingness to invest. For example, space launch is a very 
expensive program requiring long lead times and a steep learning curve, 
while sensors for remote sensing are a relatively easier project.
    Willingness to fully invest in a project helps reduce technology 
development times, allowing nations to catch up with the U.S. With the 
Cold War funding enjoyed by the Apollo program, the U.S. was able to 
develop the Saturn V moon rocket in just eight years. The proposed Ares 
V heavy lift rocket, which has a less robust funding profile projected, 
is estimated to take the U.S. at least twice as long to develop.
    Nations such as China, however, have both the capacity for R&D and 
the willingness to invest. Utilizing the technology development of the 
U.S. and Russian space programs, the Chinese were able to meet major 
space milestones at a significantly accelerated pace. Their first three 
manned flights have included flights with multiple crews, orbital 
maneuvers, and extra-vehicular activity. India and Japan have both 
orbited probes around the moon, Europe and Japan have launched remote 
control cargo vehicles to the International Space Station, and India 
has developed a remote sensing system.
    As space technologies increase their presence in the global 
marketplace, it is reasonable to expect that emerging space countries 
will be able to make sizable improvements to their technological 
capabilities at a much faster pace than the U.S. needed for developing 
technologies from scratch. Other countries are able to build their 
development upon existing systems.

Q2.  What capabilities are the emerging space-faring nations working 
hardest to develop, and why? Should we be concerned?

A2. The U.S. has competitors in every aspect of space technology. The 
area which nations are most likely to prioritize for technology 
development is remote sensing. This is comparatively simple, 
inexpensive and can have commercial, civil, and national security 
applications.
    Two other areas of rapid growth are GPS and human space flight. 
Europe, China, India, and Japan are developing GPS systems (Russia is 
currently deploying one). China has a
    human space program and India is expected to have a human 
spaceflight in this decade. Europe and Japan have developed unmanned 
cargo delivery systems to the International Space Station; these 
projects have developed technologies which can directly support human 
spaceflight.
    The development of new capabilities by emerging players is an area 
of major concern. It represents not only commercial competition, but 
also has national security implications because many civil and 
commercial capabilities (remote sensing, communications satellites, and 
GPS) can serve dual purposes.

Q3.  What are the long-term effects and strategic implications on our 
country's economy, our ability to engage in international 
collaborations, and our ability to exploit space, if we are reduced to 
launching a relative handful of civil missions each year?

A3. The U.S. has been in the enviable position of being the leader in 
both civil and commercial space ventures. However, the increase in 
players in commercial space and the businesses supported by commercial 
space (communications, remote sensing, launch, and soon GPS), means a 
loss of the U.S. global share.
    This decline not only affects businesses but also the perception of 
the U.S. as the global leader of space. This leadership gives us an 
advantage when we cooperate internationally. If our leadership 
continues to erode so does our voice in cooperative international 
efforts.

Q4.  How closely coupled are our commercial and civil space programs, 
including human spaceflight, to our national security posture? Would a 
reduction in civil space R&D and infrastructure imperil the technology 
base capabilities on the military side?

A4. Our space efforts are deeply intertwined between commercial 
ventures, civil programs and national security space programs. Many of 
the same companies support all three ventures, sometimes with the same 
equipment. For example, the GPS program is administered by the 
Department of Defense, yet countless civilian and commercial 
applications render the system indispensable. Similarly, commercial, 
civil and national security payloads are often placed in orbit by the 
same types of launchers. Therefore, when one program is canceled or 
delayed, the impact can easily spread across our space industrial base.
    Reducing our civil space R&D effectively reduces the overall 
investment in our space industrial and technology base. Even though the 
space industry has the ability to move talent between programs, and to 
share resources (such as components for satellites, launchers or the 
solid fuel for launch systems which is provided by a single company for 
commercial, civil and national security projects), a reduction in any 
one aspect of R&D ultimately affects the entire resource pool
    NASA's R&D is largely driven by developing or improving human rated 
systems. A reduction in human exploration R&D would significantly 
reduce the overall pool of space R&D that benefits the nation.

Questions submitted by Representative Parker Griffith

Q1.  Regarding space dominance, my question for the panel focuses on 
Human Space Flight Exploration. I would like to remind everyone, we 
currently have a capable and recently tested Constellation program 
intended for low earth orbit, which is managed in my district at 
Marshall Flight Center in Huntsville Al. Could you talk about the 
geopolitical perception of the United States if we walked away from the 
current national exploration initiative and further extended the human 
spaceflight gap by turning over the mission to a commercial industry 
that has yet to have a human rated space exploration vehicle?

A1. Other nations recognize the value of space programs as innovation 
drivers, for increasing world stature and as a source of national 
pride. It is imperative the United States maintain our stature as the 
world leader in space. Developing the next generation of launch and 
human spaceflight capabilities is a necessary component toward this 
end. Supporting the civil space program, while also encouraging 
commercial development, is critical toward ensure a robust space 
industry able to support the United States' goals in the future.

Q2.  How can the United States maintain its space dominance when we are 
reassessing the goals of human spaceflight exploration with 
presidential administration and continuing to under fund our NASA 
programs? What is needed for the United States to maintain its space 
dominance and inspire America's youth?

A2. Despite recent advancements from other space faring nations, the 
United States remains at the forefront of human space exploration. 
However, unless NASA receives an increased investment, the U.S. risks 
falling behind as other countries continue to invest in their human 
space exploration missions. Periodic reassessment of our programs is 
prudent; however, it is imperative that the U.S. demonstrate resolve 
and commitment toward our human spaceflight goals. The impact of 
indecision is felt across the entire U.S. space industrial base and 
speaks volumes to America's youth. Increasing investment in NASA sends 
a direct message to our youth that they should pursue science, 
engineering, technology and mathematics (STEM) education, and that an 
exciting aerospace career can be theirs.

Q3.  While the Untied States is attempting to maintain space dominance, 
the financial and public support is waning as we get past 2010. How do 
we reverse this trend?

A3. The primary way the U.S. can maintain space dominance in this era 
of growing global competitiveness is by greater investments in NASA and 
in our space industrial base.
    The industrial base designs, develops, produces and supports our 
spacecraft, satellites, launch systems and supporting infrastructure. 
These systems are often produced in small, even single, numbers. 
Production interruptions or cancellations can negatively impact large 
companies and can be catastrophic to smaller firms--often the only 
entities with the unique abilities to produce small but critical 
components on which huge portions of our economy, infrastructure and 
security depend.
    NASA and the space industrial base also drive significant 
technological development. The need for better composites, smaller 
components, more sensitive instruments and more robust systems must be 
constantly addressed. These developments most commonly occur with the 
design and production of next generation systems.
    It is critical, especially in these times of tight budgets, that 
the administration and Congress prioritize and support this industrial 
base. It is also important to take every opportunity to engage and 
educate the general public as to the importance space systems and 
technology play in their everyday lives.
                   Answers to Post-Hearing Questions
Responses by Dr. Scott Pace, Director, Space Policy Institute, The 
        George Washington University

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  Recently, President Obama was in China meeting with Chinese 
President Hu Jintao. One of the areas they discussed was space. 
According to a U.S.-China Joint Statement released by the White House, 
the U.S. and China plan to expand discussions on space science 
cooperation and begin dialogue on human space flight and exploration. 
What are your thoughts on how we should approach this dialogue? What 
are appropriate issues for the agenda? What areas of space science and 
human space flight might serve as a starting point for U.S.-China 
engagement?

A1. As with the Soviet Union, the first steps in space cooperation 
should be modest, science-driven projects that create confidence 
through their reciprocity and transparency. China is unlike the 
situation of the Soviet Union in that a high degree of scientific 
cooperation already exists in many fields so extending cooperation to 
new fields of Earth and space science should be easier. However, 
China's space efforts are like the Soviets in that the military plays a 
leading, if not fully dominant, role. Thus cooperation in human space 
flight needs to be consistent with the state of U.S.-Chinese military-
to-military dialogs. A breakdown or suspension in mil-to-mil exchanges, 
for example, would necessarily call into question NASA dialog with the 
PLA.
    Initial pilot efforts in Earth and space science could be followed 
by biomedical data exchanges relevant to human space flight. In close 
consultation with the partners, small Chinese experiments could be 
flown on the International Space Station and reciprocal experiments 
flown on future Chinese manned facilities. There is much in the way of 
multilateral technical work that the United States an China could 
cooperate on, such a protection of space frequencies, standardization 
of communications and navigation protocols, and sharing of space 
situational awareness data relevant to both man-made and natural 
objects in space. Such standardization would increase the opportunities 
for communications cross-support for unmanned scientific missions.
    Finally, consideration could be given to flying cargo to both 
International Space Station and a Shenzhou-based Chinese station. 
Interoperable docking and rendezvous procedures would be needed to 
accomplish this. Such a capability would have to be thoroughly reviewed 
by the ISS partners, but may be attractive in order to diversify 
logistics support to ISS after the end of the Shuttle program. One 
might even imagine using a commercial U.S. resupply launch for the U.S. 
contribution.

Q2.  What is the impact of U.S. export controls, particularly ITAR, on 
the United States' ability to. reach out to emerging space nations? 
What would you recommend be done?

A2. U.S. export controls, particularly ITAR, are a significant barrier 
to U.S. engagement with emerging space nations via direct and indirect 
reasons. Such controls bar the transfer dangerous technology but they 
also create additional burdens on U.S. government employees and 
contractors even on approved international cooperative projects. NASA 
may have State Department approval to conduct a cooperative project 
with certain technology transfer boundaries but its contractors still 
need export licenses with their foreign counterparts. Contractors with 
the best expertise are often unwilling to risk potential legal 
liability in meeting with foreign nationals to resolve technical issues 
that necessitate lengthy workarounds through government employees who 
are not as expert. This creates additional mission risk.
    The fundamental problem is not export control or even 1TAR per se, 
but the legislatively mandated lack of flexibility in the current 
system. The solution would be to return responsibility for the U.S. 
Munitions List (specifically Category XV) to the Executive Branch, with 
continuing legislative oversight, and have the Executive Branch 
rationalize and update the USML to better reflect current global and 
market realities. The State Department should further delegate, on a 
case-by-case basis, the responsibility for oversight of export control 
compliance to agencies engaged in approved (e.g., via Circular-175 
process) international cooperative space activities.

Q3.  Many of the challenges that we face as a society-climate change, 
ensuring the availability of clean energy and water, and protection 
from potential near-Earth objects that might be headed toward Earth-
will require multilateral solutions. To what extent will these societal 
issues influence the development of global space capabilities? What is 
the appropriate means by which to engage emerging and established 
space-faring nations on such issues?

A3. There are several useful models for the engagement of emerging and 
established space-faring nations on issues requiring multilateral 
cooperation. Some of them already exist as voluntary associations among 
space agencies, such as the Consultative Committee on Space Data 
Standards, the Committee on Earth Observation Satellites (CEOS) and the 
International Space Exploration Group under the Global Exploration 
Strategy. Others, in areas such as space situational awareness and 
near-Earth objects, are just forming. These organizations tend to be 
more pragmatic and flexible than ``top-down'' approaches such as a 
single international space agency and thus gain wider participation 
from nations at differing levels of space development.
    The United States can best promote engagement by being a technical 
leader in these groups and building community networks that align with 
our broader national interests. For example, the SERVIR initiative by 
NASA and USAID in Latin America and Africa helps forecast environmental 
changes and to improve response to natural disasters. Cooperative 
networks like this have been beneficial in sectors such as satellite 
communications, remote sensing, weather, and global positioning. It 
will hopefully be the case in space weather, space situational 
awareness, and future explorations of the Moon and beyond.

Q4.  In your prepared statement, you say that ``We need friends and 
allies to help secure the global commons of space upon which we depend, 
to ensure that the space environment remains free of interference and 
open to peaceful uses by all.'' How should we be engaging both the new 
and established space players in ensuring the peaceful use of the 
global commons?

A4. The United States should engage new and established space players 
on the peaceful use of the global commons through the ``bottom-up'' 
networks described in the previous answer. The focus should be on the 
creation of measurable and verifiable norms of behavior, such as 
``rules of the road'' on satellite approaches and space debris 
generation. Effort should be put into creating treaties limiting ill-
defined capabilities (e.g., bans on ``space weapons'').
    The United States should also be proactive in creating a more 
stable and predictable international regime for private investment, for 
example, by clarifying property rights in space that can impact space 
debris (e.g., salvage and removal rights) and extraction of local 
resources (e.g., lunar oxygen and water). Such efforts must necessarily 
engage our international space partners since unilateral statements
    cannot create a predictable investment environment. On the other 
hand, not all space-faring nations should be accorded equal treatment. 
Countries like North Korea and Iran may have emerging space 
capabilities and aspiration, but nuclear and missile proliferation 
issues should accord them few benefits from being in the ``space 
club.'' The degree to which we cooperate with other nations in space 
will varying by the degree to which we hold common political interests 
in space and other areas.

Q5.  To what extent does cooperating on space activities improve 
domestic national capabilities in science and technology? Does that 
apply to emerging space powers as well as to the United States?

A5. Space cooperation can benefit domestic and national capabilities in 
science and technology directly and indirectly. Direct benefits can 
come from technology transfer, training, and education. Indirect 
benefits can come from a stronger political and economic basis of 
support for challenging space activities. For example, the 
International Space Station has benefited U.S. national. capabilities, 
not so much by technologies acquired from others (although there were 
lessons from Russian experiences) as from the international political 
support that enabled the project to proceed.
    International cooperation creates challenges for technical and 
political coordination, but realistic awareness of those challenges 
also forces more conscious deliberation on the purpose and structure of 
a space mission. Such pre-commitment thinking typically improves the 
chances for mission success if there is decision to cooperate.

Q6.  The International Space Station the ISS has become an orbiting 
symbol of global space cooperation, with many nations involved in its 
creation and sustainment. How best can the role of the ISS be expanded 
to become a tool to foster cooperation with emerging space nations?

A6. With the completion of the International Space Station, cooperation 
with emerging space nations can be fostered by encouraging utilization 
of this unique facility. ISS partners would need to be consulted, but 
one could imagine multiple opportunities for sponsoring payloads and 
experiments on the ISS. Depending on the quality of the experiments, 
resources contributed, and confidence established, invitations to be 
formal ISS partners on the ISS could be extended. These invitations 
would carry utilization rights and would have to be consistent with the 
foreign policy interests of the current partners. Thus invitations to 
India, South Korea, and possibly Brazil would be more likely than 
invitations to China. The latter has significant resources and 
expertise, but political and technical insight into the Chinese space 
program is lacking.
    Emerging space nations could also utilize commercial launches and 
potential commercial facilities in orbit to build up expertise prior to 
or in parallel with ISS activities. While some nations, such as Iran 
and North Korea, would still be barred from using U.S. suppliers, other 
countries would be able to without the same level of political 
sensitivity and symbolism of being on the ISS itself.

Questions submitted by Representative Pete Olson

Q1.  For what period of time does the US typically hold on to newly 
developed space technologies--whether talking about launchers, sensors 
or other related capabilities--before these technologies are replicated 
by other countries?

A1. A lead in space technology can be created and maintained by 
innovating faster than competitors and/or by trying to slow the 
competitors down through restricting the spread of technical 
innovations (e.g., export controls, classification, proprietary 
protections). Depending on the resources and incentives of competitors, 
a technical lead may persist for more than two decades (in the case of 
some space launchers and satellites) to less than 2 years (in the case 
of space-based information technologies.)
    U.S. funding for space technologies have declined and export 
controls have limited foreign markets so the U.S. space industrial base 
has consolidated and shrank. Even where necessary, export controls and 
other restrictive decisions create incentives for others to develop 
indigenous capabilities that, in the long run, further erode the 
ability of the U.S. to innovate faster.

Q2.  What capabilities are the emerging space-faring nations working 
hardest to develop, and why? Should we be concerned?

A2. The primary capability others are working hardest to develop and 
which cause the greatest concern are space launchers that can be used 
for ballistic missiles. The obvious concern is that such missiles could 
be used to carry weapons of mass. destruction,
    At the same time, U.S. commercial launch providers have largely 
been driven from the international competitive market in the face of 
European and Russian competition. Given the strategic important of 
space launch, it may be necessary to treat at least the larger vehicles 
as we do Naval shipyards--as a industrial capability that will be 
sustained at a certain size necessary to meet national needs.

Q3.  What are the long-term effects and strategic implications on our 
country's economy, our ability to engage in international 
collaborations, and our ability to exploit space, if we are reduced to 
launching a relative handful of civil missions each year?

A3. A prolonged low launch rate leads to the deterioration of the 
skilled work force necessary to routinely operate in space. This is the 
core reason why a prolonged gap in human spaceflight is bad for the 
country. A gap of a few years is not permanently harmful, but going 
beyond 6 years is harmful since experienced workers leave and new ones 
don't have opportunities to learn.
    At low flight rates, the ability of the United State to engage in 
international cooperation, much less lead in space, deteriorates as the 
intellectual capital in both government and industry retires and leaves 
without projects to attract new talent. The United States will still 
rely on space for its national security and economy, but it will become 
more reliant on others who remain active, such as Europe, Russia, and 
China. This is not a situation we should welcome or accept.

Q4.  How closely coupled are our commercial and civil space programs, 
including human spaceflight, to our national security space posture? 
Would a reduction in civil space R&D and infrastructure imperil the 
technology base and capabilities on the military side?

A4. U.S. commercial and civil space programs, including human 
spaceflight, are inextricably linked to our national security posture. 
With the end of the Cold War and the dramatic consolidation of the 
defense industrial base in the 1990's, it is not possible to talk about 
separate civil and defense industrial space capabilities. The human 
capital, facilities, technologies, and finances are intertwined. The 
U.S. loss of international market share in space launch and satellites 
has intensified the importance of the U.S. government as a primary 
customer.
    Current defense budget pressures will mean that national security 
space projects will be hard pressed to execute on time and on-schedule, 
much less create innovative technical breakthroughs as in the past. 
This means the lower civil space spending and fewer challenging 
projects (in science or exploration) will mean less technical 
innovation in the space sector as a whole. Such pressures can be 
partially offset through international cooperation and burden sharing, 
but ultimately, one cannot be good at a skill if you don't practice it 
yourself.

Questions submitted by Representative Parker Griffith

Q1.  Regarding space dominance, my question for the panel focuses on 
Human Space Flight Exploration. I would like to remind everyone, we 
currently have a capable and recently tested Constellation program 
intended for low earth orbit, which is managed in my district at 
Marshall Flight Center in Huntsville Alabama. Could you talk about the 
geopolitical perception of the United States if we walked away from the 
current national exploration initiative and further extended the human 
space flight gap by turning over the mission to a commercial industry 
that is yet to have a human rated space exploration vehicle?

A1. The current Global Exploration Strategy, developed by 14 space 
agencies, is developing a lunar architecture involving humans and 
robots as well as a robotic Mars Sample Return architecture. This 
unprecedented level of cooperation was driven by the United States on 
the assumption that it would have a robust space transportation 
capability beyond Low Earth Orbit. Even if commercial industry were to 
field a human-rated launch vehicle, that does not imply a human-rated 
heavy-lift launch vehicle or a vehicle of carrying humans beyond LEO.
    If the commercial industry is not able to field human-rated vehicle 
in a timely manner--and many international space agencies are 
skeptical--then the United States has much less to contribute to the 
Global Exploration strategy. U.S. influence on international space 
developments, technically, militarily, legally, politically, and 
economically, will decline as a result. States will have less reason to 
accept U.S. leadership in space if the U.S. is reliant on Russia, 
Europe, and possibly China, even for access to the International Space 
Station. U.S. scientific leadership will likely remain unchanged, 
however, due to the on-going strength of U.S. Earth and space science 
communities.

Q2.  How can the United States maintain its space dominance when we are 
reassessing the goals of human space flight exploration with 
presidential administration and continuing to underfund our NASA 
programs? What is needed for the United States to maintain its space 
dominance and inspire America's youth?

A2. The United States needs to show persistence and ability to execute 
long-range goals while still allowing for flexibility and innovation. 
There is no fundamental incompatibility between the potential use of 
commercial firms for access to LEO and Constellation--in fact they are 
synergistic with each other. However, it's important to have a known 
option in hand like Constellation, in order to take risks such as 
betting on undemonstrated commercial suppliers. The alternative of not 
having an assured capability and betting completely on commercial 
launchers is--in effect--a decision to acceptance dependence on foreign 
launchers should the commercial options be delayed or fail.

Q3.  While the United States is attempting to maintain space dominance, 
the financial and public support is waning as we get past 2010. How do 
we work to reverse this trend?

A3. Space is a deeply symbolic activity as well as one that is crucial 
to national security and economic competitiveness. Space achievements 
are a very positive reflection on the United States while space 
failures are negative indictments. In order to maintain U.S. space 
leadership, clearer links much be drawn between space and the 
geopolitical and economic standing of the United States as well as the 
symbolism of being a world power. These linkages were important during 
the Cold War and are still important today in environmental of rapid 
globalization and rising space power. In addition, and unlike the Cold 
War, there are new opportunities for space to touch people more 
directly--whether though everyday technologies like GPS or even space 
tourism in the future.
    In order to strengthen financial and public support for space, 
tangible demonstrations are needed that the United States is determined 
to lead exploration missions beyond Low Earth Orbit, that there will be 
opportunities for young people to be part of such missions, and that 
these missions will have a purpose that justifies that risks and costs. 
As I testified, determining whether and what kind of future humanity 
has in space is the kind of strategic question that can drive human 
space exploration, as well as technical innovation and international 
leadership here on Earth.
                   Answers to Post-Hearing Questions
Responses by Dr. Kai-Uwe Schrogl, Director, European Space Policy 
        Institute

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  How does Europe view the changing global space arena and what are 
Europe's plans for engaging new and emerging space nations?

A1. More actors are regarded by Europe as an enrichment and an 
opportunity to reach joint goals and objectives of global relevance and 
concern.
    Cooperation in science and Earth observation application areas for 
common goals and goods (e.g. Africa will be a focus for 2010 in the EU) 
are of high priority. The new focus for NASA on issues like climate 
change is a most welcome complement to Europe's strategy.
    Europe also envisages industrial partnerships wherever possible 
(e.g. with countries like South Korea).
    But Europe is at the same time careful about proliferation of 
critical technologies.
    Europe also encourages the development of an international 
regulatory framework which is good for economic and industrial 
development and space applications but which at the same time prevents 
``flags of convenience''.

Q2.  Recently, a number of European nations met in Prague to discuss 
Europe's future plans for human and robotic exploration. What was the 
outcome of that meeting, and what impact will U.S. decisions on its 
human exploration program have on Europe's plans?

A2. The Prague conference put Exploration on the agenda of the high 
political (ministerial) level.
    Europe intends to be a major actor in this field and will foresee 
the provision of the necessary funds in its future space budgets,
    A follow-on ministerial conference is already scheduled for 21 
October 2010 under the Belgium EU Council Presidency.
    Exploration is regarded as a global task; to be conducted in close 
partnership with the United States. The United States decisions will 
strongly affect European long-term plans, in particular regarding human 
exploration (mid-term plans for robotic exploration might be less but 
will still be affected).

Q3.  Many of the challenges that we face as a society-climate change, 
ensuring the availability of clean energy and water, and protection 
from potential near-Earth objects that might be headed toward Earth-
will require multilateral solutions. In your view, to what extent will 
these societal issues influence the development of global space 
capabilities?

A3. They are already influencing programmatic developments in Europe, 
in particular visible in GMES (the flagship program ``Global Monitoring 
for Environment and Security'') which covers issues related to 
sustainable development in Europe and in the global context.
    ``Visionary'' issues like energy from space and NEO are not on the 
current political agenda (nor are they on the agenda of the public or 
the media). The European policy is strongly focused on concrete 
benefits from space, accepts exploration as an important stimulus for 
long-term perspectives but is reluctant to lead political debates on 
utopian technologies

Q4.  Europe has developed The European Draft Code of Conduct for Outer 
Space Activities. What are the major elements of that draft code of 
conduct? Has Europe broached the issue of a code of conduct with 
emerging space nations?

A4. The major elements of the Draft Code of Conduct are information 
sharing on space activities and space situations, the notification 
rules for space activities and through that the establishing of 
confidence-building measures; it also contains provisions for organized 
implementation.
    The Draft Code of Conduct intends to establish first elements of 
traffic rules in outer space, which shall benefit all operators and 
raise the security and safety of space operations (for civilian as well 
as military uses).
    The Draft Code of Conduct expressly responds to United States 
interests in safeguarding its military as well as civilian space 
activities and assets.
    Presenting the Draft Code of Conduct can be regarded as the so far 
major diplomatic initiative by Europe in the field of international 
space policy. Consultations have started immediately after the 
presentation and are conducted with all States (major space powers, 
emerging space powers as well as other States and international 
organizations) throughout this year until a decision on the further 
procedure (most possibly an inter-governmental conference for agreeing 
on a Code; but not as a international treaty) is taken.

Q5.  In your testimony, you noted that Europe is working to ``educate 
the decision makers that space is a tool, a powerful tool to achieve 
results in these policy areas ranging from security to knowledge, 
mobility, resource management and the environment in particular.'' What 
specific approaches does Europe use to educate decision makers? Could 
you provide examples of how Europe conveys to the public the benefits 
of its investments in space?

A5. In the parliamentary field, the Committees of the European 
Parliament as well as the national parliaments are regularly briefed on 
space applications for their respective fields of competence. This is 
either done from inside the parliaments (there exist space groups in 
numerous parliaments) or from the outside through agencies, lobbyists 
or think tanks (like the European Space Policy Institute).
    The space groups in the national parliaments as organized in the 
European Interparliamentary Space Conference (EISC), which meets on an 
annual basis in order to assess the optimum use of space applications 
in policy areas and the development of the space sector as a whole. It 
invites relevant actors (agencies, industry, users) to inform its 
members in a comprehensive way.
    In the governmental field in particular the space agencies actively 
promote space applications vis-a-vis organizations, institutions and 
agencies (in all sectors like security, transport, resource management 
etc.) which are potential users; for that purpose, the space agency 
heads lead these ``marketing'' efforts vis-a-vis the heads of these 
actors.
    There are also numerous European bodies, whose competences range 
from decision-making to coordination (to mention on the highest level 
is the European Space Council and its informal meetings). They do 
encompass elements of ``education/awaress building through 
coordination/decision-making.''

Questions submitted by Representative Pete Olson

Q1.  From Europe's perspective, what actions should the U.S. take to 
strengthen our trans-Atlantic relationship in space-related 
capabilities and programs?

A1. The recent announcements for increasing international cooperation 
have been received a thoroughly positive reaction on the political as 
well as the agency level in Europe.
    Increasing cooperation should happen in all issue areas of space 
activities, civilian as well as security related.
    The field of space and security should be one particular focus for 
cooperation. In concrete terms: for jointly improving Space Situational 
Awareness, jointly develop space for Internal/Homeland Security and for 
technology developments (especially sensors). Space and climate change 
could be another prime focus.
    The United States should be truly ready to open its market for 
European space components and the participation of European companies 
in the enlarging commercialization of United States government funded 
space programs.
    Other areas for cooperation and coordination could be:

        <bullet>  Protection of the radio spectrum used by space 
        services from harmful interference.

        <bullet>  Protection of the space environment and mitigation of 
        orbital debris.

        <bullet>  Promotion of open, interoperable standards for space 
        systems.

        <bullet>  Promotion of open international markets in space 
        goods and services, and preventing the proliferation of 
        ballistic missile technologies.

        <bullet>  Encouragement of international consultation on the 
        development or modification of domestic regulations affecting 
        any Commercial space sector.

        <bullet>  Encouragement of international cooperation through 
        space projects that benefits all mankind, such as better 
        understanding of the global environment and explorations beyond 
        low Earth orbit.

Questions submitted by Representative Parker Griffith

Q1.  Regarding space dominance, my question for the panel focuses on 
Human Space Flight Exploration. I would like to remind everyone, we 
currently have a capable and recently tested Constellation program 
intended for low earth orbit, which is managed in my district at 
Marshall Flight Center in Huntsville Alabama. Could you talk about the 
geopolitical perception of the United States if we walked away from the 
current national exploration initiative and further extended the human 
space flight gap by turning over the mission to a commercial industry 
that is yet to have a human rated space exploration vehicle? How can 
the United States maintain its space dominance when we are reassessing 
the goals of human space flight exploration with presidential 
administration and continuing to underfund our NASA programs? What is 
needed for the United States to maintain its space dominance and 
inspire America's youth? While the United States is attempting to 
maintain space dominance, the financial and public support is waning as 
we get past 2010. How do we work to reverse this trend?

A1. These questions are addressed to United States institutions on the 
panel. Here a general remark from the European perspective is provided.
    Seen from Europe, the United States dominance is not primarily 
based on its role in exploration but on its military capabilities and 
in general the dominating space budgets. Europe understands the recent 
announcements regarding enlarging international cooperation in a way 
that the United States does not simply want to dominate is open to a 
fair partnership, in which Europe is most vividly interested.
    The American Youth might also be inspired by issues like the 
contribution of space to manage climate change and other issues of 
global concern.
    Seen from Europe, it is difficult to understand, how dominance in 
the field of space exploration can be maintained without autonomous 
human spaceflight capabilities.
                   Answers to Post-Hearing Questions
Responses by Dr. Ray A. Williamson, Executive Director, Secure World 
        Foundation

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  Earlier this year the Subcommittee held a hearing on Keeping the 
Space Environment Safe for Civil and Commercial Users. Dealing with the 
issues of orbital debris and minimizing any chances of in-space 
collisions are critical for maintaining our activities in. space. The 
growing number of nations active in space certainly adds to the 
importance of ensuring a safe space environment. How can the United 
States get more countries engaged in terms of responsible space 
behavior? What can be done to encourage newer space nations to engage 
in safe space practices?

A1. One of the most important actions the United States can take in 
encouraging other countries to develop responsible behavior in space is 
to take an active part in the discussions within the UN Committee on 
the Peaceful Uses of Outer Space (COPUOS) and other venues where these 
matters are discussed. In 2009, C99UOS established the Working Group on 
Space Sustainability, of the COPUOS Subcommittee on Science and 
Technology. That Working Group will be actively working on a set of 
``best practices'' in space that would, in the experience of experts in 
space operations, contribute greatly to a sustainable space 
environment. It is chaired by Dr. Peter Martinez of South Africa, an 
astronomer and key player in the development of S. Africa's space 
policy and young space agency.
    Newer space nations are generally hungry for information and 
policies that would improve their changes of operating safely in outer 
space. The United States can help emerging space entities improve their 
safety of operations without jeopardizing the U.S. control of sensitive 
technology by informing emerging spate states about responsible space 
behavior and demonstrating what responsible space behavior consists of. 
This could be done by participating in international workshops on safe 
operational practices. Secure World Foundation is doing what it can by 
cosponsoring and taking part in workshops designed to foster adherence 
to the international treaties on space, establish constructive. space 
policies, and discuss the importance of national regulation in emerging 
space nations.

Q2.  Recently, President Obama was in China meeting with Chinese 
President Hu Jintao. One of the areas they discussed was space. 
According to a U.S.-China Joint Statement released by the White House, 
the U.S. and China plan to expand discussions on space science 
cooperation and begin dialogue on human space flight and exploration 
What are your thoughts on how we should approach this dialogue? What 
are appropriate issues for the agenda? What areas of space science and 
human space flight might serve as a starting point for U.S.-China 
engagement?

A2. It is important for the United States to cooperate in a meaningful 
way with China, both to gain from China's growing scientific and 
applications prowess and also to establish better relations between the 
two countries. There are many areas of science of interest to 
scientists and applications experts both in China and the United 
States. These include terrestrial and space weather, climate change, 
and many areas of space exploration and human spaceflight. One way to 
start this process is to share scientific data and then as confidence 
is gained, it could be possible even to do some joint missions. Human 
spaceflight is more difficult because of the technology transfer issues 
that arise in a joint mission, but here again, dialog and sharing of 
data on the in-flight experiments and tests on human reaction to the 
space environment provide an avenue for cooperation at little risk to 
unwanted technology transfer. Both countries have a lot to learn in 
human health-related disciplines and cooperation could help.

Q3.  What is the impact of U.S. export controls, particularly ITAR, on 
the United States' ability to reach out to emerging space nations? What 
would you recommend be done?

A3. U.S. export controls can certainly impede the U.S. ability to reach 
out to emerging space States by preventing these countries from 
purchasing U.S. systems and components. Meanwhile, our economic 
competitors, including China, are selling systems to these States and 
even engaging in the transfer of technology and know-how to them. This 
not only assists emerging space States develop indigenous capabilities, 
it undercuts U.S. industry. For example, as mentioned in our testimony, 
Venezuela purchased a communications satellite and launch from China. 
As part of the arrangement, Venezuela sent a large team of engineers to 
work with Chinese engineers in the construction of the satellite and to 
be trained in operations. China has offered similar arrangements to 
other countries, including Nigeria, as part of a soft power strategy to 
increase its influence in regions with important strategic resources.
    Because a number of countries in Latin America, Asia and Africa are 
planning to create their own space programs, the United; States has an 
opportunity to work closely with them in developing their capabilities 
and to guide them toward incorporating safe practices in their space 
activities. In order to do so, however, the terns of ITAR will need to 
be restructured to make it possible for countries friendly to the 
United States at a minimum to have access to those U.S. space 
technologies for which there are equivalent competing technologies in 
the world market. Other more sensitive technologies could be considered 
on a case-by-case basis.

Q4.  Many of the challenges at we face as a society--climate change, 
ensuring the availability of clean energy and water, and protection 
from potential near--Earth objects that might be headed toward Earth-
will require multilateral solutions. To what extent will these societal 
issues influence the development of global space capabilities? What its 
the appropriate means by which to engage emerging and established 
space-faring nations on such issues?

A4. All of the challenges you mention in the question will require the 
use of satellite technologies to understand and tackle fully. Earth-
orbiting satellites alone have the capability to assess both harmful 
and beneficial changes in Earth's environment, no matter which country 
is experiencing them. Further, their synoptic view of the atmosphere, 
land, oceans and ice fields makes them ideal for monitoring large 
scale, subtle processes on Earth. However, the scale of observations 
needed and the cost require international cooperation both in space and 
on the Earth. Further, only sovereign States environmental measurements 
on their own soil and in order to measure climate change with accuracy 
and precision; scientists need local measurements.
    The U.S. practice of making most civilian satellite data openly 
available has gone a long way to support international cooperation on 
these important environmental matters. Some countries, however, will 
need additional capacity building in the form of training and 
assistance to make the most effective use of those data, and they can 
in return make local environmental data available to U.S. researchers. 
Established space faring States can therefore contribute instruments 
and satellites and the emerging space states can contribute local data 
and the manpower to collect data needed by scientists. The new 
communication tools, such as smart phones, netbooks, and digital 
cameras and analytic software available in the consumer marketplace can 
be put to use to assist data gathering and analysis at relatively low 
cost.

Q5.  To what extent does cooperating on space activities improve 
domestic national capabilities in science and technology? Does that 
apply to emerging space powers as well as to the United States?

A5. Scientists and engineers have discovered that cooperating on 
research projects with their counterparts from other countries can spur 
innovation in both countries because scientists from different cultures 
tend to approach problems from different directions even though they 
are working from the same basic scientific laws and data. Further, no 
country has the financial resources or personnel to tackle every aspect 
of science and engineering. As a result, countries develop specialties 
that contribute to diversity in scientific approaches to problems. Even 
emerging space powers can take a substantial part in research and 
development because they often specialize in areas of Earth science 
that are of local interest and in terrestrial and space weather 
research. Space weather research and monitoring, especially, depends on 
dispersed measurements of magnetic field intensity and direction at 
Earth stations located around the globe. Many countries with only 
modest research budgets can therefore contribute to science by taking 
these measurements, which require a high level of scientific 
sophistication but relatively small investments, and in doing so, take 
part in a worldwide scientific endeavor. It is a matter of fitting 
their contributions to their specific circumstances.

Q6.  In your prepared statement you note that ``It is important to 
assist emerging states as much as possible to develop clear policies 
that incorporate elements of Outer Space Treaty and the other . . . 
international agreements.'' What are your thoughts on how the U.S. 
should go about helping newer space States to develop space policies?

A6. Here again, continuing the U.S. constructive active involvement in 
UN COPUOS demonstrates to other members of COPUOS, many of whom are 
emerging space States, the U.S. interest in supporting the development 
of safe space practices and adherence to the space treaties. The United 
States has been very supportive of the new Working Group on Space 
Sustainability and has contributed several elements to the initial 
working document that was developed under France's leadership. In 
addition, U.S. involvement, through NASA, NOAA and the Department of 
State, in the Space Conference of the Americas in Mexico in November 
2010 will go a long way toward demonstrating U.S. interest in the 
development of beneficial and constructive space policies. Other 
regions hold similar conferences that are attended by high-level 
officials from emerging space States and they can be influenced 
positively by the U.S. experience in developing policies and 
legislation that supports the international treaties.

Questions submitted by Representative Pete Olson

Q1.  For what period of time does the US typically hold on to newly 
developed space technologies--whether talking about launchers, sensors 
or other related capabilities--before these technologies are replicated 
by other countries?

A1. This is an extraordinarily difficult question to answer, primarily 
because it differs almost on a technology-to-technology basis. There is 
also the challenge of classification--most often, these technologies 
are first developed by classified military programs and eventually make 
their way into commercial and civil programs. This question would best 
be answered by elements of the US intelligence community in a 
classified setting. This also assumes that work being done in the 
United States is not being done independently elsewhere. Europe, for 
example, now manufacture ITAR-free satellites that compete quite 
successfully with U.S. systems. This gives Europe companies far more 
flexibility than U.S. companies have on the world market for 
contracting with launch companies. Further, in certain technological 
arenas, such as high speed data processing, commercial technology 
developed for the consumer market is being inserted into the space 
realm in many different ways. These technologies are by their very 
nature available on a worldwide basis commercially.

Q2.  What capabilities are the emerging space-faring nations working 
hardest to develop, and why? Should we be concerned?

A2. Very few emerging space-faring nations are working on capabilities 
that are specifically for military benefits. However, since many space 
capabilities have dual military and civil uses, there are likely to be 
at least minimal military benefits from practically any space 
capability. Emerging space-faring nations are developing, 
instrumentation, payloads and launchers. Most of the payloads tend to 
be spacecraft like earth-observation satellites or communications 
satellites, and are used primarily for civilian applications. 
Launchers--and very few countries are actually working to develop their 
own launchers--are of concern because many of these technologies can be 
used to create a long-range ballistic missile program. One does not 
necessarily lead into the other, but there is a dual-use nature to the 
capability needed.
    The specific technologies that emerging space-faring nations 
concentrate on is usually a function of their overall strategy and 
goals for their use of space. For example, India initially focused on 
using their space program to provide socioeconomic benefits for their 
citizens, including telemedicine, communications, education and 
resource utilization. However, in recent years as their space program 
has matured, the focus has shifted toward military and defense 
applications, such as surveillance and imaging and even anti-satellite 
capabilities, and prestige applications, such as exploration of the 
Moon.

Q3.  What are the long-term effects and strategic implications on our 
country's economy, our ability to engage in international 
collaborations, and our ability to exploit space, if we are reduced to 
launching a relative handful of civil missions each year?

A3. The vast majority of national security and economic benefits that 
the United States derives from space are a product of the non-human 
spaceflight programs. However, human spaceflight is a significant 
source of jobs; furthermore, it is a primary means by which the United 
States engages in cooperation in space by using space collaboration as 
a soft power tool of international outreach.

Q4.  How closely coupled are our commercial and civil space programs, 
including human spaceflight, to our national security space posture? 
Would a reduction in civil space R&D and infrastructure imperil the 
technology base and capabilities on the military side?

A4. Commercial space is a significant part of the U.S. national 
security space posture. In addition to providing the industrial 
capacity to produce the space capabilities that the U.S. military 
requires, the commercial space sector has also become a sort of 
``emergency reserve'' for certain capability shortfalls. For example, 
80% or more of the U.S. military's satellite communication traffic for 
the Middle East and Afghanistan currently travels over commercial 
satellite networks, because the military satellite networks cannot 
provide the necessary bandwidth. Remote sensing imagery is another 
example.
    Civil space programs have less of a direct impact on the US 
national security space posture. There are concerns that cancellation 
of the human space flight program would depress the U.S. solid-rocket 
motor industrial base, and thus have a negative effect on US security 
space posture, but this would be difficult to quantify.

Questions submitted by Representative Parker Griffith

Q1.  Regarding space dominance, my question for the panel focuses on 
Human Space Flight Exploration. I would like to remind everyone, we 
currently have a capable and recently tested Constellation program 
intended for low earth orbit, which is managed in my district at 
Marshall Flight Center in Huntsville Alabama. Could you talk about the 
geopolitical perception of the United States if we walked away from the 
current national exploration initiative and further extended the human 
space flight gap by turning over the mission to a commercial industry 
that is yet to have a human rated space exploration vehicle?

A1. The geopolitical perception would have more to do with the end 
result of such a change in policy rather than the means of doing so. 
The inability of the United States to continue to place humans into 
space and be at the forefront of space exploration could be seen 
globally as a sign of the weakening of American leadership in space and 
technology. The policy decision concerning the direction in which the 
American human spaceflight program proceeds should be seen in the light 
of which strategy is most likely to produce a successful result and 
strengthen the American lead in technology and space industry. The 
strategy should also link U.S. space goals and activities to other 
issues in the international arena. The problems and concerns countries 
have about other political and technological issues could affect how 
much they would be willing to cooperate with the United States on space 
activities.

Q2.  How can the United States maintain its space dominance when we are 
reassessing the goals of human space flight exploration with 
presidential administration and continuing to underfund our NASA 
programs? What is needed for the United States to maintain its space 
dominance and inspire America's youth?

A2. Proper funding is essential for success of any major undertaking, 
and human spaceflight and space exploration are no different. However, 
the United States continues to be the preeminent space power, despite 
changes in our human space flight exploration program: a majority of 
the satellites on-orbit is owned/affiliated with the United States, and 
the U.S. government is a major buyer of space capabilities. It also 
spends more on its civil and classified military program than the 
spending of all other countries combined.
    Inspiring America's youth is critical, but it is only part of the 
problem--many in recent generations are proud of NASA's accomplishments 
but still do not seek degrees or jobs in the scientific and technical 
fields. This perhaps has more to do with economics than inspiration--
youth with aptitude in mathematics are likely to find the career 
economic opportunities in the financial or Silicon Valley world to be 
more alluring than those in the aerospace engineering or scientific 
world.

Q3.  While the United States is attempting to maintain space dominance, 
the financial and public support is waning as we get past 2010. How do 
we work to reverse this trend?

A3. The United States needs a defined strategy for what it hopes to 
achieve in space, and then give the programs defined by the strategy 
sufficient resources (funding, people, high-level support) to carry it 
out. Otherwise it is uncertain what the United States wishes to 
accomplish and as such, the public, focused on economic uncertainty at 
home and other more tangible issues, is reluctant to throw its support 
behind an amorphous program.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



</pre></body></html>
